<html>
<title> - NOMINATIONS OF GILBERT B. KAPLAN, TO BE UNDER SECRETARY FOR INTERNATIONAL TRADE, DEPARTMENT OF COMMERCE; MATTHEW BASSETT, TO BE ASSISTANT SECRETARY FOR LEGISLATION, DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND ROBERT CHARROW, TO BE GENERAL COUNSEL, DEPARTMENT OF HEALTH AND HUMAN SERVICES</title>
<body><pre>[Senate Hearing 115-290]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-290

                   NOMINATIONS OF GILBERT B. KAPLAN,
                  MATTHEW BASSETT, AND ROBERT CHARROW

=======================================================================

                                HEARING

                               BEFORE THE
                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                 ON THE

                             NOMINATIONS OF

   GILBERT B. KAPLAN, TO BE UNDER SECRETARY FOR INTERNATIONAL TRADE, 
DEPARTMENT OF COMMERCE; MATTHEW BASSETT, TO BE ASSISTANT SECRETARY FOR 
   LEGISLATION, DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND ROBERT 
CHARROW, TO BE GENERAL COUNSEL, DEPARTMENT OF HEALTH AND HUMAN SERVICES

                               __________

                             AUGUST 3, 2017

                               __________

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     

            Printed for the use of the Committee on Finance
            
            
            
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-926 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6a0d1a052a091f191e020f061a4409050744">[email&#160;protected]</a>             
            
            


                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3

                         CONGRESSIONAL WITNESS

Boozman, Hon. John, a U.S. Senator from Arkansas.................     6

                        ADMINISTRATION NOMINEES

Kaplan, Gilbert B., nominated to be Under Secretary for 
  International Trade, Department of Commerce, Washington, DC....     8
Bassett, Matthew, nominated to be Assistant Secretary for 
  Legislation, Department of Health and Human Services, 
  Washington, DC.................................................     9
Charrow, Robert, nominated to be General Counsel, Department of 
  Health and Human Services, Washington, DC......................    11

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Bassett, Matthew:
    Testimony....................................................     9
    Prepared statement...........................................    29
    Biographical information.....................................    30
    Responses to questions from committee members................    33
Boozman, Hon. John:
    Testimony....................................................     6
Brown, Hon. Sherrod:
    ``Trump Can Kill Ohio Plan to Save Health Exchanges,'' by 
      Marty Schladen, The Columbus Dispatch, August 1, 2017......    35
Charrow, Robert:
    Testimony....................................................    11
    Prepared statement...........................................    36
    Biographical information.....................................    37
    Responses to questions from committee members................    49
Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    51
Kaplan, Gilbert B.:
    Testimony....................................................     8
    Prepared statement...........................................    52
    Biographical information.....................................    53
    Responses to questions from committee members................    60
Wyden, Hon. Ron:
    Opening statement............................................     3
    Prepared statement...........................................    77

                                 (iii)

 
                   NOMINATIONS OF GILBERT B. KAPLAN,
                       TO BE UNDER SECRETARY FOR
                          INTERNATIONAL TRADE,
                        DEPARTMENT OF COMMERCE;
                    MATTHEW BASSETT, TO BE ASSISTANT
                       SECRETARY FOR LEGISLATION,
                          DEPARTMENT OF HEALTH
                          AND HUMAN SERVICES;
                       AND ROBERT CHARROW, TO BE
        GENERAL COUNSEL, DEPARTMENT OF HEALTH AND HUMAN SERVICES

                              ----------                              


                        THURSDAY, AUGUST 3, 2017

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:05 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Grassley, Crapo, Thune, Cassidy, Wyden, 
Stabenow, Cantwell, Menendez, Carper, Brown, Bennet, Casey, 
Warner, and McCaskill.
    Also present: Republican Staff: Mark Prater, Deputy Staff 
Director and Chief Tax Counsel; Kimberly Brandt, Chief Health-
care Investigative Counsel; Nicholas Wyatt, Tax and Nominations 
Professional Staff Member; Rory Heslington, Professional Staff 
Member; Shane Warren, Chief International Trade Counsel; and 
Jeff Wrase, Chief Economist. Democratic Staff: Michael Evans, 
General Counsel; Ian Nicholson, Investigator; Elissa Alben, 
International Trade Counsel; Elizabeth Jurinka, Chief Health 
Advisor; Greta Peisch, International Trade Counsel; Tiffany 
Smith, Chief Tax Counsel; and Jayme White, Chief Advisor for 
International Competiveness and Innovation.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. Welcome to all of you folks to this morning's 
hearing.
    Today we will consider the nominations of Gilbert Kaplan to 
be Under Secretary of Commerce for International Trade, Matthew 
Bassett to be Assistant Secretary for Legislation at Health and 
Human Services, and Robert Charrow to serve as General Counsel 
of Health and Human Services.
    I would like to extend a warm welcome to each of these 
nominees here today, and I want to extend congratulations to 
each of you for your nominations and thank you for your 
willingness to serve in these important positions.
    In today's hearing I want to stress two major themes: 
integrity and responsiveness. These are both important elements 
for any position in government, particularly for a Senate-
confirmed position. They are absolutely essential for the 
positions under review today.
    The Under Secretary of Commerce for International Trade is 
responsible for promoting American trade around the globe and 
enforcing U.S. trade laws. If confirmed, Mr. Kaplan will need 
to be a strong advocate for American exporters while holding 
our trading partners accountable for improper trade practices.
    There is a good deal of work that needs to be done to 
improve compliance with our Nation's anti-dumping and 
countervailing duty laws, but that mission should not come at 
the expense of seeking to expand opportunities for U.S. goods 
and services providers. It will be critical that the Department 
of Commerce work with Congress and consult closely with members 
of the committee.
    Frankly, there is room for improvement here, but I am 
confident Mr. Kaplan understands the importance of the 
Department's responsibilities to Congress and will work with 
Secretary Ross to ensure those responsibilities are met.
    As for the nominees to the Department of Health and Human 
Services, these are very, very important nominees as well. Your 
responsibilities are similarly connected to themes of integrity 
and responsiveness.
    Mr. Bassett has been nominated to serve as an Assistant 
Secretary with the specific function of performing legislative 
affairs. This means that both the agency as well as Congress 
will rely on you to ensure that we are kept well informed of 
the goings-on at HHS.
    This will be critical over the next few months. Obviously, 
the effort to fix our Nation's health-care system suffered a 
setback recently. The recent series of events intensifies the 
importance of this position, as cooperation between Congress 
and HHS will likely be more essential than ever.
    Members of the Finance Committee expect to be in constant 
contact with HHS and need timely and responsive answers to 
questions and submitted inquiries. We hope that Mr. Bassett 
will commit today to providing answers.
    Finally, I would like to highlight the critical importance 
of integrity for the position of General Counsel at HHS, for 
which Mr. Charrow has been nominated. Now, Mr. Charrow 
certainly has a considerable amount of experience as a 
practicing lawyer, but the position of General Counsel at HHS 
brings with it challenges that are sure to be new.
    There are likely to be times where the officials in the 
Department and the White House may disagree on how to proceed 
on a specific course of action. If confirmed, your 
responsibility will be to ensure that the laws on the books, as 
written, are followed and implemented.
    We have seen some thorny issues at both Commerce and at HHS 
as the administration has, in some ways, gotten off to a rocky 
start. That is all the more reason for the committee to move as 
quickly as possible to consider and report these nominations.
    Before I conclude, I want to take a moment to talk about 
the committee's agenda after the August recess and the next few 
months thereafter.
    In the fall, the main priority of the committee will surely 
be tax reform. I intend to work with my colleagues to draft and 
report tax reform legislation in regular order.
    That will mean that we are going to have to work very 
assiduously and closely together to get things done. That means 
hearings and a markup here in the committee.
    While tax reform will be the major focus, there are other 
priorities as well. In September, I plan to hold a hearing on 
the CHIP reauthorization, which I know is a big priority for 
members on both sides of the aisle.
    We have also heard a lot of demands from members of the 
committee for a health-care hearing. I intend to do that as 
well at some point shortly after the recess.
    Long story short, it is going to be a busy fall for the 
Finance Committee, but it is always busy. So I do not see what 
changes.
    I think I speak for all of the members of the committee 
when I say that we would not have it any other way. So with 
that, I am very grateful to have as my co-leader on this 
committee Senator Wyden, and we will turn to you now.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. Mr. 
Chairman, thank you for our work together and the very 
constructive statement that you have made this morning.
    I am going to talk about health care first and then go to 
taxes and the nominees, if I might.
    This committee works best, of course, on a bipartisan 
basis. There are certainly going to be some very good 
opportunities in the months ahead. I am particularly pleased 
that the chairman, with respect to health, focused on the 
Children's Health Insurance Program, because that is a program 
that has a time stamp on it.
    It expires on September 30th. It serves more than 8 million 
kids. These are kids who are falling between the cracks. They 
are kids who are not eligible for Medicaid, but they are still 
coming from families who are on an economic tightrope.
    Mr. Chairman, one of the things that I enjoy the most about 
our working relationship is talking about 20 years ago when you 
and Ted Kennedy teamed up to create CHIP. Colleagues, very 
often when you visit with Chairman Hatch in his office, he 
always says, ``Stick with me, kid. I will make you a 
legislator. That is what I did with Kennedy.''
    But the fact is, CHIP was a bipartisan effort by Chairman 
Hatch and Senator Kennedy, and they demonstrated against all 
the odds that bipartisan health-care policy is not just 
possible, it is the right thing to do.
    So let me mention one other matter. Mr. Chairman, as you 
touched on, in addition to the children's health program, in 
light of the events of the last few weeks, we know that members 
on both sides are eager to bring up additional health-care 
ideas in an additional upcoming hearing. I am glad, Mr. 
Chairman, that you made it clear that it would be on our 
calendar as well.
    Now, with respect to tax reform, as we have heard our 
colleagues say on both sides, the tax system is just broken. I 
have spent a significant amount of my time over the last few 
years writing the only two actual bipartisan Federal 
comprehensive tax reform plans, first with our colleague Judd 
Gregg, and most recently with Dan Coats, who sat where Senator 
Cassidy is sitting today.
    So I know what this challenge is all about. Some people who 
are smart on this subject like to say tax reform is hard, and 
that is why it ought to be handled on a bipartisan basis. I 
told the chairman of my concern that the Majority Leader has 
dismissed our outreach and just said here in the last couple of 
days that he was going to use the same partisan ``my-way-or-
the-highway'' approach on tax reform that did not work out that 
well on health care.
    My hope is that it changes. I would just say to colleagues, 
if you go the partisan route on taxes, you are trampling on the 
history of successful tax reform, because the history of 
successful tax reform is, you only get it by working in a 
bipartisan way. There are too many tough decisions and too many 
challenges with respect to this tax break or that tax break if 
one side tries to do it by themselves.
    So I think Senator Hatch is very sincere in wanting to work 
with us, and I hope some of his history with respect to 
bipartisanship on this issue finds its way to Leader 
McConnell's office.
    Now, today we are going to talk about three nominations. 
The first is Bob Charrow's nomination to serve as General 
Counsel of the Department of Health and Human Services. This is 
a tough job under normal circumstances, but as I told him in 
our private meeting, I do not think he has seen tough until he 
tries to tackle it at this point in time. That is because HHS's 
General Counsel's role is to enforce the law, and right now it 
seems that this administration is spending a fair amount of 
time trying to undermine the law.
    A few examples: the law on the books tells the 
administration to make cost-sharing payments to help hold down 
the cost of health insurance for millions of Americans. But the 
President keeps threatening to cut those payments to score what 
I think is a misguided political win.
    And the fact is all of us--all of us who worked so hard on 
Medicare Advantage and a role for the private sector--we know 
that these kinds of statements are like pouring gasoline on the 
fires of uncertainty in the private health insurance 
marketplace. So my hope is that we do not see the health-care 
marketplace go into a tailspin and we do not see Americans 
getting hit in the pocketbooks with premium hikes on January 
1st. But this idea of constantly threatening, this 
rollercoaster approach with respect to making cost-sharing 
payments, I think, is causing a lot of uncertainty in the 
marketplace.
    Additionally, the administration is taking taxpayer dollars 
that are intended to help individuals and families sign up for 
health coverage, and it is using those funds to actually stifle 
enrollment. That means more people are living without access to 
the care they need.
    I recall sitting right here during Secretary Price's 
nomination hearing, when he said, ``My role will be one of 
carrying out the law you all in Congress pass. It is not the 
role of the legislator.'' But the fact is--and I have just 
given two specific examples--the administration has spent a lot 
of time undermining the law, and it certainly is a different 
story than we heard from the Secretary.
    The bottom line for Mr. Charrow, should he be confirmed, is 
he needs to ensure the Department faithfully executes the law, 
meets the highest standard of ethics, and cooperates fully with 
congressional oversight. He has been told in advance he is 
going to get some tough questions today with respect to whether 
he is prepared for that task.
    Next is Mr. Matthew Basset, nominated to serve as Assistant 
Secretary for Legislation at the Department of Health and Human 
Services. It is my hope that the Senate moves in a bipartisan 
respect on health care and the many issues under the HHS 
umbrella.
    We will hear his views with respect to how he would be the 
liaison between the Department and the Congress in order to 
ensure that there are bipartisan efforts in the days ahead. And 
we are expecting his commitment to respond to requests from all 
members of this committee, from Democrats and Republicans.
    Finally, turning to the trade area, Mr. Gil Kaplan is 
nominated to serve as the Under Secretary for International 
Trade at the Department of Commerce. That, in effect, puts him 
at the top of the International Trade Administration.
    So far in this administration, we have heard a lot of tough 
talk on trade enforcement, but there has not been a lot of 
follow-through. And there is a real cost to all of the over-
hyped rhetoric when you see it as just that: talking and not 
action. For example, in response to all of the tough talk on 
steel, countries have shipped even more steel to the United 
States in a rush to get ahead of any hike in tariffs.
    Just think about that--all kinds of tough talk. What has 
happened? Countries are shipping even more steel to our country 
just because they are trying to game the system. My friend, Leo 
Gerard, president of the Steelworkers, recently told me that 
imports have surged 18 percent since the President launched his 
section 232 investigation. Meanwhile, the administration 
appears to be backing off. This episode demonstrates how tough 
talk without a real strategy hurts our workers.
    Mr. Kaplan's background suggests that he is going to be a 
tough trade enforcer. That is exactly what we need at the 
International Trade Administration. My guess is, he is going to 
refrain from making promises on trade enforcement unless and 
until the administration (1) does its homework, and (2) is 
actually prepared to follow through.
    Beyond enforcement, they also have a key role in growing 
exports, and people ask about the export issue. For us on this 
committee, it is key that we grow things in America and make 
things in America, add value to them in America, and ship them 
all over the world. There are going to be a billion middle-
class consumers in Asia in a few years. We want them buying 
American products.
    So we look forward to hearing how Mr. Kaplan is going to 
ensure that our workers and manufacturers do not lose out on 
opportunities to sell to consumers around the world. That also 
means the administration backing away from self-defeating 
budget cuts.
    So with respect to this morning's agenda, Chairman Hatch is 
absolutely right. This committee is going to have its hands 
full. We are going to be working on key health issues, and we 
talked about the two areas, specifically, that we are going to 
be zeroing in on coming right out of the gate.
    Then we both have talked about tax reform. And the chairman 
knows my desire and the desire of many on our side who want to 
work in a bipartisan way. I hope the Majority Leader will 
change his mind and make that possible.
    Finally, Mr. Chairman, I share your interest in getting the 
kind of nominees we have today confirmed, and confirmed 
quickly. So we will be working with you in a bipartisan way on 
that.
    The Chairman. Thank you, Senator.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. We are really happy to have Senator Boozman 
here, and we will call on him in just a minute--a very fine 
Senator.
    But I would like to extend first a warm welcome to our 
three nominees today. I want to thank you all for being here.
    First we will hear from Mr. Gil Kaplan, a partner in the 
international trade practice at King and Spalding. Mr. Kaplan 
has decades of practice in trade law, including notably the 
first successful prosecution of a countervailing duty case 
against China in 2007.
    Mr. Kaplan has extensive experience serving in senior U.S. 
governmental positions, including as Deputy Assistant Secretary 
and Acting Assistant Secretary for Import Administration at the 
Department of Commerce. He received both his undergraduate and 
law degrees from Harvard University.
    Next will be Mr. Matthew D. Bassett. Fortunately for Mr. 
Bassett, my colleague Senator Boozman will be providing his 
introduction.
    Senator Boozman, I thank you for attending today. We will 
just have you proceed with your statement at this point.

                STATEMENT OF HON. JOHN BOOZMAN, 
                  A U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Well, thank you, Chairman Hatch and 
Ranking Member Wyden, for the opportunity to do this, and just 
to take a second to talk about a good friend, Matt Bassett.
    We certainly appreciate his willingness to serve, along 
with his family. I think all of us as members understand how 
difficult these jobs are and the time commitment, so we do 
appreciate, again, their willingness to go forward with such an 
important position.
    Matt is a health-care policy expert with a career spanning 
over 20 years in both the public and private sectors. I first 
met Matt towards the beginning of his career in January 2002, 
when he was working for Congressman Pete Sessions as a health-
care legislative aid.
    During my tenure in the House, I was an active participant 
in the Doctors' Caucus, where medical providers in Congress 
were able to utilize their medical expertise in the development 
of 
patient-centered health-care policy. It was my pleasure to 
continue to work with Matt on these issues when he served as 
Deputy Chief of Staff to Representative Ernie Fletcher.
    Matt continued to work to advance patient-centered policies 
with a goal of improved quality and delivery of care. Matt 
continued his leadership in health care as the Chief of Staff 
to the Kentucky Cabinet for Health and Family Services, where 
he gained an invaluable experience in navigating Kentucky's 
Medicaid and insurance markets.
    He continued this work in the private sector, where he 
tackled legislative and regulatory routes to improve 
availability of treatment services for Medicaid participants. 
His involvement in the private sector, along with his 
experience at both the Federal and State level, are a testimony 
to his dedication to the advancement of a better standard of 
health care.
    Matt has the deep breadth of understanding of the 
complexity of our health-care system that is so crucial as we 
continue to debate health care.
    Additionally, given his time serving in the House, he is 
keenly aware of the importance of the relationship between the 
legislative and the executive branches. I am more than 
confident he will be responsive to member questions and 
concerns when confirmed, which is so, so very important.
    Matt has been nominated to fulfill an important role during 
an exceptionally critical time. I know that his experiences and 
expertise will provide invaluable insight in meeting these 
challenges as we work to strengthen our health-care system and, 
as the chairman and ranking member pointed out, provide 
integrity and responsiveness.
    I know as a member, that is what I want in a person 
fulfilling that position. I cannot think of anybody who will do 
a better job.
    Thank you. I yield the floor.
    The Chairman. Well, thank you, Senator. That is a very good 
introduction.
    You have to feel pretty good about that, Mr. Bassett. I 
feel pretty good about it myself. [Laughter.]
    We appreciate you taking time today--we know you have a 
busy schedule--to be with us. It means a lot.
    Finally, we will hear from Mr. Robert B. Charrow, a 
principle shareholder at Greenberg Traurig, LLP, since 2002. 
Prior to his current work, Mr. Charrow was a partner at Crowell 
and Moring from June 1989 through June 2002.
    While in private practice, he has represented numerous 
clients on matters involving CMS, FDA, PHS, OCR, and OIG. I do 
not know how you keep all of those straight.
    He also has former public service experience as the 
Principle Deputy General Counsel at the Department of Health 
and Human Services in the Reagan administration, serving from 
July 1985 to April 1989. Mr. Charrow also worked with President 
Reagan as the Deputy Chief Counselor for the President's 
reelection committee.
    I really like you. [Laughter.] I just want you to know.
    Mr. Charrow has also worked for nearly 8 years as an 
associate professor of law at the University of Cincinnati's 
College of Law and the Howard University School of Law. He 
received his undergraduate degree from Harvey Mudd College and 
his law degree from Stanford University School of Law.
    So we are very happy to welcome you here today.
    Mr. Kaplan, you can begin now with your opening remarks.

STATEMENT OF GILBERT B. KAPLAN, NOMINATED TO BE UNDER SECRETARY 
FOR INTERNATIONAL TRADE, DEPARTMENT OF COMMERCE, WASHINGTON, DC

    Mr. Kaplan. Thank you very much, Mr. Chairman. I would just 
like to take a second to introduce my wife, Betty Ann, and 
thank her for her love and support. I would like to introduce 
two people who have worked with me for over 30 years: Lisa 
Harris and Bonnie Byers. And I would like to introduce my 
partner, Tom Spulak, who has helped me throughout this 
confirmation process.
    The Chairman. Great. We welcome all of you here and are 
very proud of you. I have to say, you are willing to sacrifice 
your husband for a number of years. I give you a lot of credit 
for that. [Laughter.]
    Go ahead. I am sorry.
    Mr. Kaplan. Thank you.
    Mr. Chairman, Ranking Member Wyden, members of the 
committee, it is a great honor to be here today as the 
President's nominee to serve as Under Secretary of Commerce for 
International Trade.
    I first testified before this committee in 1986, when I was 
the Deputy Assistant Secretary of Commerce for Import 
Administration, and I continue to be deeply impressed by the 
rigorous and careful attention this committee gives to 
international trade.
    In some ways, I feel I have been preparing to hold this 
position during my entire career. When I was fortunate enough 
to run Import Administration in the 1980s under President 
Reagan and Commerce Secretary Malcolm Baldrige, we conducted 
over 500 antidumping and countervailing duty cases, including 
cases on agricultural products, steel products, and 
semiconductors. That unit, now called Enforcement and 
Compliance, will be one of my areas of responsibility at the 
International Trade Administration, if I am confirmed.
    After leaving Import Administration, I devoted myself to 
representing American companies and workers in a wide range of 
trade cases and trade policy issues. As the chairman noted, I 
filed and prosecuted the first successful countervailing duty 
case ever against China.
    Another area of my responsibility, if I am confirmed, will 
be developing programs to build up the international 
competitiveness of the manufacturing base in the United States, 
within the Industry and Analysis unit of ITA. In that regard, I 
was the cofounder of the Manufacturing Policy Initiative at 
Indiana University School of Public and Environmental Affairs, 
the first and only university program in the country focusing 
on what public policy steps should be taken to revitalize U.S. 
manufacturing.
    I will also be working extensively to promote and increase 
American exports and break down trade barriers through the 
Global Markets and U.S. and Foreign Commercial Service unit at 
Commerce. In that regard, while I was at Commerce, I was one of 
the key negotiators of the U.S.-Japan Agreement on Trade in 
Semiconductors and later enforced the terms of that agreement.
    That was one of the most successful agreements ever in 
opening a foreign market for our exports, particularly a very 
difficult foreign market to open.
    In addition, there are several over-arching themes I want 
to focus on if I am confirmed. Those are making the whole world 
open to U.S. digital trade, ensuring U.S. intellectual property 
is protected everywhere in the world, and ensuring that small 
and medium-sized enterprises can benefit from global trade.
    We need to do all of this while making sure we do no harm 
to U.S. consumers and to the many companies, workers, farmers, 
and ranchers who benefit so much from trade.
    In closing, I would like to tell a very brief story about 
my family. My father and mother arrived in this country in 1946 
after surviving the Holocaust. They arrived on a boat called 
the Ernie Pyle.
    When they docked in New York, my father had $7 in his 
pocket, which he had won playing cards on the boat. I think my 
parents would be truly amazed if they could be here today for 
this hearing, amazed at the greatness of this country and at 
the graciousness of all the people who have worked with me in 
moving this appointment forward.
    Thank you, Mr. Chairman, Ranking Member Wyden, and members 
of the committee. I would be pleased to answer your questions.
    The Chairman. I am sure that your parents are watching and 
that they are very proud of you.
    Mr. Kaplan. Thank you.
    [The prepared statement of Mr. Kaplan appears in the 
appendix.]
    The Chairman. All right. Let us go to you, Mr. Bassett.

    STATEMENT OF MATTHEW BASSETT, NOMINATED TO BE ASSISTANT 
   SECRETARY FOR LEGISLATION, DEPARTMENT OF HEALTH AND HUMAN 
                    SERVICES, WASHINGTON, DC

    Mr. Bassett. Senator, good morning.
    The Chairman. Good morning.
    Mr. Bassett. Thank you for the opportunity to be here. If I 
could take one minute, first, to thank Senator Boozman for his 
very generous and kind introduction of me, and for his many 
years of friendship. I very much appreciate it.
    If I could, I would like to take a minute to introduce and 
thank my family who are here: my wife Stacy and my son Matthew. 
Can you say ``hello''? My father David Bassett and my uncle Ben 
Ash have also joined us. And I must say ``hello'' to my mother 
who is, no doubt, one of five people enthusiastically tuning 
into C-SPAN today just to see me. [Laughter.]
    Chairman Hatch, Ranking Member Wyden, thank you for 
inviting me to testify. I am honored to stand before you as the 
President's nominee for the Assistant Secretary for Legislation 
at the Department of Health and Human Services.
    Senators, I have enjoyed the privilege of working in the 
health-care industry for over 20 years. I have seen many 
challenges to our Nation's health-care system firsthand. I have 
seen these challenges from the patient side, provider and payer 
side, public and private side, and lastly, the State and 
Federal side.
    I am of the firm belief that as Americans, we are very 
fortunate to live in a country that has the greatest, most 
innovative health-
care system in the world. People from other countries travel to 
the United States to seek the latest cutting-edge care and 
technologies that simply do not exist back home.
    Yet our health-care system is not without substantial 
challenges. High-quality, affordable care is at risk for an 
unacceptable number of Americans and their families.
    Addressing these challenges is an acute interest to me, and 
having served as Chief of Staff for Kentucky's Cabinet for 
Health and Family Services in the great Commonwealth, I have 
seen firsthand how policy formed on Capitol Hill affects the 
folks back home.
    At the time when I served in the position, Kentucky was 
experiencing an opioid scourge, imploding individual and small 
group markets, and a Medicaid program that our State simply 
could not afford.
    Should I have the honor to be confirmed, I hope to have the 
opportunity to work with all of you and your staffs to address 
the similar challenges that we face today.
    And perhaps the most significant qualification for the 
position to which I have been nominated is the fact that I 
actually served as a Capitol Hill staffer. Having worked for 
two members of the House of Representatives, I understand the 
unique role the Assistant Secretary for Legislation has in 
working with members of Congress to make sure constituent 
voices are heard and their needs are addressed in Washington, 
DC.
    The Office of the Assistant Secretary for Legislation is 
responsible for the development and implementation of the 
Department's legislative agenda. As a liaison between HHS and 
Congress, I would not take this responsibility lightly. I 
understand the information you rely on within HHS and all the 
agencies contained therein is critical to fulfill your 
legislative duties.
    Should I receive the confidence of the Senate to serve as 
the Assistant Secretary for Legislation, I pledge to stay true 
to these lessons learned and to ensure that each and every day 
ASL stands as a resource for Congress, reliably and readily 
bringing these two great bodies to best serve the needs of the 
American people.
    Thank you again for the opportunity to appear this morning, 
and I look forward to answering your questions.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Bassett appears in the 
appendix.]
    The Chairman. Mr. Charrow?

 STATEMENT OF ROBERT CHARROW, NOMINATED TO BE GENERAL COUNSEL, 
    DEPARTMENT OF HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Mr. Charrow. Chairman Hatch, Ranking Member Wyden, and 
members of the committee, it is an honor to appear before you 
as the President's nominee to serve as the General Counsel of 
the Department of Health and Human Services.
    I am joined by my wife, Dr. Veda Charrow, a retired Federal 
employee, most recently of NIH.
    I would like to thank this committee for considering my 
nomination. I have had many productive meetings with some of 
you and your staff already, and I look forward to discussing 
the issues facing HHS with you today.
    HHS's jurisdiction extends from the bench to the bedside, 
underwriting basic research that will lead to tomorrow's 
miracle drugs, new devices and biologics, and financing health 
care through various programs, including Medicare, Medicaid, 
and the Children's Health Insurance Program. In that regard, 
HHS is a unique blend of science, health care, and finance.
    I was privileged to serve as the Deputy General Counsel and 
Principal Deputy General Counsel during President Reagan's 
second term and into the presidency of George H.W. Bush. Aside 
from working on President Reagan's reelection campaign as a 
lawyer, I had been a law professor with little experience in 
managing anyone other than scared law students.
    My first few months at HHS in 1985 were a rude awakening. 
But I was lucky. The career attorneys and staff at the Office 
of the General Counsel were remarkably helpful and extremely 
competent, also very patient--traits that I understand persist 
and have not been lost to the passage of time. In fact, some of 
the career attorneys in the office 30 years ago still work 
there today.
    Since leaving HHS in 1989, I have been in private practice, 
focusing on health-care law, administrative law, and general 
appellate litigation. In health care, I have represented 
academic medical centers, learned societies, hospital systems, 
research institutes, pharmaceutical companies, providers, and 
insurers.
    Those nearly 3 decades of seeing problems in the real world 
have brought home the salient differences between the 
obligations of government lawyers and those in the private 
sector. The role of a General Counsel in a Federal agency is 
not the same as a private attorney for a corporate client.
    The General Counsel's role and obligation are to make sure 
that all corners are squared and that the rules and policies 
issued by the agency are legally proper and consistent with the 
organic legislation governing the agency. They should also be 
consistent with the Administrative Procedure Act in the way 
that those rules have been issued.
    In that regard, the General Counsel should act as a neutral 
arbiter, assessing the potential agency action as if he or she 
were a Federal district court judge. The notion that a rule 
``may withstand judicial scrutiny'' is not sufficient. The 
question when reviewing a rule is, how would I--as an impartial 
judge--assess that rule in light of all possible challenges?
    Private clients expect their attorneys to develop novel 
legal arguments. Creating new legal theories or applying old 
ones in new ways is the most enjoyable aspect of my private 
legal practice, but that is very different from the role of a 
General Counsel where legal creativity takes a back seat to 
acting as impartial arbiter.
    You may ask then, why would anyone forsake creativity, 
which is a legitimate question. The answer is simple--the legal 
issues themselves are unique and fascinating. In government 
service, one is confronted with legal issues that are so 
different from what is seen in private practice, and that more 
than makes up for any loss of creativity.
    I am well aware that many HHS rules issued over the past 
generation, especially those implementing the Medicare Act, 
have been ridiculed by Federal courts as being linguistically 
incomprehensible. One role of a General Counsel is to ensure 
that rules that defy comprehension do not see the light of day.
    Experience in representing private-sector clients has 
highlighted the importance of virtually all actors in our 
health-care system. I hope that this practical legal experience 
will help when reviewing rules, when counseling the Secretary, 
and when testifying before Congress.
    I know from experience that HHS will be the subject of 
litigation. My goal is to ensure that the agency's position in 
any given case is both legally correct and objectively just. 
The one thing I have learned over the years is that agency 
action which may be legally correct when viewed hyper-
technically, but which offends fundamental notions of fairness, 
normally does not fare well in the courts.
    Thank you for the opportunity to testify today. I now am 
happy to answer any questions you may have.
    The Chairman. We are happy to have all three of you here.
    [The prepared statement of Mr. Charrow appears in the 
appendix.]
    The Chairman. Senator Grassley has one question he would 
like to ask before I ask some questions today.
    Before I turn to Senator Grassley, I have some obligatory 
questions I am going to ask all of the nominees.
    First, is there anything that you are aware of in your 
background that might represent a conflict of interest with the 
duties to the office for which you have been nominated?
    Mr. Kaplan. No, Mr. Chairman.
    Mr. Bassett. No, Mr. Chairman.
    Mr. Charrow. No, Mr. Chairman.
    The Chairman. All right.
    Do you know of any reason, personal or otherwise, that 
would in any way prevent you from fully and honorably 
discharging the responsibilities of the office for which you 
have been nominated?
    Mr. Kaplan. No, Mr. Chairman.
    Mr. Bassett. No, Mr. Chairman.
    Mr. Charrow. No, Mr. Chairman.
    The Chairman. All right.
    Do you agree without reservation to respond to any 
reasonable summons to appear and testify before any duly 
constituted committee of the Congress if you are confirmed?
    Mr. Kaplan. Yes, I do, Mr. Chairman.
    The Chairman. All right.
    Mr. Bassett. I will, Mr. Chairman.
    The Chairman. All right.
    Mr. Charrow. I will.
    The Chairman. All right.
    Finally, do you commit to provide a prompt response in 
writing to any questions addressed to you by any Senator of 
this committee?
    Mr. Kaplan. Yes, Mr. Chairman.
    Mr. Bassett. I do.
    Mr. Charrow. I do.
    The Chairman. So far, the hearing has gone pretty well. 
[Laughter.]
    We will turn to Senator Grassley. He has one question he 
would like to ask.
    Senator Grassley. Yes. I am also going to ask one question 
to Mr. Kaplan and one question to Mr. Bassett for answer in 
writing, but I have to hurry along.
    So my one question is to Mr. Charrow about things we 
discussed in my office. And I think you gave a satisfactory 
answer in the office, but I would like to have something on the 
record.
    Let me read you a couple of sentences of lead-in. In 1986, 
I coauthored amendments to the Lincoln-era False Claims Act 
that empowered whistleblowers to help the government identify 
and prosecute fraud on taxpayers. The False Claims Act is the 
most effective antifraud tool that we have.
    Since the 1986 amendments, the taxpayers have recovered 
more than $53 billion of public money lost to fraud. Thirty-
three billion of that came from the health-care sector.
    You have represented defendants in False Claims Act cases. 
I have no problem with you as a lawyer doing that. So I want to 
make sure that you can be objective about it, and that you 
recognize it is a crucial tool to fight fraud on taxpayers.
    Now, I know that you know that fraudulent claims for 
Medicaid Part D funds are subject to the False Claims Act. Do 
you have any bias against the False Claims Act that would 
affect your advice to the Department of Health and Human 
Services in cooperation with the Inspector General, the 
Department of Justice, and generally on efforts to combat fraud 
against government health-care programs?
    Mr. Charrow. I have also represented a plaintiff in a False 
Claims Act case, Senator, and I have no bias.
    Senator Grassley. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you.
    Senator Wyden, we will go to you.
    Senator Wyden. Would you like to go first, Mr. Chairman?
    The Chairman. I will wait until after you.
    Senator Wyden. Well, thank you all. I very much appreciate 
the way you all have addressed some of the key issues in your 
opening statements.
    Mr. Charrow, let me start with you.
    It seems to me what you are saying to the Senate Finance 
Committee today is the Affordable Care Act is the law of the 
land whether the President likes it or not, and you are 
committed to seeing that it is carried out. I think that is 
very constructive, and I appreciate it.
    Now, suffice it to say, being General Counsel of the 
Department of Health and Human Services is not exactly for the 
fainthearted right now. You are going to step in it up to your 
boots in an intensive controversy that affects the lives of 
millions of Americans.
    Now, for months the President said he hoped that the 
Affordable Care Act would collapse. Two weeks ago he said, ``We 
will let Obamacare fail, and then the Democrats are going to 
come to us.'' A few days ago, after the Senate voted, he took 
to Twitter to say, ``As I said from the beginning, let 
Obamacare implode, then deal. Watch.''
    Now, that was a word-for-word quote from the President. In 
addition, he has threatened to withhold billions in cost-
sharing assistance that helps some of the most vulnerable 
Americans pay their deductibles and their copayments, their 
out-of-pocket costs. These threats have driven up premiums, 
they have pushed plans out of the marketplace altogether, and 
it leaves Americans with fewer paths to affordable coverage.
    So here is my question, and it really builds, in my view, 
on what you have said. The Affordable Care Act is the law of 
the land. It is the administration's job to faithfully execute 
that law. And it is going to be your job to be the honest cop 
on the beat.
    If the President, the Secretary, or anybody else wants to 
take steps that are in your view inconsistent with either the 
letter or the spirit of the law, it is your job to tell them 
so. Will you do that?
    Mr. Charrow. Yes, I will.
    Senator Wyden. Okay.
    I think there is only one other question that I want to ask 
you, Mr. Charrow, because that really fundamentally gets at my 
question. You talked yesterday about what you called gray 
areas. Tell me a little bit more about that, because I think 
you have addressed my fundamental concern with the question 
that I have asked, but tell me a little bit more about these 
gray areas.
    Mr. Charrow. If every member of the Senate and of the House 
of Representatives were all-knowing, there would be no gray 
areas, but language has its limitations.
    Senator Wyden. Are you saying that that is not the case? 
[Laughter.]
    I am shocked, like in ``Casablanca.''
    Mr. Charrow. I am allowing you to infer it.
    Language has its limitations, and as a result of that, when 
you write a statute, it necessarily--there are going to be 
provisions that are going to be ambiguous, that are going to 
have gray areas. My job is to use the rules of statutory 
interpretation to decide--in my best judgment--what those 
provisions mean.
    As I told you yesterday, I would be guided by the language 
of the statute first, the legislative history, the report of 
this committee, floor statements to a lesser extent. I would 
not take into account--as I told you yesterday--post-enactment 
statements.
    Senator Wyden. Very good.
    Let me ask you one question, if I might, Mr. Bassett. The 
President, as I just said, called again for the Affordable Care 
Act to fail. He has made that statement literally for months. 
The administration, the Department of Health and Human Services 
are constantly trying to sabotage the law and do it even though 
millions of Americans every single day get up relying on the 
law.
    Members of the committee, certainly myself, are deeply 
concerned with making sure the Department of Health and Human 
Services fulfills its obligations to the public by enforcing 
the Affordable Care Act. And for Congress to conduct oversight, 
we have to be able to rely on the Department being transparent 
and responding to our requests.
    My question is, will you commit to ensuring that the 
Department, on your watch, is responsive and transparent when 
members of this committee submit inquiries, particularly those 
that involve implementing the Affordable Care Act? And that is 
a ``yes'' or ``no'' answer.
    Mr. Bassett. Yes, I absolutely do.
    Senator Wyden. Okay. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Let me ask a question of you, Mr. Kaplan. As you may be 
aware, one of the programs currently administered by the 
Department of Commerce is the Privacy Shield Agreement the 
United States has with the EU, the EEA, and Switzerland. And 
while we recognize that the administration has continued to 
emphasize their support of the agreement, there is some concern 
about the program's durability from the European and civil 
society sides.
    How do you intend to make sure that the whole world is open 
to the U.S. digital trade, including any views you have on the 
Privacy Shield Agreement?
    Mr. Kaplan. Thank you, Mr. Chairman. Yes, I think the 
Privacy Shield Agreement is very effective and very useful. I 
have heard of some of the problems expressed on the European 
side and the Court of First Instance looking at some of these 
issues, but I will work closely with our legal team and with 
the EU to make sure that we keep that program very strong, 
because I have heard many, many good things about it from many 
companies that use it.
    In terms of making sure the whole world is open for U.S. 
digital trade, ITA is really uniquely positioned to be able to 
help with that. We have exceptional people in the global 
markets and U.S. and foreign commercial service and in industry 
and analysis, who know more about digital trade issues than 
anybody.
    But over and above that, we have NIST, which is part of 
Commerce, and I would expect to work with them. We have the 
Bureau of Industry and Security, which does all the export 
controls, and they have tremendous expertise.
    I think we need to have language in every one of our trade 
agreements assuring open access for U.S. digital trade products 
and services.
    The Chairman. Okay.
    Strong intellectual property rights are crucial for the 
ability of American manufacturers, services providers, and 
innovators to compete overseas. All too often, though, other 
countries have weak standards for protecting and enforcing 
intellectual property rights. How, specifically, do you plan to 
improve intellectual property rights, protection, and 
enforcement by our trading partners?
    Mr. Kaplan. Well, I think we have to be prepared to use all 
of the tools at our disposal. I know there is some discussion 
about Section 301. I think 301 should be dusted off, perhaps, 
and that has strong language on intellectual property, which I 
think could be used. I know there are issues regarding imposing 
tariffs at the end of a 301 case, but there are other things we 
could do if we found intellectual property violations after a 
301 case.
    And then secondly, I think we need to be prepared to use 
any negotiating leverage we have to protect intellectual 
property, particularly with China, where it is such a large 
issue. I think we are really going to have to ramp up our 
willingness to enforce every one of our trade laws to make sure 
this intellectual property problem is solved.
    The Chairman. Well thank you.
    Mr. Bassett, the backlog of Medicare appeals is already 
unacceptably high. This makes it hard for beneficiaries and 
providers to get the funds back that they deserve, and the 
administration of the appeals process is really expensive. As 
the senior population continues to grow, this problem is likely 
to get worse.
    What steps can Congress and the administration take 
together to address the backlog of Medicare appeals?
    Mr. Bassett. Well, Mr. Chairman, as you have indicated, the 
backlog is far too long. I know that this is a priority for the 
Secretary.
    You are probably well aware we have litigation that also 
strongly encourages us--if not mandates us--to decrease that 
backlog. I would very much look forward to working with you and 
your staff and all of the members in coming up with innovative 
ways that we can shorten those times, because I agree it has to 
be done.
    The Chairman. Okay.
    Mr. Charrow, how can HHS encourage States to innovate while 
still assuring accountability? An example is the 1332 waivers 
under the Affordable Care Act, which raised the question of, 
will HHS be able to hold States appropriately accountable if 
they opt to use these waivers?
    Mr. Charrow. I believe the Department will be in that 
position.
    The Chairman. All right.
    Senator Scott, you are up.
    Senator Scott. Thank you, Mr. Chairman.
    Good morning to the panel. Thank you for being here with 
us.
    Mr. Kaplan, South Carolina has greatly benefitted from a 
resurgence of manufacturing exports and foreign investment. 
While over 6,000 South Carolinian companies export goods and 
services that value over $2.2 trillion--trade supports more 
than 500,000 jobs in South Carolina, from small companies, 
farms, global giants Boeing, BMW, Michelin, and the like--we 
are successful because most of our access is to the places 
where we have trade agreements, about 31 of them around the 
world.
    Simply put, trade is alive and well in South Carolina. Our 
auto manufacturers, farmers, tire makers, paper producers, and 
chemical manufacturers want greater access to the 96 percent of 
the consumers who live outside the United States.
    Good trade policy unlocks opportunity for American families 
and gives us the tools necessary to make sure our trade 
partners play by the same rules. With those thoughts in mind, I 
have just a few questions for you.
    The Chinese government caps market access for American 
financial service firms operating in China. We do not do the 
same to their companies.
    As Commerce works on eliminating the U.S.-China trade 
imbalance and participates in the CED, I think it is important 
that you address both sides of the coin, both the manufacturing 
side as well as the services. Why do you think the Chinese 
institute these caps, and what are the arguments for removing 
them? And will you prioritize removing them as one of your 
priorities?
    Mr. Kaplan. Thank you, Senator. I absolutely would 
prioritize eliminating those caps and making sure our financial 
service industries are able to access the Chinese market fully. 
I think they put in these caps and limits to our financial 
services because our industry and our services in this area are 
so strong that they just think once we got in there, we know 
how to do this so well that they would not be able to be 
successful.
    I do not think that is true. I think there is plenty of 
room. It is a very large market--a very large market for life 
insurance. I think it may be the largest in the world.
    I think that we should be able to have complete access, and 
we should not be subject to any caps or limits. I think you are 
sort of suggesting maybe we should consider putting caps on 
some of their services and investments in the United States. I 
think that is very well worth looking into. I think we have to 
churn up some of the pressure if we want to solve the problems 
with China in services and other areas.
    Senator Scott. Absolutely. I certainly think it is an issue 
of reciprocity and fairness, one that we have not addressed 
that needs to be addressed, as we have an opportunity to see 
our services penetrate into foreign areas that will provide 
tremendous growth for our Nation, frankly, for American workers 
as well.
    Mr. Kaplan. Absolutely. I think reciprocity is key, and I 
think there is already a lot of thinking in the 
administration--it is my understanding--about taking some 
action if we cannot resolve these issues through the dialogues 
and bilateral agreements we already have.
    Senator Scott. Excellent.
    Another question for you: improving trade enforcement has 
been a priority for me and for this committee for some time. I 
believe the NAFTA negotiations present a great opportunity to 
negotiate agreed-upon practices with our North American trading 
partners to combat duty evasion and to improve trade 
enforcement.
    This would be a great benefit for many South Carolina 
industries. Can you speak about how you see a modernized NAFTA 
helping to address these priorities?
    Mr. Kaplan. Certainly. In the objectives that were stated 
by Ambassador Lighthizer regarding NAFTA, there is specific 
discussion of working with Canada and Mexico to avoid duty 
evasion, and the reason that is so important, obviously, is 
because Canada and Mexico--we share very long borders with both 
of them. What has happened in terms of dumping duties, really 
for 10 or 15 years now, is products have been circumvented 
through Canada and Mexico and come in that way.
    Senator Scott. Back door.
    Mr. Kaplan. Back door. The duty is never paid. So I think 
we need to make sure we get good agreements on the issue of 
duty evasion through Canada and Mexico.
    Senator Scott. Thank you.
    My time is almost out, but, Mr. Bassett, I would like to 
ask you one quick question.
    With the previous administration, we really had very little 
feedback from the agencies and departments. And having worked 
on the Hill, you understand and appreciate that it is important 
for the left hand to know what the right hand is doing. But 
without open lines of communication with the folks within the 
administration, it is very difficult for us to do all that we 
can for our citizens.
    Would you commit to making sure that you are as accessible 
as possible, not only to my office, but to our colleagues, left 
or right?
    Mr. Bassett. I absolutely do.
    To your point, Senator, I very much understand the 
question. One thing I have heard during this nomination process 
is the need for responsiveness, and I fully commit to doing 
that in a bipartisan and a bicameral way.
    Senator Scott. I certainly appreciate that very much.
    Mr. Bassett. Thank you.
    Senator Scott. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Casey?
    Senator Casey. Mr. Chairman, thanks very much.
    I want to thank the witnesses for being here, for your 
putting yourself forward for service, and of course, that 
includes your families as well.
    We have had a very contentious number of months now in 
health care, as you know. This week, I think there has been a 
very positive development. We are having a lot of discussions 
between and among Democrats and Republicans in the Senate on a 
way forward on a number of health-care issues. It is going to 
continue to be a difficult issue, but I think we have made some 
good progress this week with the hearings that have been 
scheduled, both what Chairman Hatch spoke to today as well as 
in the Health, Education, Labor, and Pensions Committee. So 
that is the good news, that there is some progress on at least 
bipartisan discussions.
    I will turn to some of the bad news now, which is the press 
reporting about what the administration might do on a whole 
range of issues related to our health-care system, whether it 
is cost-
sharing reduction payments or other issues. There is also a 
report that the administration provided a list of regulations 
that the Department of Health and Human Services plans to roll 
back or repeal in a letter to congressional Republicans.
    I have sent a letter--two letters, actually, since April--
requesting this particular document from HHS. My staff has had 
multiple conversations with HHS staff about this, and yet the 
document has not been produced. There is no legal basis for 
that. I do not know why the administration or the Department 
would not provide that.
    So my first question is for you, Mr. Basset, and you, Mr. 
Charrow. Do you agree that the administration should provide 
thorough, complete, and timely responses to requests for 
information from all members of Congress, including the 
minority in the Senate?
    Mr. Bassett. Senator, I do. I had the pleasure of meeting 
with your staff in depth during this process, and they raised a 
number of concerns that you are bringing up today. I appreciate 
those concerns and will fully cooperate and work with your 
staff to give accurate and timely responses. And I am sorry 
that has been your experience to date.
    Senator Casey. And I appreciate that. Chairman Hatch has 
made this point a number of times--Senator Grassley--so 
Democrat and Republican, I think we have a lot of agreement 
about producing documents and being responsive.
    Mr. Bassett and Mr. Charrow as well, do you also believe 
the administration should provide documents to Congress when 
requested, absent a legal basis for withholding them, 
especially when those documents have been shared with other 
members of Congress and reported on in the press?
    Mr. Charrow. Yes.
    Mr. Bassett. Yes.
    Senator Casey. Thanks.
    I want also to get to, Mr. Kaplan, a couple of questions 
with regard to excess capacity in steel. We are told by the 
OECD that there is more than 700 million metric tons of global 
excess capacity in steel.
    China accounts for the majority of that. Last year the G20 
created a new forum to address this problem. Very little action 
has been taken on this.
    What do you think should be done to address this global 
excess capacity problem with regard to steel?
    Mr. Kaplan. Senator, I agree with you that it is an 
enormous problem. One of the biggest problems we face is 
overcapacity in China for some industrial products, including, 
of course, steel.
    I think we have to use all the tools we possibly can to 
resolve this. I think it is good that the OECD is having talks 
about this, but I think we may need to do some very creative 
cases and turn the pressure on even more to actually get this 
resolved.
    There are a lot of tools we have. We can self-initiate 
dumping and countervailing duty cases. I did that when I was in 
the Department of Commerce. We can use Section 301, and I think 
it is time to bring that back. We can use WTO cases. Those take 
a long time, but they are sometimes successful.
    If you look at the aircraft cases, they have been--I 
think--very useful for the U.S. industry. Obviously, we have 
232, and that process is ongoing.
    Senator Casey. Great. Thank you very much.
    The Chairman. Okay.
    Senator Brown?
    Senator Brown. Thank you, Mr. Chairman. Thanks for this 
hearing.
    Mr. Kaplan, thank you for your work with me over the years 
in strengthening trade enforcement.
    Mr. Kaplan. You are welcome.
    Senator Brown. We know, as Senator Casey said in his 
question, how important that is for our country. I know that 
you have a long record of fighting for U.S. manufacturers. I 
look forward to supporting your nomination when Chairman Hatch 
brings it up.
    As you know, we have worked to increase--for years--the 
number of tools the U.S. has to crack down on currency 
manipulation. I believe Commerce has the authority to address 
it under the new trade remedy laws. Do you believe currency 
should be treated like a countervailing subsidy in trade cases 
when raised by a U.S. petitioner?
    Mr. Kaplan. Senator, obviously that is something I will 
need to discuss with the Secretary, ultimately, but in my view, 
the U.S. countervailing duty law does cover currency 
manipulation, and it is something we should look into doing, if 
I am confirmed.
    Senator Brown. It is really important, I think, to both 
parties and almost every member of this committee. So thank 
you.
    Section 232--the President has pretty much led us to 
believe he is moving on that. The Commerce Secretary spoke 
about moving quickly on that. As you know, the delay has been a 
problem in terms of foreign steel interests not playing on a 
level playing field, selling more and more and more steel into 
this country in anticipation of 232 action. The action has not 
happened.
    Will you support a quick resolution, if confirmed, to the 
232 investigation so we can put an end to this uncertainty?
    Mr. Kaplan. Yes, absolutely. I think that is very 
important. I am aware of the problems of steel coming in in 
anticipation of a result in that case.
    I should mention that 232 is actually under another unit in 
Commerce, not ITA. It is under the Bureau of Industry and 
Security. So there is another nominee----
    Senator Brown. But you know people, and you are smart. And 
they will listen to you. [Laughter.]
    Mr. Kaplan. Well, I will do whatever I can.
    Senator Brown. We have to figure out how to get action. The 
excess capacity in China--not just steel, but other commodities 
too--it is so important that we get action and we move past 
these discussions and these words and these tweets or whatever 
we are doing or not doing about China. I know Senator Casey has 
been--he and I have talked about this a lot.
    Mr. Charrow, thank you, and I enjoyed our brief 
conversation prior to your coming out here. There is an article 
in The Columbus Dispatch, the most conservative newspaper in 
Ohio, entitled ``Trump Can Kill Ohio Plan to Save Health 
Exchanges.''
    I would like to, Mr. Chairman, enter this in the record, 
and I will be brief so Senator Cantwell can get her turn.
    The Chairman. Without objection.
    [The article appears in the appendix on p. 35.]
    Senator Brown. Thank you, Mr. Chairman.
    The Dispatch says nothing is guaranteed until the companies 
sign contracts with the Federal Government at the end of 
September. Even then, coverage will be certain only through 
2018.
    My question is this, Mr. Charrow: will you commit to 
upholding the law, including the ACA and its CSRs, and commit 
to doing everything you can in your position to provide 
certainty for States like Ohio?
    Mr. Charrow. Yes, I will.
    Senator Brown. Okay. Thank you. Thank you very, very much. 
That matters to so many people in our States. Will you commit 
to objecting to any efforts to sabotage the law, even if those 
efforts are made outside the bounds of HHS authority?
    Mr. Charrow. As I stated during my testimony, I am a firm 
believer in applying the law as written and passed by Congress, 
and if an action is inconsistent with the law, I will not 
approve it.
    Senator Brown. Thank you.
    And last, will you commit to notifying Congress that the 
administration is attempting to skirt the law or if the 
administration moves to explicitly undermine any current 
provisions of the law?
    Mr. Charrow. People who know me know that I have a big 
mouth. [Laughter.]
    Senator Brown. And you are as smart as Mr. Kaplan, I 
understand, perhaps. [Laughter.]
    Thank you. Thanks to the three of you.
    The Chairman. All right.
    Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Kaplan, do you think it is important to have a 
functioning Export/Import Bank to do your job at the Department 
of Commerce on promoting international trade?
    Mr. Kaplan. Senator, I think it is a very important tool 
for exports from the United States. Secretary Ross has said it 
is an important tool in our tool box. The President has said 
that he thinks that it is a good program. He thinks it is a 
program, actually, that can make money for the United States. I 
share those views.
    Senator Cantwell. It does make money, but there are those 
in the Cabinet who have said from time to time they consider it 
controversial, and I always point out to them, it was supported 
by a majority of Democrats and Republicans. So it may have some 
detractors, but it is supported by the majority of both bodies 
and both parties.
    I am concerned about Chinese regulation of U.S. 
technologies in the cloud service area. This is an important, 
growing development for us, and obviously we give access to 
those cloud computing companies here in the U.S.
    So China has a draft regulation, along with the existing 
Chinese law, that would require U.S. cloud providers to 
transfer intellectual property, surrender brand names, give 
control of their business to Chinese companies. No other 
country has these kind of restrictions, and I would assume that 
the United States wants to do everything that we can to stop 
these kind of restrictions.
    Mr. Kaplan. Absolutely. I have worked on this area for a 
long time. I was the first person, I think, who tried to 
challenge what they call the great firewall in China, stopping 
Internet providers from getting in there by using the General 
Agreement on Trade Services. We made some progress. At least 
USTR did raise that at the services discussions in Geneva.
    On cloud computing, this is a really big problem, and it is 
getting bigger all the time. I have heard in the press--as I am 
sure you have--that USTR is considering a 301 on some of the 
technology transfer issues.
    This is an area where we may have to be prepared to take 
action against companies from China if they continue to do this 
to our companies within China. There are opportunities, I 
think, to prevent certain high-tech companies from having 
complete access to the U.S. market if we have to do that to get 
satisfaction on cloud computing issues in China.
    Senator Cantwell. What do you think is a better way to 
pursue? Right now, what would be the next steps, do you think?
    Mr. Kaplan. Well, in the comprehensive dialogue, I think 
this has to be raised. I think there has been a lot of talk 
about services already in that dialogue, and I think probably 
the next step is to raise it very strongly in the comprehensive 
dialogue. And as I mentioned, the 301--at least there are press 
reports about it, and that might be very helpful too, because I 
think with China you have to have some kind of case at your 
back when you are having these discussions, to be successful.
    Senator Cantwell. Well, I also think that our northwest 
companies have--I just believe in competition. You are going to 
compete and cooperate at the same time.
    Mr. Kaplan. Sure.
    Senator Cantwell. And it is too big of a market to ignore, 
and at the same time, we have to press our case. So our 
companies have had to figure out very strategic ways of doing 
that. And I do think that SED, the Strategic and Economic 
Dialogue, is a good place to focus on the fact that Alibaba is 
a big player in the U.S., and why would they think that we 
would submit to these kinds of practices in China, as a way to 
continue the dialogue of how all of this market of cloud 
computing is going to play out. I think that would be very, 
very helpful.
    SED has been successful on helping us focus on clean energy 
technology and get some MOUs. So maybe there is a possibility 
to do that, but I so appreciate you wanting to pay attention to 
it.
    I would just note, Mr. Chairman, because of your help and 
everything that this committee did on the Customs bill, we were 
able to give a new enforcement tool to USTR to have more 
resources on enforcement. I believe if 95 percent of consumers 
are outside of the United States and with all our activity, we 
should be beefing up enforcement just to make sure business can 
happen.
    I noticed the administration has zeroed out that program. 
So I do not think that is where the House and Senate are, but 
hopefully we can educate the White House on why it is so 
important to have trade enforcement resources within USTR.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    As I understand it, Senator Wyden has some questions he 
wants to ask. Otherwise, I am going to end this hearing. I 
would just as soon end it.
    It is clear that you are very competent people. I am very 
proud of you.
    I have to get over and vote, but Senator Wyden has a 
question, and we will just recess until he gets here after the 
vote. Is that okay?
    Senator Cantwell. Well, I can ask a question while he--I 
know we were both in a fire hearing, which is a very important 
topic, Mr. Chairman.
    The Chairman. Why don't you go ahead with any further 
questions, and then if you finish and Senator Wyden is not 
here, recess until he gets here.
    Thank you.
    Senator Cantwell [presiding]. Yes. I will ask a question of 
Mr. Charrow. Thank you.
    Mr. Charrow, this is an important question. We are not just 
filler for Mr. Wyden.
    If confirmed as General Counsel, will you ensure that the 
administrative action taken by the Department follows the law 
of the land and continue to administer something that is called 
the Basic Health Plan under section 1331 of the Affordable Care 
Act?
    Mr. Charrow. Yes.
    Senator Cantwell. Good. Yes. Thank you.
    This is a very important tool that is bringing about great 
success in driving down costs of health care in the States that 
have implemented it, and it is different than the exchanges in 
the context of how it is run. So it has been very cost-
effective in delivering up for consumers a big clout.
    If you buy in bulk, you get a discount, and bundling up the 
individual market into this kind of opportunity has allowed 
them to get better rates from insurers and successfully drive 
down costs. So we want to continue to explore that as a way to 
help us in cost savings.
    I will turn it over to my colleague.
    Senator Menendez?
    Senator Menendez. Well, thank you, Senator Cantwell.
    Congratulations on all of your nominations. I am sorry I 
was not here for your earlier part. We had a markup in the 
Foreign Relations Committee. But I did have a couple of 
questions that I wanted to ask.
    Mr. Kaplan, our competitors around the world are dedicating 
greater resources towards economic diplomacy, aggressively 
helping their companies increase exports. Unfortunately, U.S. 
companies cannot count on the same level of support from the 
United States Government. That often prevents American firms 
from competing on a level playing field. As I have traveled the 
world and talked to our embassies and talked to American 
Chambers of Commerce abroad, I hear this as one of the constant 
refrains almost anywhere.
    Now, if we cut 384 commercial and service officer positions 
and close 10 domestic and 35 overseas offices, it seems to me 
that is going to be even a greater challenge. So do you believe 
this budget approach is consistent with the goal of growing 
U.S. exports and reducing the trade deficit?
    Mr. Kaplan. Senator, I, of course, was not at Commerce--and 
I am not now--when this budget was put together. But as soon as 
I am confirmed--if I am privileged to be confirmed--I am going 
to look at those budget issues very carefully and discuss those 
with the Secretary, and with the White House if warranted, 
because I think we need to do everything we can to increase 
exports. As many of the members have mentioned, 96 percent of 
the world's consumers are outside our borders. So we have to be 
able to get our products out there.
    Senator Menendez. So is it fair to say that if you are 
confirmed, you will be an advocate for a robust foreign 
commercial service?
    Mr. Kaplan. Absolutely. I think it is an incredibly 
important program, and I have heard many, many good things 
about it over the years.
    Senator Menendez. What do you see the Foreign Commercial 
Service's main mission being abroad, if you were to be 
confirmed?
    Mr. Kaplan. I think it is to promote and increase our 
exports everywhere in the world. That is their main mission, 
and I think they have helped many, many companies, large and 
small, do that.
    They also do some work promoting investment back into the 
United States by foreign investors, and I think that is very 
important too.
    Senator Menendez. Now, one of the things that is incredibly 
important to our country, which continues to lead in the 
creation of innovation in the world, is intellectual property 
questions. For New Jersey, which is the medicine cabinet of the 
world, the intellectual property questions in the 
biopharmaceutical field are incredibly important. Do you have 
any sense of what you think the International Trade 
Administration can do, what more they can do to advance 
policies for American innovators that appropriately recognize 
and reward the value of medicines, that ensure patients have 
access to the medicines they need?
    Mr. Kaplan. Well, I think we are uniquely positioned to do 
that. We have intellectual property attaches as part of the 
Foreign Commercial Service in many of the foreign embassies, 
and they can push on this issue very significantly in the 
countries where they are located.
    Secondly, as of course you know, the Patent and Trademark 
Office is part of Commerce, and I intend to work closely with 
them to develop international strategies.
    And finally--I mentioned this a little earlier in the 
hearing--I think it is time, maybe, to dust off what is called 
Section 301, which is a very important trade law that has very 
strong intellectual property language in it. If need be, we can 
turn to that to use the litigation approach to make sure our 
pharmaceutical companies are protected.
    Senator Menendez. Well, thank you for those thoughtful 
answers.
    Mr. Bassett, as a former Hill staffer, I know you would 
appreciate--I hope--how much members and staff value open lines 
of communication with agencies. Can you speak to your plan for 
ensuring that members on both sides of the aisle and the 
Capitol get the responses they need to their inquiries?
    Mr. Bassett. Yes, Senator. Thank you for your question.
    In my opening remarks and in several other remarks, I 
mentioned that, in doing the due diligence through this 
nomination process, the need for responsiveness was something 
that came through crystal clear from both sides. And I gave 
this committee my absolute commitment to work in a bicameral 
and bipartisan fashion to get you and your staff the 
information you need in order to do your jobs.
    Senator Menendez. And in particular, Senator Booker and I 
have been having issues getting responses from the FDA about an 
issue I would appreciate your help with--should you be 
confirmed--working with us just to get an answer. So we will 
commend that to your attention upon your confirmation.
    Finally, Mr. Charrow, let me ask you this. We were able to 
spend some time together, and I appreciated you stopping by the 
office to talk about the role of the General Counsel, which I 
think is incredibly important.
    We have had a great debate over the last, not just 7 years 
but 7 months, intensively, about the Affordable Care Act. For 
those who like it and for those who do not like it, it is the 
law of the land. Americans are free to disagree with the law, 
but they are not free to disobey it.
    So my question is, as General Counsel, will you ensure 
that, in any of the actions taken by the Secretary and/or his 
subordinates in the Department of Health and Human Services, 
you will advise them as General Counsel to faithfully and fully 
administer the Affordable Care Act as it is in law?
    Mr. Charrow. That is the most important aspect of my job, 
and I will do so.
    Senator Menendez. Okay.
    And you mentioned that HHS regulations are often thought by 
the courts to be linguistically incomprehensible.
    Mr. Charrow. That is correct.
    Senator Menendez. Now, I get that. I share that view in 
some respects, but given that the administration is committed 
to reducing the number of regulations, how will you ensure that 
regulations are promulgated to ensure clarity for HHS programs 
in light of the administration's view that we need less 
regulation?
    I am not one of those who advocate for regulations for 
regulations' sake, but there is a broad swath that is left as a 
result of congressional past statutory law that does get 
interpreted, needs to be interpreted, so that people know what 
are the rules of the road, how to follow it, how to stay within 
it. Give me a sense of that.
    Mr. Charrow. I think, as you pointed out, it is a balancing 
act. You do not want to overregulate, but you want to provide 
all the sectors that are affected with enough information so 
that they can do their business.
    I am of the firm view that regulations that are necessary 
should be there, and they should be promulgated in a way that 
is consistent with the APA. And if a regulation is unnecessary, 
then we should look into, perhaps, repealing it, or in fact, 
replacing it with a guidance which tends to be more flexible.
    Senator Menendez. Thank you, Mr. Chairman.
    Senator Wyden [presiding]. I thank my friend from New 
Jersey and appreciate him giving me the chance to return.
    Mr. Kaplan, let us turn to trade for a moment. I have been 
clear that meaningful consultations with the Congress and 
communications with the public are essential for all the 
aspects of the trade agenda. Yet the Commerce Department has 
been keeping the committee in the dark on several matters, 
including proposals being developed by Commerce Department 
officials to resolve the ongoing dispute with Canada over 
softwood lumber.
    Senator Crapo and I noted at June's trade hearing that the 
committee has to be consulted every step of the way and should 
be briefed on the details of the proposals before they are made 
to Canada.
    The two of us, Senator Crapo and I, sent a letter, along 
with five other members of the committee, to Secretary Ross and 
Ambassador Lighthizer emphasizing the need for a strong outcome 
for American mill workers. I also put this in the context of 
what we think is real consultation.
    Real consultation is not telling us 5 minutes before 
something is going to happen, before a proposal is offered, or 
agreement is reached, or something of that nature. It is done 
in a way where members of this committee, both Democrats and 
Republicans, can actually have a chance to reflect on what is 
being considered and give our comments. That is what we think 
real consultation is all about.
    Will you commit fully to having that kind of real briefing? 
From now on, I am not just going to talk about a briefing. I am 
going to talk about a real briefing, so there is an opportunity 
for meaningful consultation between members of the committee 
and their staff, in particular on the softwood lumber case, and 
before our country gives the proposals to Canada.
    Mr. Kaplan. Senator, I hear you loud and clear on that, and 
I absolutely agree to do that with all the members of this 
committee. I actually very much enjoy speaking with members of 
the Finance Committee, because I learn so much, and it is so 
important. So yes, I do agree to do that.
    I should mention that the date of the lumber final is 
September 6th. So if I am privileged to be confirmed and 
confirmed before then, I will be more effective in that regard. 
But I absolutely----
    Senator Wyden. That is a really clever argument for the 
United States Senate Finance Committee to move quickly. We have 
had ingenious arguments made over the years. I think yours is 
about as good as I have heard. [Laughter.]
    Mr. Kaplan. Thank you, Senator.
    Senator Wyden. Okay.
    As you know, I have been very impressed with the quality of 
your work, as we have talked about in the past. And I am not 
going to call this the Kaplan Doctrine on Consultation or 
anything like that, but it is different than when we have asked 
the question in the past. Please communicate to the whole trade 
team that that is how I am going to ask for it in the future: 
consultation is not giving us something 5 minutes before 
something is going to happen. Okay?
    Mr. Kaplan. I understand that.
    Senator Wyden. Let me turn to one other question, if I 
might.
    Senator Thune and I, for years, have been a little bit of 
an outpost supporting digital trade and digital goods. And a 
lot of this, of course, has shown incredible economic 
potential, and it has all happened basically after NAFTA. And a 
lot of the trade architecture that is in place and is vital to 
exporters in every State, and to industries--we have called on 
the administration to tackle a very wide range of barriers to 
our digital exports.
    Now in the past, the Commerce Department has been a leader 
in the executive branch on a number of these issues that are 
important to digital trade. I would like to hear your thoughts 
about how you are going to follow up specifically on making 
sure that digital trade is at the top of your agenda and look 
at the structure of the agency in order to figure out where the 
barriers are and the challenges.
    Mr. Kaplan. Senator, I definitely will do that. And I think 
Commerce and ITA are uniquely qualified to work on digital 
trade issues. I think, obviously, USTR will play a big role in 
that. But I think we have many layers of expertise on digital 
trade, first in ITA, but then also in NIST, in the Patent and 
Trademark Office, in the Bureau of Industry and Security, and I 
think we ought to be a central force for making sure that 
United States digital trade has access and is not pressured 
anywhere in the world.
    Senator Wyden. Okay.
    Well, thank you all. You all bring substantial 
qualifications to these positions. It is my intention to work 
with my colleagues on both sides to advance the consideration 
of your nominations. I was going to do that even before Mr. 
Kaplan offered his clever, fresh argument about being moved 
quickly. [Laughter.]
    With regards to written questions for the record, on behalf 
of the chairman, I would just like to make clear, per the 
chairman's instruction--which I support--that committee members 
submit them by close of business on August 8th.
    With that, we are adjourned.
    [Whereupon, at 11:30 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


   Prepared Statement of Matthew Bassett, Nominated to be Assistant 
   Secretary for Legislation, Department of Health and Human Services
Chairman Hatch, Ranking Member Wyden, thank you for inviting me to 
testify today. I am honored to stand before you as the President's 
nominee for Assistant Secretary for Legislation at the Department of 
Health and Human Services.

    First, I would like to take a minute to introduce and thank my 
family who are here today: my wife Stacy and my son Matthew, Jr. My 
father David Bassett and my uncle Ben Ash have also joined us, and I 
must say hello to my mother Georgia who is no doubt one of five people 
enthusiastically tuning into C-SPAN today just to see me.

    Senators, having enjoyed the privilege of working in the health-
care industry for over 20 years, I have seen many challenges to our 
Nation's health-care system firsthand. I have seen these challenges 
from the patient, provider and payer side; the public and private side; 
and the State and Federal side. I'm of the firm belief that as 
Americans, we are very fortunate to live in a country that has the 
greatest, most innovative healthcare system in the world. People from 
other countries travel to the United States to seek the latest cutting 
edge care and technologies that don't exist back home. Yet our health-
care system is not without substantial challenges. High-quality, 
affordable care is at risk for an unacceptable number of Americans and 
their families.

    Addressing these challenges is of acute interest to me, and having 
served as the Chief of Staff at the Cabinet for Health and Family 
Services in the great Commonwealth of Kentucky, I saw firsthand how 
policy formed on Capitol Hill affects folks back home. At the time I 
served in this position, Kentucky was experiencing an opioid scourge, 
imploding individual and small group markets, and a Medicaid program 
our State could simply not afford. Should I have the honor to be 
confirmed, I hope to have the opportunity to work with you and your 
staff as we all face similar challenges today.

    And perhaps the most significant qualification for the position to 
which I have been nominated is the fact that I actually served as a 
Capitol Hill staffer. Having worked for two members of the House of 
Representatives, I understand the unique role the Assistant Secretary 
for Legislation has in working with members of Congress to make sure 
constituents' voices are heard and their needs are addressed in 
Washington, DC.

    The Office of the Assistant Secretary for Legislation is 
responsible for the development and implementation of the Department's 
legislative agenda. As a liaison between HHS and Congress, I would not 
take this responsibility lightly. I understand that the information you 
rely on within HHS and all of the agencies contained therein is 
critical to fulfill legislative duties.

    Should I receive the confidence of the Senate to serve as the 
Assistant Secretary for Legislation at HHS, I pledge to stay true to 
these lessons learned, and to ensure that each and every day ASL stands 
as a resource for Congress, reliably and readily bridging these two 
great bodies to best serve the American people.

    Thank you again for the opportunity to appear this morning, and I 
look forward to answering your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Matthew David Bassett.

 2.  Position to which nominated: Assistant Secretary for Legislation 
at Health and Human Services.

 3.  Date of nomination: May 8, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: January 27, 1973; Ft. Lauderdale, 
Florida.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

    Cardinal Gibbons High School, 1990-1991, High School Diploma, May 
1991.

    Baylor University, 1992-1995, B.A. Communications Specialist, 
August 1995.

     Trinity University, 1996-December 1998, Master of Science, Health 
Care Administration.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

     Senior vice president of government relations, my NEXUS, Nashville 
TN, March 2015-November 2015.

     Principal of Bassett Consulting LLC, Nashville TN, November 2012-
February 2015.

     Senior vice president, Revive Health, July 2011-December 2011.

     Vice president for public policy, DaVita Inc. home office in 
Lexington, KY and Nashville, TN, May 2006-July 2011.

     Chief of Staff, Kentucky Cabinet for Health and Family Services, 
December 2003-April 2006.

     Deputy Chief of Staff, Congressman Ernie Fletcher, Washington, DC, 
January 2003-November 2003.

     Senior Legislative Assistant, Congressman Pete Sessions, 
Washington, DC, January 2001-December 2002.

     Hospital and Health Facility Development Consultant at the Texas 
Department of Health, Austin, TX, September 1999-December 2000.

     Policy Analyst for Texas Senate Health Services Committee, Austin, 
TX, February 1999-September1999.

     Administrative fellow, Baylor Health Care System, Dallas, TX 
January 1998-January 1999.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

     Board of directors of the Access Tennessee Health Insurance Pool 
(AccessTN).

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business, enterprise, or educational or other institution):
     I consulted for Liberty Partners Group, LLC on behalf of their 
Dental Service Organization clients. I tracked legislation, provided 
strategic advice and on occasion attended meetings to represent them.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

     None.

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

      None.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

      None.

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

      2010, Trey Grayson for U.S. Senate, $500.

      2012, Newt Gingrich for President, $500.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

     None.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

     Wrote op-ed in the Lexington Herald Leader in my capacity as Chief 
of Staff for the Kentucky Cabinet of Health and Family Services, 2004/
2005.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

     None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

      Health-care policy expert with over 20 years of experience in 
both the public and private sectors.
      Senior executive who has represented both elected officials and 
private interests with the United States Congress, State legislatures, 
Federal and State regulatory agencies, associations, coalitions, and 
the media.
      Extensive experience regarding: Medicare, Medicaid, and 
insurance/payer issues.
      Strategist who has designed and managed both public policy and 
legislative campaigns in multiple States and in Washington, DC.
      Effective manager who has overseen multi-million dollar budgets 
in State agency and corporate environments and has led corporate, 
government agency, and contract staff.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

     No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

     Yes

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

     I am a passive partial owner of a home and hospice company, 
Adoration LLC, in the central Tennessee area. I will be divesting this 
holding within the prescribed guidelines and timetable.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

     None.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

     None.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

     I will be divesting my holding in Adoration LLC, within the 
prescribed guidelines and timetable.

 5.  Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

     Copies of the written opinions have been supplied to the 
committee.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

     No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

     No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

     No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

     No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     Letters of support have been supplied to the committee.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

     Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

     Yes.

                                 ______
                                 
          Questions Submitted for the Record to Matthew Basset
               Question Submitted by Hon. Orrin G. Hatch
    Question. The ACA created the Star Ratings program, where Medicare 
Advantage plans with four or more stars receive add-on payments to 
their benchmarks. The ACA also placed a cap on each county's benchmark. 
The quality bonus add-on payment is included in determining the 
benchmark cap. This can result in plans that would have been rewarded 
for high quality ratings not receiving the full value of their add-on 
payment, which can be a disincentive for quality.

    I understand that CMS does not believe it has the authority to lift 
the benchmark cap or to remove quality incentive payments from the 
benchmark cap and has stated it would require a legislative change. 
Will you commit to reviewing this issue and determining whether the 
Secretary has the authority to address this issue?

    Answer. If confirmed, I will be glad to work with the Office of the 
General Counsel and the appropriate policy divisions to review this 
matter and determine whether the Secretary has the authority to address 
this issue.

                                 ______
                                 
               Questions Submitted by Hon. Chuck Grassley
    Question. In recent months my staff has reached out to both CMS and 
HHS for technical assistance on legislation under consideration. In 
some cases it has taken multiple requests by my staff to get this 
assistance.

    Do you intend to be responsive to requests from my office?

    Answer. Yes. If you believe there have been instances in which 
technical assistance has been unduly delayed, I look forward to working 
with your office to improve response times.

    Question. Furthermore, do you intend to be responsive to staff and 
members of this committee?

    Answer. Absolutely. If confirmed, I will always make it a priority 
to respond to all members and congressional offices.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
    Question. I appreciate your commitment to ensuring the Department 
is responsive to Senators. As I've raised with Secretary Price, 
Administrator Verma, and other nominees who have come before the 
committee, I have serious concerns regarding the ongoing challenges 
faced by the Indian Health Service. In fact, late last week we received 
notice from the Acting Assistant Secretary that the IHS Sioux San 
Hospital emergency and inpatient departments would be permanently 
closed within a year. This is a decision that impacts the tribal 
members that utilize this facility as well as the local hospital who 
will now have the responsibility of caring for these patients. As we 
continue discussions with stakeholders in our state, if confirmed, will 
you commit to ensuring that HHS responds to questions regarding this 
closure in a timely fashion?

    Answer. If confirmed, I will respond to all member requests in a 
timely and appropriate manner. If confirmed, I will have the Office of 
the Assistant Secretary for Legislation contact your office so that we 
can begin discussions on your concerns.

    Question. Senators Barrasso, Hoeven, and I have introduced the 
Restoring Accountability in the IHS Act, which will give HHS 
flexibility to terminate poorly performing employees, streamline the 
hiring process so IHS can recruit talented health care providers, and 
create incentives so those folks will stay on the job longer. Though 
we've already been working with the Department on technical assistance, 
I want to ask, if confirmed, for your commitment to continue working 
with us on this bill and ensure timely feedback.

    Answer. I will respond to all member requests in a timely and 
appropriate manner. If confirmed, I will have the Office of the 
Assistant Secretary for Legislation contact your office so that we can 
discuss this technical assistance and other ways in which the office 
may be helpful.

    Question. I want to highlight one other pending item that my office 
has with HHS and CMS regarding reimbursement for durable medical 
equipment. At our budget and confirmation hearings with Secretary 
Price, he expressed his interest in finding solutions to the challenges 
rural areas face with the application of competitive bidding rates in 
non-competitively bid areas. 48 other Senators and I recently sent a 
letter urging the Department to take swift action to provide relief 
through the regulatory process. As we're approaching the end of the 
year, we're hopeful to receive a quick response. As such, if confirmed, 
will you commit to helping get a response to that letter in the near 
future?

    Answer. I will respond to all member requests in a timely and 
appropriate manner. If confirmed, I will have the Office of the 
Assistant Secretary for Legislation contact your office so that a 
response to your letter can be drafted as quickly as possible.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. There are many priorities I want to work on during this 
Congress, including improving access to school based health centers, 
expanding the Excellence in Mental Health Demonstration, and 
strengthening and improving the Medicare program.

    Will you commit to working with me, and consistently responding in 
a timely manner, both when we share policy positions and when we may 
not?

    Answer. Absolutely. If confirmed, it is my intent to respond 
appropriately to all member requests.

    Question. One of ASL's missions is to work with the White House to 
advance presidential initiatives. My opinion is the health care of the 
Americans should be put first by the agency that serves them. I'm 
concerned that President Trump recently said the plan was to ``let 
Obamacare fail,'' rather than working to make our health-care system 
better. At HHS, there have been efforts to limit outreach and decrease 
enrollment in health care plans and make tax credits less generous, for 
example.

    If confirmed, how will you handle situations in which the 
administration's objective is not aligned with the mission of your 
office?

    Answer. The mission of the Department is to provide for the health 
and well-being of all Americans and, if confirmed, I will uphold that 
mission in my work for the administration.

    Question. Do you agree that HHS should ``let Obamacare fail''?

    Answer. The administration has emphasized the importance of 
reforming our health-care system to one that works better for patients 
and their providers. Should I have the privilege to serve, I am eager 
to work with Congress toward that end and to ensure the American people 
have access to affordable coverage.

                                 ______
                                 
       Submitted by Hon. Sherrod Brown, a U.S. Senator From Ohio

               From The Columbus Dispatch, August 1, 2017

           Trump Can Kill Ohio Plan to Save Health Exchanges
                           By Marty Schladen
If President Donald Trump carries through on his threat to end $7 
billion in annual Federal reimbursements to insurers, that could prompt 
the collapse of the federal and state health exchanges.

Insurance coverage is likely to be restored on the Federal health 
exchange for Ohioans in at least 19 of 20 counties where insurers 
recently announced they are pulling out.

But the measure appears to be only a temporary fix--and it may never 
happen if President Donald Trump carries out a threat to undermine 
Obamacare.

The Ohio Department of Insurance has found five insurers who are 
willing to expand into all but one of the underserved Ohio counties, 
Chris Brock, the department's assistant director of public affairs, 
said Monday. The search for a Paulding County insurer continues.

He cautioned, however, that nothing is guaranteed until the companies 
sign contracts with the Federal Government at the end of September. 
Even then, coverage would be certain only through 2018.

``This is not a commitment that they will be here in the next 2 years 
or 5 years or 10 years,'' Brock said.

Indeed, uncertainty surrounding the future of health care continues to 
reign in Washington. Republican efforts to repeal or dramatically scale 
back the program have repeatedly failed on Capitol Hill, leaving Trump 
threatening to let Obamacare ``fail.''

Many have interpreted those threats to mean the administration would 
end $7 billion in annual Federal reimbursements to insurers for 
subsidizing prescription and medical copays for lower-income Americans. 
Ending the subsidies would prompt double-digit premium increases and 
possibly send the Federal and State health exchanges into a death 
spiral, experts have said.

Brock said the uncertainty in Washington could undermine arrangements 
in Ohio.

``Nothing is really final final until these contracts are signed at the 
end of September,'' he said. ``There are things at the Federal level 
that could change this.''

In a statement, Ohio Senator Jay Hottinger, R-Newark, seemed to agree.

``The challenges and uncertainty in the marketplace continue to be a 
house of cards, and the slightest changes could result in further 
turmoil, but today we celebrate the good news of the five carriers who 
have stepped up to serve Ohioans in those counties,'' he said.

Created under the Affordable Care Act, also known as Obamacare, the 
health exchanges were created so that individuals who are not otherwise 
covered could buy health insurance. Those earning up to four times the 
Federal poverty standard can qualify for Federal subsidies for their 
insurance on the Federal and State exchanges. (Ohio uses the Federal 
exchange.)

Mega-insurer Anthem, citing uncertainty about Obamacare's future as 
part of the reason, announced in June it would pull out of Ohio at the 
end of this year, leaving 20 counties without a coverage option. 
Dayton-based Premier Health Plan also announced that it would leave the 
nine counties in which it offered coverage on the health exchange at 
the start of 2018.

With about 11,000 Ohioans standing to lose coverage because of the 
moves, Monday's news of a possible reprieve was welcomed by advocates.

``This is a great way to make sure people in those counties have access 
to some insurance,'' said Steve Wagner, executive director of the 
Universal Health Care Action Network Ohio.

Tentative arrangements have been made to provide insurance options for 
2018 in Coshocton, Crawford, Guernsey, Hancock, Harrison, Hocking, 
Holmes, Jackson, Knox, Lawrence, Logan, Morgan, Muskingum, Noble, 
Perry, Van Wert, Vinton, Williams and Wyandot counties, Ohio Insurance 
Commissioner Jillian Froment said in a statement.

Those counties have relatively small populations, making them less 
attractive to insurers, said Cynthia Cox, associate director for the 
Study of Health Reform and Private Insurance at the Henry J. Kaiser 
Family Foundation.

Typically, just 5 percent of a county's population participates in the 
individual markets, meaning that insurers have to create networks of 
doctors and hospitals for a relatively small number of patients in 
rural counties, Cox said.

``It's not a surprise that you would have only a handful of companies 
compete for that business,'' Cox said.

She added that it's also not surprising that four of the five insurers 
expanding into the underserved Ohio counties--Buckeye Health Plan, 
CareSource, Molina Health Care of Ohio and Paramount Health Care--also 
operate Medicaid managed-care plans in the State. That means they 
already have provider networks in those areas, Cox said.

Medical Mutual of Ohio is the sole non-Medicaid insurer eying expansion 
into the underserved Ohio counties.

It's unclear how much arm-twisting was needed to get the Medicaid 
contractors to expand onto the rural exchanges, but Cox said some 
States require all such contractors to also offer plans on the 
individual exchanges in all counties.

``That's one of the only ways the States or the Federal Government can 
get insurers to go into some of these more rural counties,'' she said.

Dispatch Reporter Andrew Keiper contributed to this story.

                                 ______
                                 
Prepared Statement of Robert Charrow, Nominated to be General Counsel, 
                Department of Health and Human Services
Chairman Hatch, Ranking Member Wyden, and members of the committee, it 
is an honor to appear before you as the President's nominee to serve as 
the General Counsel of the Department of Health and Human Services. I 
am joined by my wife, Dr. Veda Charrow, a retired Federal employee most 
recently at the National Institutes of Health.

I would like to thank this committee for considering my nomination. I 
have had many productive meetings with some of you and your staff 
already, and look forward to discussing the issues facing HHS with you 
today.

HHS's jurisdiction extends from the bench to the bedside, underwriting 
basic research that will lead to tomorrow's miracle drugs, new devices 
and biologics, and financing health care through various programs 
including Medicare, Medicaid, and the Children's Health Insurance 
Program. In that regard, HHS is a unique blend of science, health care, 
and finance.

I was privileged to serve as the Deputy General Counsel and Principal 
Deputy General Counsel during President Reagan's second term and into 
the presidency of George H.W. Bush. Aside from working on President 
Reagan's re-election campaign as a lawyer, I had been a law professor 
with little experience managing anyone other than scared law students. 
My first few months at HHS in 1985 were a rude awakening. But I was 
lucky. The career attorneys and staff at the Office of the General 
Counsel were remarkably helpful and extremely competent; traits that I 
understand persist and have not been lost to the passage of time. In 
fact, some of the career attorneys in the office 30 years ago still 
work at the Office of the General Counsel.

Since leaving HHS in 1989, I have been in private practice focusing on 
health-care law, administrative law, and general appellate litigation. 
In health care, I have represented academic medical centers, learned 
societies, hospital systems, research institutes, pharmaceutical 
companies, providers, and insurers. Those nearly three decades of 
seeing problems in the real world have brought home the salient 
differences between the obligations of government attorneys and those 
in the private sector.

The role of a General Counsel in a Federal agency is not the same as 
private attorney for a corporate client. The General Counsel's role and 
obligation is to make sure that all corners are squared and that the 
rules and policies issued by the agency are legally proper. They should 
be consistent with the legislation in substance. And these rules and 
policies must follow the process required by the Administrative 
Procedure Act. In that regard, a General Counsel should act as a 
neutral arbiter assessing potential agency action as if he or she were 
a Federal district judge. The notion that a rule ``may withstand 
judicial scrutiny'' is not sufficient. The question, when reviewing any 
rule, is--how would I, as an impartial judge, assess that rule in light 
of all possible challenges.

Private clients expect their attorneys to develop novel legal 
arguments. Creating new legal theories or applying old ones in new ways 
is the most enjoyable aspect of my private legal practice. But that is 
very different than the role of General Counsel where legal creativity 
takes a back seat to acting as impartial arbiter. You may ask then, why 
would anyone forsake creativity? A legitimate question. The answer is 
simple--the legal issues themselves are unique and fascinating. In 
government service, one is confronted with legal issues that are so 
different from what is seen in private practice, and that more than 
makes up for any loss in creativity.

I am well aware that many HHS rules issued over the past generation, 
especially those implementing the Medicare Act, have been ridiculed by 
Federal courts as being linguistically incomprehensible. One role of a 
General Counsel is to ensure that the rules that defy comprehension do 
not see the light of day.

Experience representing private-sector clients has highlighted the 
importance of virtually all of the actors in our health-care system. I 
hope that this practical legal experience will help when reviewing 
rules, when counseling the Secretary, and when testifying before 
Congress.

I know from experience that HHS will be the subject of litigation. My 
goal is to ensure that the agency's position in any given case is both 
legally correct and objectively just. The one thing I have learned over 
the years is that agency action which may be legally correct when 
viewed hyper-technically, but which offends fundamental notions of 
fairness, normally does not fare well in the courts.

Thank you for the opportunity to testify today. I now am happy to 
answer any questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Robert Phillip Charrow.

 2.  Position to which nominated: General Counsel, Department of Health 
and Human Services.

 3.  Date of nomination: June 6, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: October 21, 1944; St. Louis, Missouri.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

    John H. Francis Polytechnic High School (1959-1962), H.S. diploma--
6/62.

    Harvey Mudd College (1962-1966), B.S. physics--6/66.

    Stanford University School of Law (1966-1969), J.D.--6/69.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

    a.  Greenberg Traurig, LLP, Washington, DC: June 10, 2002-present 
(currently a principal shareholder); I practice law with an emphasis on 
health-care litigation.
    b.  Crowell and Moring, Washington, DC: June 1989-June 9, 2002 
(last a partner); I practiced law with an emphasis on health-care 
litigation.
    c.  Office of the General Counsel, Department of Health and Human 
Services, Washington, DC: July 1985-April 1989 (last Principal Deputy 
General Counsel).
    d.  Reagan-Bush 1984, Washington, DC: Feb. 1984-July 1985 (deputy 
chief counsel) (lawyer for the President's authorized re-election 
committee).
    e.  University of Cincinnati College of Law, Cincinnati, OH: Aug. 
1980-Aug. 1983 (associate professor of law).
    f.  Howard University School of Law, Washington, DC: Jan. 1975-June 
1980 (last an associate professor of law).
    g.  Federal Home Loan Bank Board, Office of Industry Development, 
Washington, DC: Dec. 12, 1977-Aug. 1978 (par-time consultant).
    h.  Center for Applied Linguistics, Arlington, VA: June 1, 1976-May 
31, 1978 (co-principal investigator on NSF grant) (part-time).
    i.  United States House of Representatives; Washington, DC: July 
1974-Dec. 1974 (Legislative Assistant).
    j.  University of Santa Clara College of Law, Santa Clara, CA: 
Sept. 29, 1972-June 15, 1974 (lecturer in law and supervising 
attorney).
    k.  Robert P. Charrow, Palo Alto, CA: June 12, 1971-June, 30 1974 
(private practice of law).
    l.  Charrow and Reisman, Palo Alto, CA: Oct. 1, 1970-June 11, 1972 
(private practice of law).
    m.  Layne, Brodie, and Germino, Palo Alto, CA: Feb. 1, 1970-Sept. 
30, 1970 
(associate-private practice of law).
    n.  Ralph J. Gampell, Esq., San Jose, CA: Nov. 15, 1969-Jan. 15, 
1970 (law clerk).
    o.  Sequoia Union High School District, Redwood City, CA: Oct. 1, 
1969-Nov. 14, 1969 (substitute teacher).
    p.  Legal Aid Society of San Mateo County, East Palo Alto, CA: June 
10, 1968-Sept. 1, 1968 (summer law clerk).
    q.  RCA--Laser Division, Burlington, MA: July 1967-Sept. 1967 
(laser physicist).
    r.  Korad--Laser Division of Union Carbide, Santa Monica, CA: June 
1966-Sept. 1966 (laser physicist).
10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

     Member of the Secretary's Advisory Committee on Organ 
Transplantation (2001-2005) (waived compensation).

     Member, election board of town of Chevy Chase (May 2015-Sept. 
2015) (no compensation).

     Board of advisors, Institute of Human Virology, University of 
Maryland School of Medicine (1999-present) (no compensation).

     Member, advisory board, The Institute for Cellular Therapeutics, 
University of Louisville, School of Medicine, Louisville, KY (1999-
2001) (no compensation).

     Past advisor to the Pattern Jury Instruction Committees for the 
States of Maryland and Illinois (no compensation).

     Proposal reviewer, National Science Foundation (no compensation).

     Taught a one-week course in health law at Arizona State University 
College of Law (Jan. 2006) (travel expenses reimbursed; any 
compensation would have been paid to Greenberg Traurig).

     Judge Pro Tempore, Santa Clara County Municipal Court (portion of 
summer 1973) (no compensation).

     Interned in the District Attorney's Office, Santa Clara County 
(1968-1969) (part-time) (no compensation).

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

    Excluding clients of my two law firms, the positions are as 
follows:

     Principal Shareholder, Greenberg Traurig, LLP.

     Partner, Crowell and Moring.

     Sterling Gas Drilling Fund 1981 (\1/800\ interest) sold in Dec. 
2016 for $1,000 (passive investment).

     Franklin Forest Valley Associates (\1/120\ interest) sold about 
15-20 years ago (passive investment).

     Partner, Charrow and Resiman.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

     American Law Institute.
     Cosmos Club.
     American Bar Association.
     California Bar Association.
     District of Columbia Bar Association.
     Adas Israel Congregation.
     Federalist Society (contributor, but unclear whether I am a 
member).
     American Statistical Association.
     American Health Lawyers Association (through Greenberg Traurig, 
LLP).
     Association of Trial Lawyers of America (faculty membership).
     Republican National Lawyers Association.
     Law and Society Association.
     Linguistic Society of America.
     Food and Drug Law Institute (through Greenberg Traurig, LLP).
     Smithsonian (associate member).
     Phillips Collection (member).
     Advisory Board, BNA Medical Research Law and Policy Report 
(member) (2002-present) (no compensation).

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

      None.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       No offices; currently represent a House Chief of Staff and a 
congressional campaign committee in an Ethics Committee proceeding in 
the House of Representatives. As GT client, have represented the NY 
State Democratic Party.

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

       Friends of Isiah Ike Leggett (Montgomery County) (2006)  $75.
       Robert J. Garagiola for Congress (2012)  $500.
       Romney for President (2011)  $250.
       John McCain 2008 Inc. (2008)  $1,000.
       Susan Collins for Senator (2007)  $250.
       Greenberg Traurig, P.A. PAC (monthly)  $850/annum (2004-2011) 
and $750/annum (2012-present).
       Catania for Mayor (DC) Exploratory Committee (2014)  $600.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

     American Law Institute.
     National Science Foundation Grant (Co-PI), 1976-1978.
     Stanford University Scholarship, 1966-1969.
     California State Scholarship, 1962-1966.
     Secretary's Commendation (1987).

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

    A. Books

      1.  Charrow R., and L. Klaus, The Short Book on Standing: A 
Practical Primer for the Practitioner (New York: Thomson Reuters/
Aspatore, 2015).

      2.  Charrow, V., Erhardt, M., and Charrow, R., Clear and 
Effective Legal Writing (5th Edition) (New York: Aspen Publishers, 
Inc., 2013).

      3.  Charrow, R., Law in the Laboratory: A Guide to the Ethics of 
Federally Funded Science Research (Chicago: University of Chicago 
Press, 2010).

    B. Articles/Chapters/Monographs

      4.  Charrow, R., and Klaus, L., ``Birthers, Gifters, and 
Standing,'' National Law Journal (Feb. 20, 2017).

      5.  Charrow, R., and Serbaroli, F., ``Office of Inspector General 
(OIG) Proposes New Anti-Kickback Law and CMP Safe Harbors,'' Nat'l L. 
Rev. (posted on Thursday, November 20, 2014).

      6.  Charrow, R., and Klaus, L., ``Judicial Developments--Homeland 
Security in American Bar Association's Developments in Administrative 
and Regulatory Practice 2013'' at 8 (Jeffrey Lubbers, ed., 2014).

      7.  Charrow, R., ``Circuits Split Over Legality of IRS Rule 
Mandating Tax Credits for Individuals Covered Through Federal Exchanges 
Under the Affordable Care Act,'' Nat'l L. Rev. (posted on Friday, 
August 15, 2014).

      8.  Charrow, R., ``Supreme Court Extends PLIVA Case to Preempt 
Certain Design Defect Claims Against Generic Drug Manufacturers,'' 
Nat'l L. Rev. (posted on Friday, August 9, 2013).

      9.  Charrow, R., Cherniga, M., Malone, M., and Taylor, N., 
``Stark Law Violations Costly to Intermountain Health Care Inc.,'' 
Nat'l L. Rev. (posted on Friday, April 5, 2013).

     10.  Charrow, R., and Klaus, L., ``Judicial Developments--Homeland 
Security in American Bar Association's Developments in Administrative 
and Regulatory Practice 2012'' at 8 (Jeffrey Lubbers, ed., 2013).

     11.  Charrow, R., and Taylor, N., ``Supreme Court Upholds 
Affordable Care Act,'' Nat'l L. Rev. (posted on Thursday, June 28, 
2012).

     12.  Charrow, R., and Taylor, N., ``Accountable Care Organization 
(ACO)--The Real Journey Begins,'' Nat'l L. Rev. (posted on Monday, 
April 11, 2011).

     13.  Charrow, R., and Klaus, L., ``Judicial Developments--Homeland 
Security in American Bar Association's Developments in Administrative 
and Regulatory Practice 2008-2009'' at 295 (Jeffrey Lubbers, ed., 
2010).

     14.  Kenney Jr., Robert J., Charrow, Robert P., et al, ``The 
Implications of Obama's Executive Order on the Study of Embryonic Stem 
Cells,'' BNA's Medical Research Law and Policy Report 253 (April 1, 
2009).

     15.  Charrow, R., ``Protection of Human Subjects: Is Expansive 
Regulation Counter-productive?'', 101 Nw. U. L. Rev. 707 (2007).

     16.  Charrow, R., and Ross, J., ``Institutional Review Boards--Are 
They Science's Answer to Hollywood's Hays Board?'', BNA's Medical 
Research Law and Policy Report (July 5, 2006).

     17.  Charrow, R., and Goldman, E., ``Regulation of Clinical Trials 
by the FDA: A Process in Search of Procedures,'' BNA's Medical Research 
Law and Policy Report (Feb. 4, 2004).

     18.  Charrow, R., ``The Federal Research Grant--Renaissance 
Patronage With Legal Formalities,'' BNA's Medical Research Law and 
Policy Report (May 1, 2002).

     19.  Charrow, R., ``The HIPAA Quagmire: Can Electronic Privacy Be 
Enhanced Constitutionally by a Paperwork Rule?'', Health Care Review 
(June 2001).

     20.  Charrow, R., and Bramlage, J., ``Biomedical Research--Human 
Subjects Protection,'' National L. J. B10 (Oct. 30, 2000).

     21.  Charrow, R., ``Advisory Committees and the Federal Regulation 
of Biomedical Research,'' 3 J. Biolaw and Bus. 5 (1999).

     22.  Charrow, R., and Greenlees, L., ``ERISA Pre-Emption--A Law in 
Search of a Doctrine,'' 27 Health Law Digest 3 (March 1999).

     23.  Charrow, R., ``Wheat, Guns and Science: The Commerce Clause 
and Human Subjects,'' 9 J. NIH Res. (Nov. 1997).

     24.  Charrow, R., Main, D., and Onek, J., ``Retooling Medicine 
Through PSOs and Medicare+Choice Plans: Can Providers Catch the Brass 
Ring?'', 25 Health Law Digest 3 (Oct. 1997).

     25.  Charrow, R., ``Life, Death, and the Archbishop: The Supreme 
Court Redefines Federal Authority,'' 9 J. NIH Res. 53 (Sept. 1997).

     26.  Charrow, R., ``Grants, Contracts, and Science: The Legal 
Basis of Research Funding,'' 9 J. NIH Res. 53 (July 1997).

     27.  Charrow, R., ``It's Time to Scrap the Office of Research 
Integrity,'' 9 J. NIH Res. 63 (May 1997).

     28.  Charrow, R., ``Courting Science: Rational Decision Making in 
an Irrational Environment,'' 9 J. NIH Res. 56 (March 1997).

     29.  Charrow, R., ``Why Your Grant Application is a Trade 
Secret,'' 8 J. NIH Res. 61 (Nov. 1996).

     30.  Charrow, R., ``Court is Adjourned, and Researchers Should 
Take Note,'' 8 J. NIH Res. 76 (Sept. 1996).

     31.  Charrow, R., ``Trial By Jury--Or By Dice?'', 8 J. NIH Res. 68 
(July 1996).

     32.  Charrow, R., ``Miscalculated Risk: Redefining Misconduct is 
Unnecessary and Dangerous,'' 8 J. NIH Res. 61 (May 1996).

     33.  Charrow, R., ``The Art of Designing Unconstitutional Laws,'' 
8 J. NIH Res. 69 (March 1996).

     34.  Charrow, R. and Onek, J., ``Who's Funding the Great Labs of 
America?'', 8 J. NIH Res. 69 (Jan. 1996).

     35.  Charrow, R., ``The Perils of Publishing in Cyberspace,'' 7 J. 
NIH Res. 74 (Dec. 1995).

     36.  Charrow, R., ``Intendo: The Legal Game of Gauging Mens Rea,'' 
7 J. NIH Res. 79 (Nov. 1995).

     37.  Charrow, R., ``Let's Look at Your Records: How Well Does the 
Privacy Act Protect You?'', 7 J. NIH Res. 69 (Oct. 1995).

     38.  Charrow, R., ``Lawless in the Laboratory,'' 7 J. NIH Res. 87 
(Sept. 1995).

     39.  Charrow, R., ``Now the Food and Drug Administration Regulates 
Free Speech,'' 7 J. NIH Res. 90 (July 1995).

     40.  Charrow, R., ``A Legal Dog Fight: Florida vs. The Tobacco 
Industry,'' 7 J. NIH Res. 76 (June 1995).

     41.  Charrow, R., ``The Commission on Research Integrity: A Horse 
in Search of Two Humps,'' 7 J. NIH Res. 65 (May 1995).

     42.  Charrow, R., ``The Congress Shall Make No Law . . . Abridging 
the Freedom of Speech, Or Shall It?'', 7 J. NIH Res. 90 (April 1995).

     43.  Charrow, R., ``The Range War Over the AZT Patent,'' 7 J. NIH 
Res. 71 (March 1995).

     44.  Schwartz, V., Charrow, R., and Behrens, M., ``Following the 
Supreme Court's Analysis in Cipollone, Courts Are Finding Broad 
Preemption in Sophisticated Medical Device Tort Litigation,'' 17 J. 
Prods. and Toxics Liab. 31 (1995).

     45.  Charrow, R., ``The Legacy of Queen Anne: A Primer on 
Copyright Law,'' 7 J. NIH Res. 64 (Feb. 1995).

     46.  Charrow, R., ``Changes at an Old Club: A Primer on Rules of 
the House,'' 7 J. NIH Res. 62 (Jan. 1995).

     47.  Charrow, R., ``Whose Tissue Is It, Anyway?'', 6 J. NIH Res. 
79 (Dec. 1994).

     48.  Charrow, R., and Bernstein, D., Scientific Evidence in the 
Courtroom: Admissibility and Statistical Significance After Daubert, 
Wash. L. Found. Monograph (1994).

     49.  Charrow, R., ``Is the NIH Revitalization Act An Ethnic-Quota 
Law?'', 6 J. NIH Res. 99 (July 1994).

     50.  Charrow, R., ``An AIDS Vaccine: It May Take an Act of 
Congress,'' 6 J. NIH Res. 84 (June 1994 ).

     51.  Charrow, R., ``Scientific Misconduct Five Years Later,'' 6 J. 
NIH Res. 20 (May 1994).

     52.  Charrow, R., ``A Natural Elixir for Breaking the Logjam at 
FDA,'' 6 J. NIH Res. 92 (April 1994).

     53.  Charrow, R., ``The Scientist as a Client: Some Tips on 
Shopping for an Attorney,'' 6 J. NIH Res. 92 (March 1994).

     54.  Charrow, R., ``The Regulatory Roller Coaster: ABCs of the 
APA,'' 6 J. NIH Res. 79 (Feb. 1994).

     55.  Charrow, R., ``A Novice's Guide to Jurisprudence: Learning 
the Law Through ORI Press Releases,'' 6 J. NIH Res. 64 (Jan. 1994).

     56.  Charrow, R., ``Motherhood, Apple Pie, and the NIH Grant-
Review System: Are They Unconstitutional?'', 5 J. NIH Res. 86 (Dec. 
1993).

     57.  Charrow, R., ``The Legal System Confronts Peer Review: Is a 
Tradition About to be Breached?'', 5 J. NIH Res. 90 (Nov. 1993).

     58.  Charrow, R., ``Informed Consent: From Canterbury Tales to 
Canterbury v. Spence,'' 5 J. NIH Res. 75 (Oct. 1993).

     59.  Charrow, R., ``The Gift That Never Was: The Three Most 
Frequently Asked Questions About Federal Grants,'' 5 J. NIH Res. 89 
(Sept. 1993).

     60.  Charrow, R., ``A Rose Is a Rose Is . . . Plagiarism?'', 5 J. 
NIH Res. 58 (Aug. 1993).

     61.  Charrow, R., ``New Risks and New Laws: The Plight of Factor 
VIII Victims,'' 5 J. NIH Res. 107 (July 1993).

     62.  Charrow, R., ``The Mice That Roared: Patenting Basic 
Research,'' 5 J. NIH Res. 82 (June 1993).

     63.  Charrow, R., ``A New Script for Health Care Reform,'' 5 J. 
NIH Res. 81 (May 1993).

     64.  Charrow, R., ``Biomedical Research Joins the Pork Parade,'' 5 
J. NIH Res. 80 (April 1993).

     65.  Charrow, R., ``A Primer on Research Ethics: Learning to Cope 
With Federal Regulation of Research,'' 5 J. NIH Res. 76 (March 1993).

     66.  Charrow, R., ``The End Doesn't Justify the Means: A Rational 
Approach to Curbing Illegal Bureaucratic Action,'' 5 J. NIH Res. 82 
(Feb. 1993).

     67.  Charrow, R., ``The Foibles of FOIA: Balancing Privacy and 
Curiosity,'' 5 J. NIH Res. 80 (Jan. 1993).

     68.  Charrow, R., ``Peer Reviews and a Jury of Peers,'' 4 J. NIH 
Res. 79 (Dec. 1992).

     69.  Charrow, R., ``Extremism in the Cause of Perfection Can be a 
Vice,'' 4 J. NIH Res. 92 (Nov. 1992).

     70.  Charrow, R., ``The Electoral College: The Last Bastion of 
Representative Democracy,'' 4 J. NIH Res. 97 (Oct. 1992).

     71.  Charrow, R., ``Grime and Punishment: The Seedier Side of the 
Legal Process,'' 4 J. NIH Res. 106 (Sept. 1992).

     72.  Charrow, R., ``The False Claims Act Can Trap Researchers,'' 4 
J. NIH Res. 55 (Aug. 1992).

     73.  Charrow, R., ``Mrs. Palsgraf Meets the CDC: The Liability 
Implications of Anonymous Antibody Testing for HIV,'' 4 J. NIH Res. 138 
(July 1992).

     74.  Charrow, R., ``Legislating Morality on the Banks of Styx,'' 4 
J. NIH Res. 83 (June 992).

     75.  Charrow, R., and Onek, J., ``The Most Expensive Election of 
All,'' Washington Post A25 (June 17, 1992).

     76.  Charrow, R., ``Tinker to Evers to Chance: A Primer on Insider 
Trading and the Flow of Information,'' 4 J. NIH Res. 81 (May 1992).

     77.  Charrow, R., ``And You Thought the Football Season Was Long: 
A Spectator's Guide to Presidential Electioneering,'' 4 J. NIH Res. 89 
(April 1992).

     78.  Charrow, R., ``Purity, Patents and Life: The Blood Stem Cell 
Controversy,'' 4 J. NIH Res. 97 (March 1992).

     79.  Charrow, R., and Saks, M., ``Legal Responses to Allegations 
of Scientific Misconduct,'' in M. Herson, Research Fraud in the 
Behavioral and Biomedical Sciences (1992).

     80.  Charrow, R., ``A Proposal for Reforming the Misconduct 
Quagmire,'' 4 J. NIH Res. 96 (Feb. 1992).

     81.  Charrow, R., ``To Say or Not to Say: A Primer on the Law of 
Defamation,'' 4 J. NIH Res. 78 (Jan. 1992).

     82.  Charrow, R., ``Cases and Controversies: A Perspective on the 
Supreme Court,'' 3 J. NIH Res. 80 (Dec. 1991).

     83.  Charrow, R., ``Sex, Politics, and Science,'' 3 J. NIH Res. 80 
(Nov. 1991).

     84.  Charrow, R., ``PHS's Office of Scientific Integrity Review: 
Housekeeping Is in Order,'' 3 J. NIH Res. 80 (Oct. 1991).

     85.  Charrow, R., ``The Scorpion and the Turtle: The Parable of 
AZT and Government Regulation,'' 3 J. NIH Res. 97 (Sept. 1991).

     86.  Charrow, R., ``Introduction to D. Hardy, America's New 
Extremists: What You Need to Know About the Animal Rights Movement,'' 
Washington Legal Foundation (Washington, DC 1991).

     87.  Charrow, R., ``Now You're Covered, Now You're Not: 
Indemnification, the Silent Insurance,'' 3 J. NIH Res. 112 (July 1991).

     88.  Schwartz, V., and Charrow, R., ``Regulatory Action in Tort 
Law: Toward a More Benign Relationship,'' 19 Prod. Safety and Liability 
Rptr. 672 (June 7, 1991) and 6 Toxics Law Rptr. 68 (June 12, 1991).

     89.  Charrow, R., ``Forensic Evidence in the Courtroom Is Really 
Probability Theory in the Jury Box,'' 3 J. NIH Res. 96 (June 1991).

     90.  Charrow, R., ``The Mystery of the Migrating Virus,'' 3 J. NIH 
Res. 87 (May 1991).

     91.  Charrow, R., ``Fetal Tissue Transplantation Ban: Illegal 
Political Solution to a Moral Problem,'' 3 J. NIH Res. 20 (April 1991).

     92.  Charrow, R., ``Controlling Health Care Costs: A Major Problem 
in Need of an Enlightened Solution,'' 3 J. NIH Res. 74 (March 1991).

     93.  Charrow, R., ``Message to NIH's Office of Scientific 
Integrity: Here Comes the Judge,'' 3 J. NIH Res. 97 (Feb. 1991).

     94.  Charrow, R., ``Contracting Away the First Amendment: Publish 
and Perish,'' 3 J. NIH Res. 78 (Jan. 1991).

     95.  Charrow, R., and Kochan, Donald J., ``The Real Transition: 
How to Stem a Deluge of Regulations,'' Washington Times A15 (Jan. 15, 
2001).

     96.  Kochan, Donald J., and Charrow, R., ``Stopping the Last-
Minute Regulatory Deluge,'' Boston Globe 11 (Jan. 6, 2001).

     97.  Charrow, R., ``So You Want to Start Your Own Business,'' 2 J. 
NIH Res. 84 (Dec. 1990).

     98.  Charrow, R., ``A Fly on the Wall: Opening the Peer Review 
Process to the Public,'' 2 J. NIH Res. 78 (Nov. 1990).

     99.  Charrow, R., ``Scientific Misconduct Revisited: OSI on 
Trial,'' 2 J. NIH Res. 83 (Oct. 1990).

    100.  Charrow, R., ``Untangling the Bureaucratic Web: Should NIH 
Remain in the Department of Health and Human Services?'', 2 J. NIH Res. 
80 (Sept. 1990).

    101.  Charrow, R., ``Choosing an NIH Director: Blending the 
Politics of Science With the Science of Politics,'' 2 J. NIH Res. 83 
(July 1990).

    102.  Charrow, R., ``Scientific Misconduct: Sanctions in Search of 
Procedures,'' 2 J. NIH Res. 91 (June 1990).

    103.  Charrow, R., ``Article III Meets Godzilla: Animal Rights and 
the Right to Sue,'' 2 J. NIH Res. 90 (May 1990).

    104.  Charrow, R., Book Review, Washington Times (1990).

    105.  Charrow, R., ``Liability in the Laboratory,'' 2 J. NIH Res. 
88 (April 1990).

    106.  Charrow, R., ``Intellectual Property Rights: Who Owns What, 
and When? Part II,'' 2 J. NIH Res. 88 (March 1990).

    107.  Charrow, R., ``Intellectual Property Rights: Who Owns What, 
and When? Part I,'' 2 J. NIH Res. 91 (Jan.-Feb. 1990).

    108.  Charrow, R., ``Judicial Review of Peer Review,'' 1 J. NIH 
Res. 117 (Nov.-Dec. 1989).

    109.  Charrow, R., ``Weighing Conflicting Solutions to Conflict of 
Interest,'' 1 J. NIH Res. 135 (Sept.-Oct. 1989).

    110.  Shapiro, M., and Charrow, R., ``The Role of Data Audits in 
Detecting Scientific Misconduct: Results of the FDA Program,'' 261 J. 
American Medical Assn. 2505 (May 5, 1989).

    111.  Shapiro, M., and Charrow, R., ``Scientific Misconduct in 
Investigational Drug Trials,'' 312 New England Journal of Medicine 731 
(March 14, 1985).

    112.  Charrow, R., ``Symposium on Science and the Rules of Legal 
Procedure,'' 101 F.R.D. 599 (1984) (ed. William Thomas).

    113.  Charrow, R., ``Advertising Prescription Drugs,'' 220 Science 
1106 (June 10, 1983).

    114.  Book Review, 30 UCLA Law Review 1094 (1983).

    115.  Charrow, V., Crandall, J., and Charrow, R., ``Characteristics 
and Functions of Legal Language,'' in Sublanguage: Studies of Language 
in Restricted Semantic Domains (eds. R. Kittredge and J. Lehrberger, 
1982).

    116.  Charrow, R., ``The Appeal of Violent Crime,'' The Cincinnati 
Post 7A (April 6, 1981).

    117.  Charrow, R., and Charrow, V., ``Making Legal Language 
Understandable: A Psycholinguistic Study of Jury Instructions,'' 79 
Columbia Law Review 1306 (1979).

    118.  Charrow, R., and Charrow, V., ``Characteristics of the 
Language of Jury Instructions,'' in Georgetown University Roundtable on 
Language and Linguistics 1979 (eds. J. Alatis and G.R. Tucker).

    119.  Charrow, R. and Charrow, V., ``Lawyers' Views of the 
Comprehensibility of Legal Language,'' in Language Use and the Uses of 
Language (eds. R. Shuy and A. Shnukal, 1979).

    120.  Charrow, R., and Charrow, V., ``The Comprehension of Standard 
Jury Instructions: An Overview,'' Working Paper, Center for Applied 
Linguistics (1978).

    121.  Book Review, 21 Howard Law Review 320 (1978).

    122.  Smith and Charrow, ``Probability Theory and Circumstantial 
Evidence,'' 72 J. Am. Stat. Assn. 318 (1977).

    123.  Charrow and Smith, ``A Conversation About `A Conversation 
About Collins,' '' 64 Geo. L. J. 669 (1976).

    124.  Charrow, ``Jury Size and the Limitations of Probability 
Theory,'' 2 J. Contemp. L. 114 (1975).

    125.  Smith and Charrow, ``Upper and Lower Bounds for Probability 
of Guilt Based on Circumstantial Evidence,'' 70 J. Am. Stat. Assn. 555 
(1975).

    126.  Charrow and Smith, ``A Methodology for Assessing the Weight 
of Circumstantial Evidence,'' Working Paper No. CP-347, Center for 
Research in Management Sciences, University of California, Berkeley 
(1972).

    C. Greenberg Traurig Alerts\1\
---------------------------------------------------------------------------
    \1\ Some alerts may also appear as National Law Review postings and 
are so indicated in section B of publications.

    127.  Charrow, R., Klaus, L., and Stouck, J., ``Impact on Federal 
Regulatory and Administrative Law Issues of Recent Supreme Court 
---------------------------------------------------------------------------
Decisions'' (Nov. 2016).

    128.  Taylor, N., and Charrow, R., ``What You Need to Know About 
the Zika Virus'' (Feb. 2016).

    129.  Charrow, R., Klaus, L., and Stouck, J., ``Federal Regulatory 
and Administrative Law Issues Impacted by Recent Supreme Court 
Decisions'' (Oct. 2015).

    130.  Charrow, R., ``Supreme Court Upholds Affordable Care Act Rule 
Authorizing Health Subsidies in States With Federal Exchanges'' (June 
2015).

    131.  Charrow, R., and Gallo, S., ``Waivers of Certain Fraud and 
Abuse Laws Permitted in CJR Model'' (Nov. 2015).

    132.  Charrow, R., ``Court Holds That `Supremacy Clause' Does Not 
Create a Private Right of Action to Enforce the Provisions of 
Medicaid'' (April 2015).

    133.  Charrow, R., ``Supreme Court Upholds Affordable Care Act Rule 
Authorizing Health Subsidies in States With Federal Exchanges'' (June 
2015).

    134.  Charrow, R., and Ledford, A., ``Court Holds That `Supremacy 
Clause' Does Not Create a Private Right of Action to Enforce the 
Provisions of Medicaid'' (April 2015).

    135.  Charrow, R., White, D., and Taylor, N., ``Circuits Split Over 
Legality of IRS Rule Mandating Tax Credits for Individuals Covered 
Through Federal Exchanges Under the Affordable Care Act'' (July 2014).

    136.  Charrow, R., and Serbaroli, F., ``OIG Proposes New Anti-
Kickback Law and CMP Safe Harbors'' (Nov. 2014).

    137.  Charrow, R., Cherniga, M., Taylor, N., and Malone, M., 
``Stark Law Violations Costly to Intermountain Health Care Inc.'' 
(April 2013).

    138.  Charrow, R., ``Supreme Court Extends PLIVA to Preempt Certain 
Design Defect Claims Against Generic Manufacturers'' (Aug. 2013).

    139.  Charrow, R., Taylor, N., and Hayes, M., ``Supreme Court 
Upholds Affordable Care Act'' (June 2012).

    140.  Solomons, M., Charrow, R., and Klaus, K., ``Beyond the Courts 
of Appeals: The Potential for Expedited Supreme Court Review of Health 
Care Reform,'' GT alert (Feb. 2011).

    141.  Asaro, T., et al., ``Accountable Care Organization (ACO)--The 
Real Journey Begins'' (April 2011).

    142.  Charrow, R., ``Supreme Court Opens the Way for Direct 
Corporate Participation in the Electoral Process'' (Jan. 2010).

    143.  Charrow, R., and Dunn, B., ``Health Care Reform: 
Pharmaceutical and Device Sectors'' (April 2010).

    144.  Charrow, R., Klaus, L., and Taylor, N., ``U.S. Supreme Court 
Rejects Complete Preemption Defense for Drug Manufacturers'' (March 
2009).

    145.  Charrow, R., and Taylor, N., ``Summary of the Major Health 
Care Provisions Included in the Recently Passed American Recovery and 
Reinvestment Act of 2009'' (Feb. 2009).

    146.  Charrow, R., ``Supreme Court Holds That State Tort Law is 
Expressly Preempted by Food, Drug, and Cosmetic Act in Suits Involving 
FDA Approved Devices'' (Feb. 2008).

    147.  Charrow, R., ``Fifth Circuit Confirms Strength of Peer Review 
Immunity'' (Aug. 2008).

    148.  Stouck, J., and Charrow, R., ``Recent Amendments to Freedom 
of Information Act Ease Recovery of Both Documents and Attorneys' 
Fees'' (Jan. 2008).

    149.  Charrow, R., and Rosenfeld, L., ``Fifth Circuit Confirms 
Strength of Peer Review Immunity'' (July 2008).

    150.  Charrow, R. and Isasi, J., ``Supreme Court Holds That State 
Tort Law is Expressly Preempted by Food, Drug, and Cosmetic Act in 
Suits Involving FDA Approved Devices'' (Feb. 2008).

    151.  Charrow, R., Glaser, M., and Oppenheimer, J., ``Proposed New 
Federal Ethics and Gift Rules Will Impact Public Officials, Lobbyists, 
and Entities That Employ Lobbyists'' (Aug. 2007).

    152.  Taylor, N., Charrow, R., and Eck, W., ``S. 1932, The Deficit 
Reduction Act of 2005 and Skilled Nursing Facilities'' (Feb. 2006).

    153.  Charrow, R., and Taylor, N., ``S. 1932, The Deficit Reduction 
Act of 2005 and Managed Care Organizations'' (Feb. 2006).

    154.  Taylor, N., and Charrow, R., ``S. 1932, The Deficit Reduction 
Act of 2005 and Drug Manufacturers'' (Feb. 2006).

    155.  Taylor, N., Charrow, R., and Eck, W., ``S. 1932, The Deficit 
Reduction Act of 2005 and Hospitals'' (Feb. 2006).

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

The following are short courses that I have taught.

     Charrow, R., ``Science, the Law, and the Public,'' presented at 
the University of Maryland School of Medicine, Baltimore, MD, March 29, 
2017.

     Charrow, R., ``Origins and Organizational Structure of FDA and 
Overview of the Regulatory Process,'' presented at Food and Drug Law 
Inst., Washington, DC, June 16, 2015.

     Charrow, R., ``Products Liability for Drugs and Devices--A Really 
Quick Course for Non-Lawyers,'' presented at Food and Drug Law Inst., 
FDA Campus, January 11, 2016.

     Charrow, R., ``Law in the Laboratory: A Primer for Scientists 
Conducting Federally Funded Research,'' presented at Cold Spring Harbor 
Laboratory, Oct. 31, 2016.

     Charrow, R., ``Law in the Laboratory: A Primer for Scientists 
Conducting Federally Funded Research,'' presented at Cold Spring Harbor 
Laboratory, Sept. 30, 2015.

     Charrow, R., ``Law in the Laboratory: A Primer for Scientists 
Conducting Federally Funded Research,'' presented at Cold Spring Harbor 
Laboratory, Sept. 10, 2014.

     Charrow, R., ``Law in the Laboratory: A Primer for Scientists 
Conducting Federally Funded Research,'' presented at Cold Spring Harbor 
Laboratory, Sept. 11, 2013.

     Charrow, R., ``Law in the Laboratory: A Primer for Scientists 
Conducting Federally Funded Research,'' presented at Cold Spring Harbor 
Laboratory, Sept. 12, 2012.

     Charrow, R., Klein, A., and Stoll, R., ``Judicial Review of Agency 
Rulemaking in Rulemaking 101,'' 8th Annual Administrative Law and 
Regulatory Practice Institute, Washington, DC, May 9, 2012.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     I previously served as the Deputy General Counsel and Principal 
Deputy General Counsel of HHS from 1985-1989, and since 1989, I have 
practiced health-care law with two large law firms covering Medicare, 
Medicaid, FDA, Fraud and Abuse, and PHS Act related issues (e.g., NIH, 
CDC, HRSA) and representing a broad range of clients from universities, 
learned societies, charitable organizations (e.g., March of Dimes) and 
academic medical centers, to pharmaceutical companies and insurers. I 
have also written extensively on matters within or involving the 
jurisdiction of HHS, including the rulemaking process under the 
Administrative Procedure Act, a book devoted to the laws governing 
federally funded research, and another book on Article III standing, an 
issue central to many lawsuits involving HHS.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

    Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

    No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

    No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

    Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

    Apple Inc.
    Cisco Systems Inc.
    First Energy Corp.
    International Business Machines Corp.
    Microsemi Corp.
    The Walt Disney Company.
    Wells Fargo Stable Value Fund.
    Greenberg Traurig, LLP.

     Will divest interests in all of the above as per OGE agreement.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

     During the past 10 years I have represented numerous clients with 
respect to matters involving or before CMS, FDA, PHS, OCR, and OIG. 
Except as noted below, those matters have been closed or otherwise 
resolved.

    a.  PRRB: I had one pending matter before the Provider 
Reimbursement Review Board within CMS that was tried in September 2016, 
and we are awaiting a decision. It was on behalf of a NY hospice 
(Westchester) and I am withdrawing from that representation.

    b.  Qui tam cases: Federal qui tam cases--Illinois SD, a qui tam 
case that I have not been actively involved in but was on the 
pleadings. Withdrawal papers are being submitted for that case (U.S. ex 
rel. Garbe v. Kmart).

     California Superior Court. A State-only qui tam in Superior Court 
for the State of California in and for the County of Sacramento. The 
qui tam cases all involve either drug pricing or the compliance with 
State Medicaid rules for dispensing drugs (Omlansky v. Save Mart). The 
Federal Government is not a party and the State declined to intervene.

     Intrexon--Oxitec Mosquito--provided FDA advice and was a lobbyist 
for two quarters in 2016.

     All clients that I have represented since January 1, 2015 have 
been identified, and I will be recused from involvement in any 
department matter in which that client is a party during the periods 
required by law or by the administration's ethics pledge and during my 
entire tenure at OGC, should I be confirmed, from any matter that I was 
personally involved in while in private practice, irrespective of when 
I was involved. I will also be recused as required by the Rules of 
Professional Responsibility from any matter involving a former client, 
whether I was personally and substantially involved or not, from whom I 
may have acquired confidential information.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

     I have in the past been registered as a lobbyist on behalf of two 
clients. I lobbied on behalf of the American Psychiatric Association 
from January 10, 2003 to June 30, 2004 with respect to implementation 
of HIPAA's electronic code set provisions. I also lobbied on behalf of 
Intrexon from March 2016 to June 30, 2016 with respect to FDA's 
authority to issue Emergency Use Authorizations for animal drugs. My 
registration for Intrexon was terminated retroactively to June 30, 2016 
on March 23, 2017.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

     I have no trust agreements. OGE and the ADEO have prepared an 
ethics agreement which requires that my wife and I divest our interest 
in certain stocks, which will be done. I signed that agreement on June 
7, 2017. In addition, we will establish an ethics screen at OGC, should 
I be confirmed, to ensure that I am recused with involvement in any 
matter involving any specific client during the requisite periods and 
from any matter that I may have been personally involved in while in 
private practice or as may be required by the Rules of Professional 
Responsibility.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

     Copies have been provided.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

    No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

    No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

     Charrow v. Cohen, SC11657-76, DC Superior Court. Filed suit on 
June 4, 1976 to collect $112 as a result of an auto accident; settled 
prior to trial for $112.

     In Re Papadopoulos, No. 90A-0321 (Charrow v. Papadopoulos). My 
spouse and I were creditors of Chris Papadopoulos, a bankrupt home 
contractor. We filed a claim with the bankruptcy court against 
Papadopoulos as an adversary proceeding. The matter settled.

     In 1991, I filed a claim against Papadopoulos with the Maryland 
Home Improvement Commission entitled Maryland Home Improvement 
Commission v. Papadopoulos, No. 91(05)1164. We were awarded $10,000.

     Kennsington Plumbing and Heating, Inc. v. Robert and Veda Charrow, 
No. 9382-90 (MD. Dist. Court, 11 First Field Rd., Gaithersburg, MD 
20878). This suit was instituted against us for $416 by subcontractor 
of Papadopoulos who claimed that Papadopoulos failed to pay him. Matter 
went to trial on August 8, 1990 and judgment was entered for 
defendants.

     Charrow v. Marc Carrington, No. 4062-92, District Court for 
Montgomery County, MD. Complaint to collect damages from a contractor 
for breach of contract--judgment entered for plaintiff in amount of 
$14,916 + $10 on July 8, 1992. On May 19, 1994, defendant filed a 
motion to strike the judgment. That motion was denied on June 27, 1994; 
defendant sought to appeal, but the appeal was dismissed on August 2, 
1995.

     Jacqueline Lee Jackson v. Charrow et ux, Case No. 03-CA-005274, DC 
Superior Court. R. Charrow was dismissed before trial judgment entered 
in favor of Veda Charrow on November 24, 2004. Plaintiff motion for a 
new trial was denied on December 20, 2004 (James Boasberg, J.). Case 
arose out of a traffic accident on February 24, 2003.

     Philip W. Wyers and Wyers Products Group, Inc. v. Greenberg 
Traurig, LLP, Mark Hogge, Laura Klaus, and Robert P. Charrow, Dist. Ct. 
for city and county of Denver, 41645933 (December 30, 2011). Case 
removed to Federal court for Dist. of Colorado, No. 12-cv-00750. Case 
against Hogge, Klaus, and Charrow dismissed on March 24, 2015 in 
anticipation of settlement; notice of settlement as to GT filed on 
April 6, 2015; case voluntarily dismissed as to GT on February 18, 2016 
as a result of settlement.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

    No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     In February 1987, I was nominated to be a judge on the U.S. Claims 
Court, but the nomination did not proceed to a hearing, and I asked 
that it be withdrawn later that year.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

    Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

    Yes.

                                 ______
                                 
          Questions Submitted for the Record to Robert Charrow
               Question Submitted by Hon. Orrin G. Hatch
    Question. The ACA created the Star Ratings program, where Medicare 
Advantage plans with four or more stars receive add-on payments to 
their benchmarks. The ACA also placed a cap on each county's benchmark. 
The quality bonus add-on payment is included in determining the 
benchmark cap. This can result in plans that would have been rewarded 
for high quality ratings not receiving the full value of their add-on 
payment, which can be a disincentive for quality.

    I understand that CMS does not believe it has the authority to lift 
the benchmark cap or to remove quality incentive payments from the 
benchmark cap and has stated it would require a legislative change. 
Will you commit to reviewing this issue and determining whether the 
Secretary has the authority to address this issue?

    Answer. Yes, I will commit to reviewing this issue. If confirmed, I 
will have the Office of the Assistant Secretary for Legislation contact 
your office so that we can begin discussions on your concerns.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
                         interpreting statutes
    Question. If you are confirmed as the General Counsel of the 
Department of Health and Human Services (HHS), you will advise the 
agency as it develops and implements major health-care programs 
outlined in Acts of Congress. Specifically, you will guide the 
Department as it considers how to interpret and implement laws passed 
by Congress that affect health care for millions of Americans.

    If confirmed as General Counsel, how would you approach a situation 
where HHS proposes an interpretation of a statute that diverges from a 
previous administration's interpretation?

    Answer. As I mentioned during my testimony, if confirmed, my goal 
would be to ensure that the agency's position in any given case is both 
legally correct and objectively just. Agency action that may be legally 
correct but which offends fundamental notions of fairness does not 
typically fare well. My job will be to use the rules of statutory 
interpretation to determine what the provisions of the law mean. As I 
testified, that will include the significant reliance on statute's 
text. However, in interpreting statutes that have been previously 
interpreted by a prior General Counsel, I would accord that prior 
interpretation due deference under Skidmore.

    Question. Would your approach differ from the above situation for 
either new statutes or situations where HHS has not previously spoken 
on the applicable statute?

    Answer. It would not. If confirmed, I would continue to evaluate 
the agency's position based on the legislative text, the legislative 
history, the report of the relevant committee, and floor statements.
                                 ethics
    Question. Earlier this year, the Office of Government Ethics (OGE) 
released ethics waivers collected in response to a data call issued to 
all executive branch agencies and offices.\1\ The data call revealed 
that two dozen political appointees received ethics waivers during the 
first 3 months of the Trump administration, including Secretary Tom 
Price, Secretary Price's Chief of Staff, and Centers for Medicare and 
Medicaid (CMS) Administrator Seema Verma.\2\
---------------------------------------------------------------------------
    \1\ Office of Government Ethics, ``Certain waivers and 
authorizations issued between May 1, 2016, and April 30, 2017,'' 
https://www.oge.gov/Web/OGE.nsf/Resources/Certain+Waivers+
and+Authorizations+issued+between+May+1,+2016+-+April+30,+2017, 
accessed on June 12, 2017.
    \2\ Bill Allison, ``Trump Administration Waived Ethics Rules for 10 
Appointees,'' Bloomberg News, June 12, 2017, https://www.bloomberg.com/
politics/articles/2017-06-07/trump-administration-waived-ethics-rules-
for-10-appointees.

    The OGE data call, issued on April 28, 2017,\3\ sought information 
pertaining to the issuance of ethics waivers and authorizations 
pursuant to various executive orders, Federal ethics regulations, and 
Federal law between May 1, 2016 and April 30, 2017.\4\ On May 17, 2017, 
Office of Management and Budget (OMB) Director Mulvaney asked OGE to 
stay the data call. On May 26, 2017, following an exchange of letters, 
Director Mulvaney stated that OMB ``never sought to impede OGE nor to 
prevent others, including agencies, from acting as required by 
law.''\5\ Subsequently, the White House released copies of these 
waivers for its staff,\6\ and records for other agencies were released 
shortly thereafter.
---------------------------------------------------------------------------
    \3\ Program Advisory--``Data Call for Certain Waivers and 
Authorizations,'' PA-17-02, April 28, 2017.
    \4\ Executive Order 13770, Executive Order 13490, 18 U.S.C. 
Sec. 208(b)(1), 5 CFR Sec. 2635.502(d), and 5 CFR Sec. 2635.503(c).
    \5\ Letter from Mick Mulvaney to Walter Shaub, May 26, 2017.
    \6\ Matea Gold, ``White House grants ethics waivers to 17 
appointees, including four former lobbyists,'' Washington Post, May 31, 
2017, https://www.washingtonpost.com/news/post-politics/wp/2017/05/31/
white-house-grants-ethics-waivers-to-17-appointees-including-four-
former-lobbyists/?utm_term=.8383c084ad0b.

    Following the White House release, Ranking Member Wyden sent a 
letter to Secretary Price on June 15, 2017 requesting that the 
Department of Health and Human Services (``Department'') provide the 
Committee on Finance copies of any subsequent ethics waivers, within 
the categories covered by the OGE data call, issued to employees of the 
Department within 7 days of their issuance. When such waivers are 
granted subject to 18 U.S.C. Sec. 208(b) or 5 CFR Sec. 2635.502(d), 
they allow Federal employees to work on issues where there might be a 
real or perceived conflict of interest. Review of these waivers is 
critical to the committee's understanding as to whether the 
Department's political appointees are appropriately recused from issues 
---------------------------------------------------------------------------
that former clients or employers may bring before the Department.

    On July 27, 2017, Ranking Member Wyden received a response to his 
request from Ms. Elizabeth Fischmann, the Department's Associate 
General Counsel for Ethics and the Designated Agency Ethics Official 
(DAEO). The response indicated that two additional waivers had been 
granted since the OGE data call, and the referenced waivers were 
provided to the committee. However, the Department did not make any 
commitment to continue providing future waivers to the committee, as 
had been requested.

    Will you, if confirmed, commit to providing the committee any 
ethics waivers that have been issued subsequent to Ms. Fischmann's July 
27th response?

    Answer. Yes, consistent with all applicable laws and privileges, if 
asked by the committee, I will provide any ethics waivers issued 
subsequent to July 27th.

    Question. Will you, if confirmed, commit to providing any future 
waivers within 7 days of their issuance going forward?

    Answer. I will be glad to promptly respond to any committee 
requests for wavers granted by the Department.

    Question. As currently organized, the HHS DAEO is a senior official 
within the Office of General Counsel--the Associate General Counsel for 
Ethics. If confirmed, will you commit to ensuring that ethics reviews 
and determinations made by this official are independent of any 
political pressure or interference?

    Answer. Yes.

                                 ______
                                 
              Questions Submitted by Hon. Debbie Stabenow
    Question. As general counsel, you will be advising the 
administration on the cost sharing reductions (CSRs), the impact of the 
lawsuit, and the implications of any related legislation in Congress. 
In my State of Michigan, families will have to pay more for their 
health insurance next year if the administration takes away the CSRs.

    What do you see your role being as it relates to the CSRs, and what 
would be your recommendation to the administration?

    Answer. The agency is currently one of the named parties in 
litigation related to the cost sharing reduction payments. As a 
nominee, I am unfamiliar with the details of this case at this time, 
but if confirmed, I will be more than willing to discuss with your 
office after I have a chance to evaluate those aspects of the case and 
as permitted by the Rules of Professional Conduct.

    Question. Your office is also in charge overseeing ethics 
violations and inquiries from members of Congress.

    To what extent will you work with members of Congress on potential 
ethics violations?

    Answer. If confirmed, I will always be available to discuss these 
matters with members and their staff, through the Office of the 
Assistant Secretary of Legislation, and as permitted by the Rules of 
Professional Conduct and subject to the caveat that my ability to 
discuss on-going internal investigations is likely to be limited. The 
Office of the Assistant Secretary of Legislation will also be able to 
coordinate the sharing of information when possible.

    Question. Can we expect timely responses?

    Answer. Yes.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a hearing to 
consider the nominations of Gilbert B. Kaplan to be Under Secretary of 
Commerce for International Trade, Matthew Bassett to be an Assistant 
Secretary of Health and Human Services, and Robert Charrow to serve as 
General Counsel of Health and Human Services:

    I would like to extend a warm welcome to each of the nominees here 
today. Congratulations on your nominations, and thank you for your 
willingness to serve in these important positions.

    In today's hearing, I want to stress two major themes: integrity 
and responsiveness. These are both important elements for any position 
in government, particularly for a Senate-confirmed position. They are 
absolutely essential for the positions under review today. The Under 
Secretary of Commerce for International Trade is responsible for 
promoting American trade around the globe and enforcing U.S. trade 
laws.

    If confirmed, Mr. Kaplan will need to be a strong advocate for 
American exporters, while holding our trading partners accountable for 
improper trade practices. There is a good deal of work that needs to be 
done to improve compliance with our Nation's anti-dumping and 
countervailing duty laws, but that mission should not come at the 
expense of seeking to expand opportunities for U.S. goods and services 
providers. It will be critical that the Department of Commerce work 
with Congress and consult closely with members of the committee. 
Frankly, there is room for improvement here, but I am confident Mr. 
Kaplan understands the importance of the Department's responsibilities 
to Congress and will work with Secretary Ross to ensure those 
responsibilities are met.

    As for the nominees to the Department of Health and Human Services, 
your responsibilities are similarly connected to themes of integrity 
and responsiveness.

    Mr. Bassett, has been nominated to serve as an Assistant Secretary 
with the specific function of performing legislative affairs. This 
means that both the agency as well as Congress will rely on you to 
ensure that we are kept well informed of the goings on at HHS. This 
will be critical over the next few months.

    Obviously, the effort to fix our nation's health-care system 
suffered a setback recently. The recent series of events intensifies 
the importance of this position as cooperation between Congress and HHS 
will likely be more essential than ever.

    Members of the Finance Committee expect to be in constant contact 
with HHS and need timely and responsive answers to questions and 
submitted inquiries. We hope that Mr. Bassett will commit today to 
providing answers.

    Finally, I'd like to highlight the critical importance of integrity 
for the position of General Counsel at HHS, for which Mr. Charrow has 
been nominated. While Mr. Charrow certainly has a considerable amount 
of experience as a practicing lawyer, the position of General Counsel 
at HHS brings with it challenges that are sure to be new.

    There are likely to be times where the officials in the Department 
and the White House may disagree on how to proceed in a specific course 
of action. If confirmed, your responsibility will be to ensure that the 
laws on the books, as written, are followed and implemented.

    We've seen some thorny issues at both Commerce and at HHS as the 
administration has, in some ways, gotten off to a rocky start. That is 
all the more reason for the committee to move as quickly as possible to 
consider and report these nominations.

                                 ______
                                 
    Prepared Statement of Gilbert B. Kaplan, Nominated to be Under 
       Secretary for International Trade, Department of Commerce
    Mr. Chairman, Ranking Member Wyden, members of the committee, it is 
a great honor to be here today as the President's nominee to serve as 
Under Secretary of Commerce for International Trade. I first testified 
before this committee in 1986, when I was the Deputy Assistant 
Secretary of Commerce for Import Administration, and I continue to be 
deeply impressed by the rigorous and careful attention this committee 
gives to international trade.

    In some ways I feel that I have been preparing to hold this 
position during my entire career. When I was fortunate enough to run 
Import Administration in the 1980s under President Reagan and Commerce 
Secretary Malcolm Baldrige, we conducted over 500 antidumping and 
countervailing duty cases, including cases on agricultural products, 
steel products, textiles and apparel, and semiconductors.

    That unit, now called Enforcement and Compliance will be one of my 
areas of responsibility at the International Trade Administration 
(``ITA'') if I am confirmed.

    After leaving Import Administration I have devoted myself to 
representing American companies and workers in a wide range of trade 
cases and trade policy issues. I filed and prosecuted the first 
successful countervailing duty (anti-subsidy) case ever against China, 
in 2007.

    Another area of my responsibility, if I am confirmed, will be 
developing programs to build up the international competitiveness of 
the manufacturing base in the United States, within the Industry and 
Analysis unit of ITA. In that regard I was the founder of The 
Conference on the Renaissance of American Manufacturing. I was also the 
co-founder of the Manufacturing Policy Initiative (``MPI'') at Indiana 
University School of Public and Environmental Affairs, the first and 
only university program in the country focusing on what public policy 
steps should be taken to revitalize U.S. manufacturing.

    Finally, I will be working extensively to promote American exports 
and break down trade barriers through the Global Markets and U.S. and 
Foreign Commercial Service unit at Commerce. In that regard while I was 
at Commerce I was one of the key negotiators of the U.S.-Japan 
Agreement on Trade in Semiconductors and later enforced the terms of 
that agreement. That was one of the most successful agreements ever in 
opening a foreign market, particularly a very difficult foreign market 
to open.

    Within the Global Markets unit at Commerce, we will also be 
focusing on bringing foreign investment to the United States, to help 
rebuild our manufacturing base and create good-paying jobs.

    In addition, there are several over-arching themes I want to focus 
on if I am confirmed: making sure the whole world is open to U.S. 
digital trade, ensuring U.S. intellectual property is protected 
everywhere in the world, and ensuring that small and medium-sized 
enterprises can benefit from global trade.

    There is an enormous amount of work to be done. We need to level 
the playing field, increase exports, and revitalize industry. This will 
entail vigorous trade law enforcement, including self-initiation of 
cases, and vigorous negotiation of trade agreements, all while making 
sure we do no harm to U.S. consumers and to the many companies, 
workers, farmers, and ranchers who benefit so much from trade.

    If I am confirmed, I look forward to working for a man who is 
already making a big difference in these areas. That is Secretary 
Wilbur Ross. I would like to thank Secretary Ross for the confidence he 
has shown in me by supporting me for this role.

    In closing, I would like to tell a very brief story about my 
family. My father and mother arrived in this country in 1946 after 
surviving the Holocaust. They arrived on a boat called the Ernie Pyle. 
When they docked in New York, my father had $7 in his pocket, which he 
had won playing cards on the boat.

    I think my parents would be truly amazed if they could be here 
today for this hearing, amazed at the greatness of this country, and at 
the graciousness of all the people who have worked with me in moving 
this appointment forward.

    Chairman Hatch, Ranking Member Wyden, and members of the committee, 
thank you for your consideration, and I would be pleased to answer any 
questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Gilbert Bruce Kaplan.

 2.  Position to which nominated: Under Secretary of Commerce for 
International Trade.

 3.  Date of nomination: May 25, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: July 9, 1951, Endicott, New York.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

     Harvard Law School, JD cum laude, 1977 (attended 1974-1977).

     Harvard College, AB magna cum laude, 1974 (attended 1969-1972; 
1973-1974).

     Phillips Exeter Academy, Exeter, NH; graduated with high honors, 
1969 (attended 1966-1969).

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

     June 2004--Present: Partner, King and Spalding LLP, Washington, 
DC, International Trade Group. Responsible for trade remedy cases 
(antidumping and countervailing duty), as well as intellectual property 
matters (section 337); filed and won the first ever successful U.S. 
anti-subsidy cases against China; substantial WTO experience in 
disputes on United States trade remedy laws.

     Co-Founder, Manufacturing Policy Initiative (``MPI'') at Indiana 
University School of Public and Environmental Affairs (2015), 
Bloomington and Indianapolis, Indiana; the first and only university 
program in the country focusing on what public policy actions should be 
taken to revitalize United States manufacturing.

     Founder, Conference on the Renaissance of American Manufacturing 
(2010); organized and ran two full-day conferences on U.S. 
manufacturing revival at the National Press Club in Washington, DC.

     President, Committee to Support U.S. Trade Laws (2010-2012), an 
organization dedicated to preserving and enhancing the United States 
unfair trade laws.

     1990-May 2004: Senior partner, Hale and Dorr, Washington, DC and 
Boston, MA; chairman of the Government and Regulatory Affairs 
Department; hiring partner for the Mid-Atlantic Region; handled major 
cases on dumping and subsidies in the semiconductor area.

     1988-1990: Partner, Morrison and Foerster, Washington, DC; head of 
the international trade practice.

     1985-1988: Deputy Assistant Secretary and First Acting Assistant 
Secretary of Commerce for Import Administration. United States 
Department of Commerce.

     Supervised department with over 300 staff. Responsible for 
administering the antidumping and countervailing duty laws, overseeing 
the implementation of trade agreements with foreign countries (key 
negotiator of U.S.-Japan Semiconductor Agreement), the Foreign Trade 
Zones program, and section 232 cases on import relief for national 
security purposes. Supervised over 500 trade remedy cases.

     Oversaw legislative issues regarding trade remedy laws for the 
administration; oversaw GATT affairs and GATT negotiations with respect 
to the trade remedy laws. Became the first Acting Assistant Secretary 
for Import Administration when this new position was created as the 
result of a reorganization at the end of 1987.

     1983-1985: Director, Office of Investigations, United States 
Department of Commerce; in charge of day-to-day trade remedy law 
administration.

     1977-1983, and Summer 1976: Hill and Barlow, Boston, MA; 
Associate, Litigation and General Corporate Practice.

     Summer 1975: Research assistant, Professor Richard Parker, Harvard 
Law School, Cambridge, MA; research on constitutional law.

     Summer 1974: Cambridge School of Weston Summer Camp, Weston, MA; 
camp counselor.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

     Appointed by Governor William Weld to be a member of the 
Massachusetts International Trade Advisory Board; served as Co-Chairman 
of the Export Promotion Task Force of the board; formulated and wrote a 
new export finance provision for Massachusetts that was enacted into 
law in 1992.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

     Member, advisory board; Manufacturing Policy Initiative (``MPI''), 
Indiana University School of Public and Environmental Affairs, 
appointed 2016 for a 3-year term.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

     I was the president of the Committee to Support U.S. Trade Laws 
(``CSUSTL'') from 2010-2012. Prior to that I was head of the Lawyer's 
Committee. From 2012-2017 I served as head of the Public Affairs and 
Membership Committee. As noted above, CSUSTL is an association of 
companies, workers, farmers, and individuals dedicated to maintaining 
the strength of the United States unfair trade laws.

     I was the co-founder of The Manufacturing Policy Initiative 
(``MPI'') at the School of Public and Environmental Affairs at Indiana 
University. As noted above, this is the first and only university 
program in the country dedicated to studying and making recommendations 
regarding which public policies to pursue to revitalize United States 
manufacturing. MPI was started in 2015. I serve on the Advisory Board 
of MPI, which was created earlier this year, but has not yet met.

     I was the founder of the Conference on the Renaissance of American 
Manufacturing, which is an ad hoc organization that sponsored two 
conferences at the National Press Club (in 2010 and 2012) on reviving 
United States manufacturing.

     I was a member of the Coalition for a Prosperous America (``CPA'') 
in 2015 and 2016. As stated on their website, ``The Coalition for a 
Prosperous America is the Nation's premier nonprofit organization 
working at the intersection of trade, jobs, tax, and economic growth. 
We are a bipartisan coalition of farmers and ranchers, manufacturers, 
and labor groups working for a national strategy to eliminate the trade 
deficit, create good-paying jobs, protect U.S. sovereignty, and achieve 
broadly shared prosperity.''

     I am a member of the American Bar Association and have been since 
the 1980s.

     I am a member of the National Press Club and have been since the 
1990s.

     I am a member of the Metropolitan Club in Washington, DC, since 
2007.

13.  Political affiliations and activities:

    a.  List all public offices for which you have been a candidate.

       Candidate for Massachusetts State Representative, Back Bay 
Beacon Hill Section of Boston, 1982.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       Member of presidential candidate Mitt Romney's Trade Advisory 
Board, 2012.

       Host committee, NRSC Governors for a Senate Majority Reception, 
September 8, 2014; host committee, Senator Orrin G. Hatch breakfast, 
July 26, 2012; host committee, Senator Evan Bayh breakfast, May 5, 
2009; host committee, Congressman Sandy Levin breakfast, April 28, 
2009; host committee, Senator Arlen Specter breakfast, April 23, 2008; 
host committee, Senator Orrin G. Hatch reception, January 19, 2006.

    c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.


 
           Date               Amount                Recipient
 
October 15, 2007             $1,000.00  Giuliani, Rudolph
December 31, 2007            $2,250.00  King and Spalding Political
                                         Action Committee
March 12, 2008                 $500.00  Peters, Gary
April 28, 2008               $2,300.00  Specter, Arlen
August 29, 2008              $2,500.00  King and Spalding Political
                                         Action Committee
September 7, 2008            $2,300.00  McCain-Palin Victory 2008
September 30, 2008           $2,300.00  Republican National Committee
April 28, 2009               $1,000.00  Levin, Sander
May 11, 2009                 $1,000.00  Bayh, Evan
August 30, 2009              $2,550.00  King and Spalding Political
                                         Action Committee
November 18, 2009            $1,000.00  Schumer, Charles
March 30, 2010               $1,000.00  McCain, John
April 22, 2010                 $500.00  Peters, Gary
August 20, 2010                $250.00  Hatch, Orrin
October 22, 2010             $1,000.00  Coats, Dan
June 30, 2011                $1,500.00  Olympia's List (Olympia, Snowe)
July 31, 2011                $2,000.00  King and Spalding Political
                                         Action Committee
November 1, 2011               $500.00  Hastings, Doc
December 28, 2011            $1,000.00  Romney for President
January 9, 2012                $500.00  Romney for President
May 7, 2012                  $1,000.00  Romney, Mitt
May 7, 2012                  $2,500.00  Romney, Mitt
May 7, 2012                  $5,000.00  Republican National Committee
May 7, 2012                  $5,000.00  Republican National Committee
June 10, 2012                  $500.00  Chambliss, Saxby
July 16, 2012                $1,000.00  Romney Victory, Inc.
July 18, 2012                $1,000.00  Republican National Committee
August 10, 2012              $1,500.00  Hatch, Orrin
August 17, 2012              $1,000.00  Republican National Committee
August 17, 2012              $1,000.00  Romney Victory, Inc.
September 7, 2012           $10,000.00  Republican National Committee
September 7, 2012           $10,000.00  Romney Victory, Inc.
September 28, 2012           $1,000.00  Camp, Dave
September 25, 2013           $1,000.00  Portman, Rob
September 30, 2013             $500.00  Lane, Charlotte
March 31, 2014              $20,000.00  Republican National Committee
September 11, 2014           $2,000.00  NRSC
September 21, 2014             $250.00  Sullivan, Dan
September 30, 2014             $250.00  Murphy, Tim
March 17, 2015                 $500.00  Morrisey for West Virginia
April 24, 2015               $1,000.00  Grassley, Charles
May 7, 2015                    $500.00  Schumer, Charles
May 15, 2015                 $1,650.00  King and Spalding Political
                                         Action Committee
September 25, 2015           $1,000.00  NRSC
September 30, 2015           $1,000.00  Portman, Rob
March 22, 2016                 $250.00  Morrisey for West Virginia
 

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

     Recognized in Chambers (America's Leading Lawyers); Super Lawyers; 
Who's Who in America; Who's Who in American Law.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

     Practice at the International Trade Commission, Chapter 106 of 
Intellectual Property Counseling and Litigation (Matthew Bender 2014) 
(co-author with other colleagues at my firm).

     ``How VAT Trade Zones Can Boost American Manufacturing,'' with 
John Taylor, New America Foundation, May 2011.

     ``A New Focus for Trade Talks,'' Baltimore Sun, December 2008.

     ``Five Myths About the Death of the American Factory,'' The 
Washington Post, June 2008; reprinted in Repository, in Canton, OH; The 
Pioneer Press, in St. Paul, MN; The Cleveland Plain Dealer; The 
Dispatch, in Brainerd, MN; The Austin American-Statesman; The Atlanta 
Journal-Constitution; and The Deseret Morning News, in Salt Lake City, 
UT.

     ``The First Affirmative Countervailing Duty Case Against China,'' 
with Christopher Cloutier, Metropolitan Corporate Counsel, May 2007.

     ``The ITC or the District Court? Where to Protect Your 
International Intellectual Property,'' with Courtland Reichman, 
Monograph Series, National Legal Center for the Public Interest, 
November 2006.

     ``Summer Mixer, Take a Hiring Partner's Advice,'' Legal Times, May 
29, 2000 (article on how to have a good summer associate experience).

     The GATT 1994 Antidumping Agreement; Evolution, Basic Principles, 
and Dispute Settlement Proceedings, with Michael D. Esch and Cris R. 
Revaz, Oceana Publications (1999).

     ``GATT Talks: Selling Ourselves Short,'' The Washington Post, 
Sunday, February 25, 1990.

     ``The Use of Arbitration to Resolve Market Access Disputes,'' 22 
Cornell International Law Journal 469 (1989).

     ``Recent Developments and Trends in Unfair Trade Laws: Antidumping 
and Countervailing Duties,'' with Bonnie B. Varga and Thomas A. Behney, 
in Trade Law and Policy, Practicing Law Institute Course Series (1989).

     ``Antidumping, Countervailing Duty, and National Security 
Provisions in the 1988 Trade Act,'' with Susan Haggerty Kuhbach and 
Ronald K. Lorentzen, 22 George Washington Journal of International Law 
and Economics 553 (1989).

     ``Cost Analysis Under the Antidumping Law,'' with Lynn G. Kamarck 
and Marie Parker, 21 George Washington Journal of International Law and 
Economics 357 (1988).

     ``The Causes of Unfair Trade: A Trade Law Enforcer's 
Perspective,'' with Susan Haggerty Kuhbach, 56 Antitrust Law Journal 
445 (1987).

     ``How to Prepare a Good Dumping or Countervailing Duty Case,'' 
with Kenneth C. Stanhagen; published in International Trade Law, 
Professional Education Systems Inc., 1985,

     The following are recent posts written by me and published in The 
Huffington Post:

     September 29, 2016:  ``U.S. Manufacturing, Alexander Hamilton, and 
the Presidential Election.''

     September 16, 2015:  ``What President Obama Should Say to 
President Xi on Trade.''

     December 30, 2014:  ``Make Trade Promotion Authority Into Jobs 
Promotion Authority.''

     January 24, 2014:  ``The War on Poverty, International Trade, and 
the State of the Union.''

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

     No formal speeches during this period.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

     I am deeply committed to the mission of the International Trade 
Administration (``ITA'') at the U.S. Department of Commerce. I believe 
my prior experience in the government (in a unit that is part of ITA) 
enforcing the trade laws and assisting U.S. manufacturers, workers, and 
farmers; in my law practice representing U.S. manufacturers in their 
struggle to achieve fair trade competition; and in establishing 
innovative programs regarding revitalizing United States manufacturing 
all make me uniquely qualified to assume the position of Under 
Secretary for International Trade at the U.S. Department of Commerce.

     While in the United States government, from 1983 to 1988, I served 
in several senior positions. I was the Acting Assistant Secretary and 
Deputy Assistant Secretary for Import Administration at the U.S. 
Department of Commerce. While there, I was in charge of administering 
the U.S. antidumping and countervailing duty laws and conducted over 
500 antidumping and countervailing duty cases. These included cases on 
agricultural products, such as potatoes, roses, and ethanol, steel 
products, textiles, and apparel, and a variety of semiconductor and 
high-technology products.

     While at the Department of Commerce, I also supervised the 
President's Steel Program, the U.S.-Japan Agreement on Trade in 
Semiconductors, the U.S.-
Canada agreement on lumber, and the machine tool program. In addition, 
I oversaw the foreign trade zones program, as well as the Office of 
Industrial Resource Administration, which develops and implements 
programs to ensure the availability of industrial resources to meet 
U.S. peace-time and emergency requirements. I was a principal spokesman 
for the administration on legislative and congressional issues related 
to the dumping, countervailing duty, and National Security import 
relief (section 232) laws.

     In my private law practice, I have focused on representing U.S. 
manufacturers in a wide range of cases on antidumping (price 
discrimination), countervailing duties (subsidies), and section 337 
(intellectual property infringement). I have also advised clients on 
trade policy matters, as well as trade negotiations such as those 
involving the WTO and international anti-subsidy agreements. Among 
other major matters, I filed and prosecuted the first successful 
countervailing duty (anti-subsidy) cases ever against China, in 2007 on 
behalf of U.S. paper and pipe manufacturers. I also filed a series of 
successful cases for the U.S. semiconductor industry on subsidies to 
foreign semiconductor producers. I am currently a partner at the firm 
of King and Spalding and was previously a partner at Hale and Dorr, and 
had the opportunity to work with and learn from many exceptional 
lawyers at both firms.

     As noted above in the questionnaire, I have published extensively 
in the international trade field, including a monograph on section 337 
cases at the International Trade Commission entitled The ITC or the 
District Court? Where to Protect Your International Intellectual 
Property, National Legal Center for the Public Interest, 2006. I 
published an op-ed piece in the Washington Post Outlook Section in 2008 
entitled, ``5 Myths about the Death of the U.S. Factory,'' which was 
extensively republished. I have published a number of law review 
articles on the enforcement of the unfair trade laws, an area that will 
be within my responsibilities if I am confirmed, including ``Cost 
Analysis Under the Antidumping Law,'' with Lynn G. Kamarck and Marie 
Parker, 21 George Washington Journal of International Law and Economics 
357 (1988).

     I served as the first president of the Committee to Support U.S. 
Trade Laws (CSUSTL), from 2010-2012. CSUSTL is an organization of 
companies, trade associations, farmers, ranchers, workers, and 
individuals dedicated to preserving and enhancing the U.S. trade remedy 
laws.

     As noted, I have worked extensively on revitalizing the United 
States manufacturing industry. I am the founder of The Conference on 
the Renaissance of American Manufacturing, which among other activities 
held two all-day conferences on revitalizing manufacturing at the 
National Press Club in Washington, DC, in 2010 and 2012. Many members 
of the Senate and House spoke at these conferences. I also am the co-
founder of the Manufacturing Policy Initiative at the Indiana 
University School of Public and Environmental Affairs, the first and 
only university program in the country dedicated to studying and making 
recommendations regarding the best public policies to revitalize United 
States manufacturing.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     Yes. However, as noted in my ethics agreement, from the date of my 
resignation from King and Spalding through the year 2025, I will 
receive fixed monthly retirement payments from the law firm. The amount 
of these fixed payments will be calculated at the time of my departure 
from the firm, based on my ``equivalency unit'' points at the time of 
my departure.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

     No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No.

 4.  If you are confirmed by the Senate; do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable?

     Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

     In connection with the nomination process, I have consulted with 
the Office of Government Ethics and ethics officials at the Department 
of Commerce to identify potential conflicts of interest. Any potential 
conflicts will be resolved in accordance with the terms of the ethics 
agreement that I have entered into with the Department of Commerce and 
that has been provided to the committee. I am not aware of any other 
potential conflicts of interest.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

     I am not aware of any. I will comply with all points in my ethics 
agreement.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

     As president of the Committee to Support U.S. Trade Laws 
(``CSUSTL''), a position I held from 2010-2012, I advocated for strong 
enforcement of the unfair trade laws, including for the passage of the 
so-called GPX legislation (U.S. Public Law 112-99 enacted on March 13, 
2012), providing that the countervailing duty law could be applied to 
non-market economy countries.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

     As noted above, in connection with the nomination process, I have 
consulted with the Office of Government Ethics and ethics officials at 
the Department of Commerce to identify potential conflicts of interest. 
Any potential conflicts will be resolved in accordance with the terms 
of the ethics agreement that I have entered into with the Department of 
Commerce and that has been provided to the committee. I am not aware of 
any other potential conflicts of interest.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group?

    No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense?

    No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation?

    No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?

    No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     I can't think of any not already provided.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

    Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

    Yes.

                                 ______
                                 
        Questions Submitted for the Record to Gilbert B. Kaplan
               Questions Submitted by Hon. Orrin G. Hatch
    Question. The NAFTA modernization negotiations are an opportunity 
to establish strong, enforceable international trade rules for ensuring 
cross-border data flows.

    Do you support including rules to allow cross-border data flows in 
a modernized NAFTA?

    Answer. The administration recognizes the importance of the digital 
economy to American jobs and prosperity, and the necessary role cross-
border data flows play in facilitating trade. Cross-border data flows 
are vital to every industry sector conducting trade, and preserving 
data flows ensures U.S. companies maintain their leadership in this 
area.

    In fact, the McKinsey Global Institute noted in its March 2016 
report on ``Digital Globalization: The New Era of Global Flows'' that 
``Over a decade, global flows have raised world GDP by at least 10 
percent; this value totaled $7.8 trillion in 2014 alone. Data flows now 
account for a larger share of this impact than global trade in goods.''

    I am committed to ensuring high-quality standards ensuring the free 
flow of data across borders as these data flows are a necessary part of 
any modern trade relationship including a modernized NAFTA.

    Question. In the wake of the administration's release of specific 
objectives for the upcoming negotiations with Canada and Mexico, there 
has been some interest in the United States' commitment to the APEC 
Cross-Border Privacy Rules system, or APEC-CBPRs. The Department of 
Commerce has played an instrumental role in negotiating and structuring 
this agreement.

    How do you think the APEC-CBPRs and an updated NAFTA will function 
together, and how do you plan to prioritize continued and improved data 
flows with our Canadian and Mexican neighbors?

    Answer. The Department of Commerce continues to work with APEC 
economies, including Canada and Mexico, to bolster the APEC Cross-
Border Privacy Rules system for the benefit of U.S. industry in the 
region. I am encouraged that all parties to NAFTA participate in the 
APEC-CBPR system, and believe the mechanism's role in NAFTA can ensure 
the free flow of commercial data throughout the NAFTA region.

    One of the many areas that have necessitated a modernization of 
NAFTA is the lack of an existing digital trade chapter in the current 
agreement. In 2015, the United States had a trade surplus of nearly $22 
billion in potentially ICT-enabled services among NAFTA parties. Every 
sector of the American economy relies on cross-border data flows, and 
ensuring mechanisms for digital trade--including through use of the 
APEC-CBPR system--will preserve the leadership position of U.S. 
industry across sectors.

    Question. India remains one of our most problematic trading 
partners, ranking last among G20 countries in the World Bank's Doing 
Business report, and near the bottom of the U.S. Chamber of Commerce 
International IP index every year. What is your plan for engaging with 
the Government of India for the benefit of U.S. exporters?

    Answer. I intend to continue the International Trade 
Administration's (ITA) efforts to regularly raise U.S. exporter 
concerns through its bilateral commercial dialogue with the Indian 
Ministry of Commerce and Industry as well as USTR's Trade Policy Forum. 
Through these engagements, ITA seeks opportunities to resolve market 
access barriers that impact U.S. exporters, including issues with IPR 
protection and enforcement, standards harmonization, and the 
rationalization of taxes and tariffs. ITA also facilitates direct 
dialogue between U.S. exporters and the Government of India (GOI) 
through venues such as the U.S.-India CEO Forum, the U.S.-India Ease of 
Doing Business Private Sector Outreach webinar series, and other 
business-to-government engagements. Through its seven Indian offices, 
the Foreign Commercial Service provides vital support to U.S. exporters 
to help them navigate the Indian market, connect with potential 
partners, and gain access to GOI decision-
makers. The ITA Advocacy Center works with U.S. exporters to ensure 
they benefit from a level playing field when competing for GOI tenders, 
including in growing sectors such as aerospace, defense, energy, and 
health care. Along with USTR and the U.S. Patent and Trademark Office, 
ITA also develops regular workshops and exchange programs with the 
Government of India on topics including anti-piracy, copyright 
protections, trade secrets, and patent issues related to bio-
pharmaceuticals, bio-agriculture, and computer-related inventions.

    Question. I am disturbed by what I see as an increasing trend by 
certain international organizations to engage in initiatives that 
threaten U.S. competitiveness, including last year's High-Level Panel 
on Access to Medicines and multiple initiatives that harm U.S. dairy. 
The key to counteracting these initiatives is consistent interagency 
coordination. In some cases, I have seen U.S. agencies responsible for 
interacting with these international organizations fail to run an 
effective interagency process that takes into account the views of all 
stakeholders. How will you ensure that the Department of Commerce will 
work with other agencies to improve interagency coordination and ensure 
that trade and economic issues are front and center in interagency 
deliberations?

    Answer. To ensure the Department represents the needs of U.S. 
industry in government trade policy decision-making, ITA fully engages 
the interagency Trade Policy Staff Committee (TPSC) process at all its 
levels. ITA administers Commerce representation in the TPSC process, 
and ensures that decisions under consideration are evaluated by 
relevant experts within the Department, that the Department is 
appropriately represented in all facets of decision-making, and that 
our positions are conveyed in a clear and timely manner.

    If confirmed, I will commit to ensuring that the commercial 
interests of U.S. manufacturers, farmers, ranchers, workers, and 
intellectual property holders are clearly and vigorously defended in 
the interagency process and promoted in international fora.

    Question. Investor-state dispute settlement (ISDS) provides crucial 
protections for American firms developing products in the United States 
and selling them overseas. In the Bipartisan Congressional Trade 
Priorities and Accountability Act of 2015, protection for U.S. 
investors is a principal negotiating objective of the United States. 
This has been a critical part of most U.S. free trade agreements, and 
has been a part of U.S. international economic policy through bilateral 
investment treaties for decades.

    If confirmed, will you work to reduce or eliminate artificial or 
trade distorting barriers to U.S. investment, and secure for U.S. 
investors overseas enforceable rights that are comparable to those that 
would be available under U.S. legal principle and practice?

    Answer. If confirmed, I will work to ensure that U.S. investments 
abroad are accorded a level playing field and that such investments 
receive the same types of substantive protections and enforceable 
rights that are available under U.S. legal principles and practice. We 
are fully aware of the important provisions on this issue in the 
Bipartisan Congressional Trade Priorities and Accountability Act of 
2015. If confirmed, I will seek to ensure that such tools are in place 
in a way that will protect U.S. investors without limiting the U.S. 
Government's ability to enforce its laws and regulations.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
                     transparency and consultations
    Question. I have been clear that meaningful consultations with 
Congress and communications with the public are necessary for every 
aspect of our trade agenda. Yet the Commerce Department has kept this 
committee in the dark on several matters, including proposals being 
developed by Commerce Department officials to resolve the ongoing 
dispute with Canada over softwood lumber trade. As Senator Crapo and I 
noted at June's trade agenda hearing, this committee must be consulted 
every step of the way, and should be briefed on the details of U.S. 
proposals before they are made to Canada. Senator Crapo and I recently 
sent a letter, along with five other members of the Senate Finance 
Committee, to Secretary Ross and Ambassador Lighthizer emphasizing the 
need for a strong outcome for American millworkers.

    I note also that such consultations will only be meaningful if 
conducted in a way that allows members of this committee and their 
staffs to actually reflect on what is being considered and to offer 
comments. It is simply unacceptable to only engage the committee just 
before a proposal is offered or an agreement reached.

    If confirmed, will you commit to fully brief upon request the 
members of the Finance Committee and their staffs in detail on the 
softwood lumber case, to do so before the United States gives proposals 
to Canada, and to do so in a manner that allows the opportunity for 
meaningful consultation with the committee?

    Answer. Yes, if confirmed, I commit to fully brief the members of 
the Finance Committee and their staffs on the softwood lumber case and 
on proposals regarding resolution of the ongoing dispute, upon request 
from members or their staffs, and before proposals are made. I will do 
so in a manner that allows for meaningful consultations with the 
committee.
                             digital trade
    Question. Last month, Senator Thune and I sent a letter outlining 
some of our priorities on digital trade, which is now vital to 
exporters in every State and industry. In particular, we called on the 
administration to tackle the full range of barriers to America's 
digital exports. In recent years, the Commerce Department has been a 
leader in the executive branch on many of these issues critical to a 
large and growing part of the U.S. economy.

    Do you commit to keeping digital trade at the top of your agenda 
and to examining the structure within the agency to ensure that the 
Commerce Department is best positioned to effectively tackle digital 
trade barriers?

    Answer. Yes. The Department of Commerce plays a key role in driving 
international digital trade initiatives, whether it is market access 
for U.S. digital products, standards, cybersecurity, emerging 
technologies, cross-border data flows, privacy issues, or the impact of 
digital trade on many other goods and services (as noted in the letter 
referenced above.) The International Trade Administration has led the 
government and Department of Commerce in a number of cross-cutting 
digital issues, including cybersecurity, cloud technologies, digital 
media and entertainment, privacy, and cross-border data flows. It is 
imperative that the Department of Commerce continue this important 
work, and steer the U.S. Government's efforts to combat discriminatory 
policies that hurt U.S. industry operating globally. In bilateral and 
multilateral engagement, the International Trade Administration is best 
positioned to lead the Government's efforts to expand the U.S. economy 
by facilitating digital trade and this will remain at the top of ITA's 
agenda if I am confirmed. I also commit to examine the structure within 
the agency to see if any improvements can be made.

    Question. What international initiatives do you plan specifically 
to enable digital trade to thrive and grow?

    Answer. The administration has already begun establishing bilateral 
dialogues with partners around the world, including a strategic 
economic dialogue with Japan on digital trade issues, and the 
Comprehensive Economic Dialogue with China, among others, to take 
concrete steps to improve digital trade conditions for U.S. industry. 
The modernized NAFTA will also include new provisions on digital trade. 
The Department of Commerce will continue to create new opportunities 
for U.S. businesses and the American economy, and improve upon existing 
initiatives. As such, the International Trade Administration will 
continue to lead the EU-U.S. Privacy Shield, U.S.-Swiss Privacy Shield, 
and APEC Cross-Border Privacy Rules System, facilitate digital trade 
and e-commerce chapters of Free Trade Agreements in partnership with 
our colleagues at USTR, and address barriers to digital trade, such as 
forced data localization and the measures around revealing source code. 
The International Trade Administration will maintain its role as the 
leading agency in the government for numerous digital trade issues. It 
is a priority for the administration to ensure America remains the 
global leader in all sectors supported by digital trade, and we look 
forward to continuing the important work we lead at the International 
Trade Administration.
                             privacy shield
    Question. Under the previous administration, ITA negotiated and 
launched the EU-U.S. Privacy Shield. This vital mechanism allows U.S. 
companies to transfer personal data from the European Union to the 
United States while providing strong privacy protections. The EU 
participates in an annual review of the program and of U.S. privacy 
practices to ensure its citizens' privacy remains adequately protected 
when their data is transferred here.

    The first such review, between the European Commission and a U.S. 
delegation led by the Commerce Department, is occurring in September. 
European advocacy groups and parliamentarians continue to object to the 
Privacy Shield and have challenged it in European courts. Failure to 
secure the EU's consent to continue the data transfer mechanism would 
be devastating for many U.S. exporters.

    If confirmed, will you personally ensure that Privacy Shield 
remains a priority for both ITA and Commerce Department leadership, as 
it was in the previous administration?

    Answer. Yes. The Privacy Shield Framework is critically important 
to U.S. industry's ability to do business from the United States, since 
it enables U.S. companies to access personal data in the United States 
necessary to provide goods and services globally. As of August 2017, 
over 2,300 organizations have participated in and benefitted from the 
Privacy Shield, and that number continues to grow each month. We will 
continue to support the Privacy Shield at ITA. In fact, Secretary Ross 
has reiterated the importance of the Framework and the Department's 
support for it, and we will continue to prioritize it in ITA if I am 
confirmed. As this Framework is critical to U.S. business interests, it 
will remain a priority at the Department of Commerce.

    Question. In view of ongoing European criticism of the Privacy 
Shield, how should the Commerce Department use the upcoming joint 
review to defend the agreement and ensure its continuity?

    Answer. The U.S.-EU economic relationship is the largest in the 
world, with trade flows valued at over $1 trillion annually, and 
combined stocks of investment in each economy sourced from the other 
market close to $4 trillion. Data flows are crucial to and underpin 
this strong economic relationship, allowing businesses in all sectors 
to cooperate across the Atlantic. The annual review is a unique 
mechanism that will allow both parties to engage on a regular basis to 
not only build relationships, but address any concerns about Privacy 
Shield. The Department of Commerce has been in close communication with 
their European counterparts, and we are confidant both sides will 
continue this important work and engagement to address any concerns and 
achieve a successful result.

    Question. If confirmed, will you engage vigorously with interagency 
partners, including the national security-focused agencies, to ensure 
the United States is a credible actor on data privacy issues?

    Answer. Yes. The Privacy Shield Framework contains critical 
elements related to national security and law enforcement issues that 
require close collaboration with colleagues across the Federal 
Government, including ODNI, DOJ and the Department of State. The 
Department of Commerce regularly engages with these interagency 
partners to ensure that all of the pieces of the Framework are in 
place. We will continue to collaborate with them to coordinate on all 
aspects of the Privacy Shield, including leading up to the annual 
review which will provide an important avenue for engagement with our 
European partners.
                     exports and the trade deficit
    Question. The Trump administration has talked a lot about reducing 
the trade deficit. It seems to me the best way to do that is to 
increase exports--which is what I have been saying for years. We need 
to grow things here, make things here, add value to them here and ship 
them to the rest of the world. The Commerce Department has an important 
role in promoting and supporting U.S. exports. For example, ITA's 
Portland office has made a difference for exporters in my State. 
Similar offices are operating in the States of almost every member of 
the Finance Committee.

    But the President has proposed cuts to ITA funding that would, 
among other harms, shut down 10 local offices helping small businesses 
across the country increase their exports.

    Will you fight to ensure that the administration fully funds key 
export programs?

    Answer. Yes. Exports support millions of high-paying jobs for 
American citizens, and the administration wants to see them grow. If 
confirmed, I will fight to ensure that ITA has the funds necessary to 
enable its mission of promoting the exportation of U.S. goods and 
services.

    Question. Recognizing the administration's commitment to 
manufacturing, how will you work to expand exports to grow U.S. 
manufacturing jobs and seek to address foreign barriers without putting 
those exports at risk?

    Answer. ITA has established a non-tariff barrier (NTB) task force. 
The goal is to help increase exports by leveraging Commerce's global 
footprint, its experts, industry input, and policy levers to help 
reduce, remove, and prevent NTBs to trade, to remedy unfair situations, 
and to improve agreements compliance and market access globally for 
U.S. stakeholders. This work is helping to open markets and expand our 
exports, helping to grow U.S. manufacturing jobs. As part of this work, 
ITA develops an appropriate strategy that ensures U.S. interests are 
not adversely affected by U.S. engagement. ITA works hand-in-glove with 
the company and/or industry to ensure any action taken does not put our 
exports at risk. The plan seizes upon the unique roles and skill-sets 
from each ITA unit and adds increased ITA-wide collaboration to advance 
a next generation set of trade enforcement and compliance activities to 
resolve trade barriers in a commercially-meaningful time frame. ITA has 
been quite successful in helping our companies and industries and if I 
am confirmed I look forward to continuing this collaboration to ensure 
U.S. companies can compete globally and succeed.
                        excess capacity in steel
    Question. Mr. Kaplan, we have a serious problem of global 
overcapacity in steel, aluminum, solar, and other products resulting 
from foreign government subsidies and other market-distorting 
practices. The OECD has been trying to address these issues in the 
steel sector; the Commerce Department is currently investigating 
whether imports of steel and aluminum pose a threat to our national 
security. While that investigation is ongoing, foreign steel is 
flooding our markets, further threatening U.S. jobs. Clearly we need a 
more comprehensive strategy to deal with the problem.

    In your view, what are the specific steps the United States should 
take to obtain concrete results in the reduction of global steel, 
aluminum, and solar capacity?

    Answer. With regard to steel, there are several areas where the 
United States is working to address the global excess capacity problem. 
One is in the Global Forum which originated in the G20 where Leaders in 
Hangzhou (September 2016) agreed to establish a forum where 
participants could evaluate the causes of excess capacity and encourage 
market-based adjustment. At the G20 Hamburg Summit in July 2017, 
Leaders reaffirmed this mandate and directed the Global Forum members 
to (1) complete information-sharing by August 2017, and (2) provide a 
substantive report with concrete policy solutions by November 2017. The 
work of the Global Forum is on-going, Leaders reaffirmed its importance 
in July and look forward to the report in November.

    With regard to aluminum, global overcapacity and lower prices are 
primarily a result of excess production by China's aluminum sector. The 
United States must utilize every forum to pressure China to reduce its 
aluminum capacity. The United States has requested WTO consultations on 
subsidies that China provides to certain producers of primary aluminum. 
The administration has also joined other G20 countries to develop a 
forum similar to the steel Global Forum to evaluate the causes of 
excess capacity and encourage market-based adjustment. Similar steps 
should be examined for the solar industry.

    I believe one model we should look to to deal with excess capacity 
in a range of industries (steel, aluminum, solar) is the method we used 
to deal with excess capacity in memory semiconductors in the 1980s in 
Japan. There the United States self-initiated a dumping case on DRAM 
semiconductors, pursued a Section 301 case on market access for 
semiconductors, vigorously negotiated with Japan, and ultimately 
reached a comprehensive agreement (the U.S.-Japan Agreement on Trade in 
Semiconductors) which dealt with dumping and other unfair practices 
both into the United States and third countries, and with market access 
in Japan. We combined a trade case strategy (dumping and Section 301) 
with tough negotiating to reach a very positive result. In view of the 
subsidies involved in the industries you mention, at this time we 
should consider self-initiating countervailing duty cases where 
warranted and then lead into vigorous negotiations.
                            u.s.-china trade
    Question. We have many challenges in our trade relationship with 
China. In April, Chairman Hatch and I sent a letter to the President 
laying out the areas that we think should be top priorities, including 
discriminatory and distortive technology policies and burdensome 
regulations on cloud providers. After ``initial results'' of the 100-
day action plan were announced there were no further results--or even 
progress--out of the Comprehensive Economic Dialogue and 100-day 
process that ended July 19th. And, I am not aware of any plans for 
future discussions or any strategy to tackle the issues. The Commerce 
Department co-leads the Comprehensive Economic Dialogue and thus has a 
vital role in setting the agenda for engagement with China.

    How will you, in your role at Commerce, work to address the real 
issues that U.S. businesses face in China, and what avenues of 
engagement do you see as most effective in producing results?

    Answer. I am committed to pressing China to eliminate its market-
distorting industrial policies and to open its market further to 
exports of U.S. goods and services. We will rigorously enforce existing 
U.S. trade laws to protect U.S. firms and U.S. workers from unfair 
trade practices. Working closely with our colleagues at USTR and the 
State Department, we will push China to implement market opening 
measures that they have previously agreed to in either bilateral or 
multilateral negotiations and if China does not act, we will take 
appropriate action under U.S. or international trade law. We will also 
aggressively negotiate with China to take further steps to open its 
markets to U.S. exports. Finally, our Foreign Commercial Service will 
continue to work with U.S. industry to help them sell in the China 
market.

    Also on August 14th, President Trump signed a Presidential 
Memorandum directing the U.S. Trade Representative to determine whether 
to initiate a Section 301 investigation of China's laws, industrial 
policies, and other measures that may harm American intellectual 
property rights, innovation, or technological development. In the 
memorandum, the President indicated his concern in particular with 
certain Chinese measures that may ``encourage or require the transfer 
of American technology and intellectual property to enterprises in 
China or that may otherwise negatively affect American economic 
interests.''

    The most effective approach is a coordinated combination of trade 
negotiations to create new market openings, trade enforcement to ensure 
that existing agreements are implemented and existing trade is fair to 
U.S. firms and workers, and trade promotion to help U.S. firms take 
advantage of the opportunities in the market.
                           trade negotiations
    Question. I believe the NAFTA negotiations present a great 
opportunity to negotiate agreed-upon practices with our North American 
trading partners to combat duty evasion and to improve trade 
enforcement, and this would be a great benefit for many industries. 
Combating duty evasion and improving trade enforcement have been 
priorities for the Finance Committee for some time now.

    Can you speak about how you see a renegotiated NAFTA helping to 
address these priorities?

    Answer. Combating duty evasion and improving trade enforcement are 
also priorities for ITA. A renegotiated NAFTA that leads to increased 
information sharing and collaborative enforcement efforts between the 
NAFTA countries could significantly help to address these priorities. 
For example, sharing knowledge about bad actors and past attempts to 
fraudulently enter goods into any of the NAFTA countries could result 
in actions that stop the fraudulently traded goods from crossing our 
border thus ensuring a level playing field for domestic industries. The 
NAFTA Negotiating Objectives put forth by USTR in July specify as 
objectives increasing cooperation among trade remedy administrators, 
and strengthening procedures to prevent AD/CVD duty evasion. If 
confirmed I will work with USTR to achieve these goals.

    The President pulled out of the Trans-Pacific Partnership because 
he is in favor of bilateral deals.

    Question. Where do you see the opportunities for our exporters to 
access new markets supporting high paying jobs here in the United 
States?

    Answer. There is tremendous opportunity for the United States to 
increase its exports over the next 5 years. By 2025, global 
infrastructure spending is projected to reach $9 trillion per year. By 
2050, per capita incomes in Asia and parts of Africa are projected to 
triple and be on par with the wealthiest economies of today. These 
factors will combine to create huge demand for infrastructure products 
and services, transportation equipment, high-tech machinery, energy, 
and intellectual property (IP)-intensive products and services--all 
sectors in which U.S. companies are most competitive.

    Despite the economic benefits that exporting provides to 
businesses, workers, and communities, only about 5 percent of U.S. 
companies currently export. U.S. firms under-export and are under-
represented in foreign markets compared to competitors from other 
industrialized nations. The Department is addressing this imbalance by 
aggressively promoting ``Made in America'' products and services, by 
helping U.S. businesses (especially SMEs) access reliable actionable 
information and qualified international buyers and distributors, reach 
potential tourists, and remove challenges and barriers when doing 
business overseas by reducing the costs and complexities of exporting.

    Renegotiation of NAFTA and the holding of a special session of the 
joint committee of KORUS are also part of a broader effort by the 
administration to open foreign markets, eliminate foreign market 
distortions and level the playing field. The administration has 
launched a comprehensive review of our trading systems and 
relationships to identify where the system is not working and how we 
might restore the trade balance to become more free and more reciprocal 
to the benefit of U.S. businesses, workers, farmers, ranchers, and 
service providers. With respect to trade agreements, the administration 
has expressed its intent to deepen economic ties, including through 
negotiation of trade agreements, with Japan, the European Union, and 
the United Kingdom so far. The administration is also looking at all 
members of the TPP 11.

    Question. What is your view of sectoral agreements such as TiSA and 
EGA, that may not be bilateral, but have significant potential benefits 
for U.S. companies?

    Answer. While the President has expressed a preference for 
bilateral deals, there may be instances where a number of like-minded 
trading partners can fashion an agreement that is in accordance with 
their level of ambition without the risk of having to make concessions 
to a smaller player of lesser ambitions. When such agreements can 
benefit U.S. companies and workers, they should be pursued.
                        small business exporters
    Question. The number of SMEs that export has risen exponentially 
since 1992, reaching nearly 300,000 companies today. SMEs were 
responsible for about one-third of goods exports by value in 2015, or 
$440 billion in exports, and they stand to gain by expanding their 
reach in the global marketplace. The National Small Business 
Association reported that most respondents to their survey export to 
less than 5 countries, with Canada and Mexico at the top of the list 
(and North America as the market with the greatest potential over the 
next 3 years). Yet the 7 percent of SMEs who exported to 10 or more 
countries in 2015 accounted for more than half of total SME export 
value.

    How can ITA help SMEs reach new markets and expand the volume of 
exports?

    Answer. If confirmed, I definitely want to help increase both the 
number of markets that U.S. SMEs export to as well as the volume of 
U.S. exports, by the following steps:

        To address the inherent market failures and disadvantages that 
SMEs face when seeking to take advantage of global market 
opportunities, ITA provides actionable market intelligence, including 
practical transactional know-how on the mechanics of exporting, 
guidance to manage and overcome barriers to trade, and information on 
trade financing options. Recognizing the speed at which companies need 
to operate, ITA will enable U.S. companies to access this information 
and exporter services rapidly through self-service options on its 
website and other digital channels.

        ITA will develop more focused initiatives on emerging 
industries such as 21st-
century technologies, infrastructure development, services sector 
trade, and the digital economy/e-commerce. These emerging industries 
provide great opportunity for SMEs to begin exporting and establishing 
themselves as global players while the industries are still young.

        Strengthening and expanding partnerships with State, local, 
and international export resources, economic development organizations, 
trade associations, and corporations enable the Department to reach 
more potential exporters. ITA will continue to develop strategic 
partnerships with service providers and trade facilitators across the 
United States to reach a broader network of exporters and potential 
exporters and to help more companies increase sales and productivity.

        ITA will work with USTR to include an SME chapter in Free 
Trade Agreements. This chapter specifically will help SMEs become aware 
of the specific benefits to them, giving them greater opportunity and 
reason to export to those markets.

                                 ______
                                 
               Question Submitted by Hon. Chuck Grassley
    Question. The administration is currently conducting a 232 
investigation for steel and aluminum imports, but I want to hear your 
views on another import issue that is endangering thousands of 
manufacturing jobs around the country, and that is the massive growth 
of subsidized biodiesel imports into the United States.

    Last year, more than a billion gallons of biodiesel was imported, 
which equates to roughly 39 percent of the total market. Imports are 
continuing to take away market share from U.S. producers, as our 
domestic production has shrunk to about 65 percent of production 
capacity. I'm sure you're aware of the pending anti-dumping and 
countervailing duty case the Department is investigating concerning 
highly subsidized biodiesel imports from Argentina and Indonesia. While 
the Department's initial determination is due in a few weeks, I am 
curious to get your opinion on how we are letting jobs and market share 
being taken away along with our energy security.

    Answer. The administration remains focused on U.S. energy security 
and is committed to vigorously enforcing our trade remedy laws to 
address unfair trade practices that impact American workers and 
companies in the energy sector. If confirmed, I can assure you that I 
will employ all of the tools provided under the law to take swift 
action against harmful trade practices that put Americans at a 
disadvantage. Further, if confirmed, I will commit to focus on 
increasing U.S. market share and jobs within the energy sector and 
ensuring that U.S. companies and workers harmed by unfair trade 
practices receive the full relief provided under U.S. law.

                                 ______
                                 
               Question Submitted by Hon. Michael B. Enzi
    Question. The U.S. soda ash industry is a shining example of U.S. 
competitiveness in manufacturing. The industry is the most competitive 
and environmentally friendly in the world due to a unique deposit of 
the soda ash material, trona, in Green River, WY. The industry exports 
over $1 billion annually, over half of its total output. However, as a 
result of China's excess steel capacity, U.S. workers have experienced 
devastation from massive Chinese exports to the United States. In the 
context of the Joint Committee on Commerce and Trade (JCCT), China made 
commitments to exchange information with the Commerce Department 
regarding its excess capacity in soda ash. Does the administration plan 
to enforce this obligation through the JCCT or will excess capacity in 
China's soda ash market be addressed in the context of the U.S.-China 
Comprehensive Economic Dialogue?

    Answer. Under the JCCT, the United States repeatedly raised the 
issue of China's soda ash production, exports and government supports, 
but China did not respond to our concerns. At the 2016 JCCT, China 
agreed to an exchange of information regarding the soda ash industry. 
The administration has established a new framework for our engagement 
with China and in July the United States and China held the first 
Comprehensive Economic Dialogue under which the issue of excess 
capacities was discussed. Eliminating unfair trade practices around the 
world, particularly by China, is a top priority for President Trump and 
Secretary Ross. As the administration works out detailed arrangements 
under the new framework, we will determine the appropriate forum to 
implement the JCCT outcome and raise our concerns regarding soda ash. 
In any case, the commitments made by China regarding China's excess 
capacity in soda ash will be enforced. We will keep you informed 
regarding this issue as we move forward.

                                 ______
                                 
                Questions Submitted by Hon. John Cornyn
                             market access
    Question. China is the United States' largest global trading 
partner but with good reason also stands as one of the most frequently 
cited trouble spots for industries in the United States due to a wide 
range of market-distorting industrial policies and discriminatory 
market conditions.

    How would you seek to address problematic Chinese actions more 
effectively while minimizing economic disruption or the risk of 
retaliatory action against businesses and workers in the United States?

    Answer. ITA is committed to press China to eliminate its market-
distorting industrial policies and to open its market further to 
exports of U.S. goods and services. We will rigorously enforce existing 
U.S. trade laws to protect U.S. firms and U.S. workers from unfair 
trade practices. Working closely with our colleagues at USTR and the 
State Department, we will push China to implement market opening 
measures that they have previously agreed to in either bilateral or 
multilateral negotiations and if China does not act, we will take 
appropriate action under U.S. or international trade law. We will also 
aggressively negotiate with China to take further steps to open its 
markets to U.S. exports. Finally, our Foreign Commercial Service will 
continue to work with U.S. industry to help them sell in the China 
market.

    At the same time, we understand the risk of retaliation against 
U.S. exports. By acting consistently with U.S. and international law 
and by seeking to make progress through negotiated solutions, those 
risks will be minimized.

    Question. President Trump and Chinese President Xi Jinping had a 
frank dialogue in April during the Mar-a-Lago summit, and struck a 
cooperative tone--including announcements of China's 100-day plan and 
upcoming commercial dialogues. The 100-day plan's final results covered 
some areas, but the first Comprehensive Economic Dialogue did not 
produce the results many had hoped.

    How will you, in your role at Commerce (one of the CED's two 
leads), work to address the real issues that U.S. businesses face in 
China?

    What approaches, both existing and new, do you see as most 
effective in producing results?

    Answer. I will work closely with Secretaries Ross and Mnuchin to 
press China to eliminate its market-distorting industrial policies and 
to open its market further to exports of U.S. goods and services. The 
100-day plan achievements were part of the Comprehensive Economic 
Dialogue, which is an ongoing process. China's market-distorting 
industrial policies and mercantilist trade regime not only injure U.S. 
firms and workers, they also raise prices and limit choices for Chinese 
consumers, create instability in China's economy and ultimately make 
Chinese firms less competitive. We will use the CED to push for 
measurable results--a substantial increase in U.S. exports--that show 
that China is addressing these problems. We are also very cognizant of 
the large build-up of overcapacity in certain industries due to 
subsidies. We will explore fully options to deal with this overcapacity 
build up including the use of self-initiated countervailing duty cases 
and dealing with this issue through multilateral forums.

    Moreover, on August 14th, President Trump signed a Presidential 
Memorandum directing the U.S. Trade Representative to determine whether 
to initiate a Section 301 investigation of China's laws, industrial 
policies, and other measures that may harm American intellectual 
property rights, innovation, or technological development. In the 
memorandum, the President indicated his concern in particular with 
certain Chinese measures that may ``encourage or require the transfer 
of American technology and intellectual property to enterprises in 
China or that may otherwise negatively affect American economic 
interests.''

    The most effective approach is a coordinated combination of trade 
negotiations to create new market openings, trade enforcement to ensure 
that existing agreements are implemented and existing trade is fair to 
U.S. firms and workers, and trade promotion to help U.S. firms take 
advantage of the opportunities in the market.

    Question. At present, China maintains a 50% foreign equity cap 
restriction on foreign direct investment in the Chinese domestic life 
insurance market. An equity cap is unnecessary to protect a Chinese 
life/health insurance industry that controls 95% of the market and is 
actively expanding in foreign markets, including in the United States, 
where no such equity caps exist. Removal of the Chinese equity cap 
restriction has been an industry objective since the Chinese joined the 
WTO in 2000. I applaud the administration's commitment to getting China 
to play fairly in the international marketplace and note the recent 
announcement of an agreement between the United States and China to 
make progress on some issues. At the hearing, you suggested other items 
were also being pursued as part of the ``100-day plan'' agreed to 
between President Trump and President Xi.

    Can you tell me if the life insurance equity cap restriction has 
been or will be tabled as part of the ongoing CED with China?

    Answer. China's 50% foreign equity cap on life insurance is a trade 
barrier and its removal would provide significant commercial benefits 
to U.S. life insurers. This issue has been a part of our ongoing CED 
dialogue with China.

    Question. Can you commit to pursuing this and other market-opening 
advancements in the Chinese domestic financial services sector?

    Answer. Yes, this issue is critically important and we will 
continue to pursue this and other market opening measures in the 
Chinese domestic financial services sector. China's restrictions on 
investment by U.S. life insurance and other financial services firms 
were discussed at the CED and those discussions will continue until 
China grants full, fair, and reciprocal access to its markets to all 
U.S. services firms.
                                 nafta
    Question. More money is spent on biomedical R&D in the United 
States than in any other country in the world. Proposals under 
consideration in Canada to dramatically change the way medicines are 
paid for would ignore this important investment and instead apply 
harmful pricing setting measures from other countries to Canada's 
private market. This would significantly harm U.S. biopharmaceutical 
companies and ultimately exacerbate delays in patient access to 
medicine.

    What more do you think the International Trade Administration can 
do to advance policies for American innovators that appropriately 
recognize and reward the value of medicines and ensure patients have 
access to the medicines they need?

    Answer. I recognize that Canada and many other trading partners 
fail to appropriately value U.S. pharmaceuticals and biopharmaceuticals 
in their government pricing and reimbursement regimes, causing enormous 
harm to patients and undermining future biomedical investment and 
innovation. If confirmed, I will work with our interagency partners to 
ensure that trade agreements include enforceable commitments that 
government pricing and reimbursement systems appropriately value and 
reward innovation as well as provide transparency and procedural 
fairness to U.S. companies. I will also ensure that the International 
Trade Administration works to achieve these objectives in other 
bilateral engagements with individual countries. We are fully aware of 
the important provisions on this issue in the Bipartisan Congressional 
Trade Priorities and Accountability Act of 2015.

    Question. The administration has worked to advance an ambitious 
trade agenda, which has the potential to significantly strengthen 
economic growth and accelerate the pace of innovation in our economy.

    Do you agree that NAFTA modernization will be one of the first 
opportunities to level the playing field for American innovators by 
advancing strong standards and will also be critical for setting a high 
bar for future agreements?

    Answer. NAFTA was negotiated more than 23 years ago, and, since 
that time, the U.S. economy and U.S. businesses have changed 
considerably. NAFTA has not kept up with these changes; instead, most 
chapters are outdated and do not reflect the most recent standards in 
U.S. trade agreements.

    NAFTA's renegotiation is one component in a broader strategy of 
this administration. A cohesive trade policy is key to the 
administration's efforts to promote growth and innovation and we intend 
to set a high bar in our renegotiation of NAFTA and certainly expect 
these high standards will set a valuable precedent for other 
negotiations the administration may undertake in the future. The NAFTA 
objectives set forth by USTR in July make clear that inclusion of 
strong provisions on digital trade, cross-border data flows, and 
intellectual property are a critical part of this effort.

    Question. Moreover, do you believe that it is important to 
establish strong IP standards as part of a NAFTA renegotiation?

    Answer. Absolutely. Our IP-intensive industries are significant 
drivers of economic growth, job creation, and exports. I believe a 
renegotiated NAFTA should provide a fair and level playing field for 
U.S. businesses, and strong IP standards are a prerequisite to ensuring 
that happens.

    Question. Mexico is an essential market for Texas agriculture. In 
addition to the beef we export there, it's our top foreign dairy market 
by far. Nationwide, U.S. exports to Mexico are about triple what they 
are in China, despite that market's tremendous importance. So when 
we're looking south, we want to make sure there's a strong priority on 
keeping the access we have, which is relevant for tariffs and nontariff 
policies. Furthermore, it is essential that the NAFTA modernization 
efforts incorporate text on the issue of geographical indications (GIs) 
and common names. The trade agreement between Canada and the European 
Union is set to be implemented this summer. The protections the EU 
demanded from Canada will impair market access for cheese and other 
food products from third countries and are in complete disregard of 
Canadian intellectual property laws. Also, Mexico has been negotiating 
FTA expansion with the European Union that is intended to incorporate 
GI provisions. As the European Commission seeks to incorporate GI 
provisions in all its FTAs, it has been attempting to use the 
negotiation with Mexico to impose de facto barriers to trade and 
competition on various common name products that the EU falsely claims 
as GIs. It is critical that the U.S. continue to reinforce that GIs are 
a type of intellectual property.

    Question. Will GI provisions similar to those in TPP be 
incorporated into NAFTA and future U.S. trade deals?

    Answer. I share your concerns that the EU's approach to the 
protection of geographical indications in the EU and third-country 
markets can inhibit U.S. producers' access to those markets, posing 
particular challenges for those who rely on the use of common food 
names. I am fully aware of the importance of this issue and will work 
to preserve U.S. market access opportunities for common name products 
despite the EU's efforts to misuse GIs to erect barriers to those 
products. I agree that U.S. export markets must remain open to American 
goods, and that access should not be restricted through protectionist 
policies. Our Commerce Department staff, including staff from ITA and 
the U.S. Patent and Trademark Office (USPTO) work through bilateral and 
multilateral channels to advance U.S. market access interests in 
foreign markets and ensure that GI-related trade initiatives of the EU 
and its member states and international organizations do not undercut 
such market access. I would also note that the NAFTA objectives put 
forth by USTR in July specifically state the following objective: 
``prevent the undermining of market access for U.S. products through 
the improper use of a country's system for protecting or recognizing 
geographical indications, including failing to ensure transparency and 
procedural fairness and protecting generic terms.'' I will work with 
USTR to achieve this goal.
                         intellectual property
    Question. Intellectual property-intensive industries not only 
support nearly 46 million jobs, but also account for over half (52%) of 
all U.S. exports.

    What role do you believe American's innovation-led industries, such 
as the biopharmaceutical, software, and motion picture industries, can 
play in helping to address our trade imbalances?

    Answer. These industries are a critical element in dealing with 
trade imbalances, First, the very high-end products and services they 
produce are in demand world-wide and are very important exports 
already. But by enhancing intellectual property protection worldwide 
and further opening foreign markets, we can expand even further the 
role of these exports and the importance of these industries. As you 
noted, our IP-intensive industries are a significant source of both 
jobs and exports. The world's demand for U.S. innovation and creativity 
manifests itself in report after report that show the outsized effect 
these industries continue to have on the U.S. economy. Open markets and 
rules-based trading will allow these industries to continue their 
positive contribution toward our trade balances. Finally, the very high 
level of expertise and dynamism these industries embody lead to whole 
new categories of products and services that can over time greatly 
contribute to lessening trade imbalances.

    Question. What role do you believe the International Trade 
Administration should play to advance this goal?

    Answer. ITA will contribute to this goal by advocating for a 
trading system that respects intellectual property, by confronting 
unfair trade barriers wherever they are found, and through our already 
significant engagement and consultation with innovation-led industry. 
We also will be a leader in digital trade issues, ensuring that our 
trade agreements provide full world-wide access for U.S. digital trade 
products, that the industry is not subjected to artificial constraints, 
and that their intellectual property is protected.

    Question. We have seen a disturbing trend in recent years whereby 
some of our trading partners have ignored their international 
commitments, particularly with respect to intellectual property 
protection, either by failing to fully implement agreements or by 
flouting the rules in order to give their businesses an unfair 
advantage. These decisions are short-sighted and ultimately discourage 
innovation, investment and job growth.

    What do you believe ITA should be doing to ensure our trading 
partners are enforcing existing commitments and deter countries from 
weakening such standards in their own IP regimes?

    Answer. Insisting on a fair and equitable international trading 
system is a top priority for me. Our businesses are increasingly 
reliant on multiple forms of intellectual property with those 
industries providing an outsized effect on the U.S. economy and job 
growth. Our trading partners should expect nothing less from us than an 
insistence on full compliance with the agreements we have made. The 
United States has many tools, some carrot, some stick, that can be 
wielded to address any shortcomings among our trading partners. These 
include the use of domestic trade cases as well as WTO cases. Also 
direct intervention by our country and industry experts, including 
those on the ground with the Foreign Commercial Service within our 
trading partners, can lead to progress. As the lead for ITA, I would 
support using whatever tool would get the job done.
                               air cargo
    Question. The International Trade Administration has a unique 
responsibility to promote U.S. trade, investment, and exports, while 
also ensuring that U.S. companies face fair trade practices around the 
globe. The U.S. air cargo industry is a leading exporter of shipping 
and logistics services and a major contributor to moving exported U.S. 
products to foreign markets. I have recently learned that the U.S. air 
cargo industry is facing challenges in China that undermine their 
abilities to compete. Aviation authorities in China have significantly 
restricted the take-off and landing ``slots'' that are available to 
U.S. carriers and, in particular, cargo carriers. In addition to 
restrictions that force U.S. cargo carriers to land at odd hours and 
keep expensive aircraft idle on the ramp for hours unnecessarily, the 
U.S. cargo carriers have not seen any appreciable increase in the 
availability of new slots, despite substantial airport infrastructure 
growth in China over the last decade. Additionally, they sometimes are 
prevented from serving two points in China on the same flight even 
though the U.S.-China air transport agreement permits them to do so. I 
am concerned that the China aviation authorities are providing 
preferential treatment to their domestic cargo carriers in awarding new 
slots and not living up to China's commitments in the U.S.-China air 
transport agreement.

    What will you do at ITA to work with Departments of State and 
Commerce to ensure that U.S. cargo carriers have access to take-off and 
landing slots in China on a fair and nondiscriminatory basis?

    Answer. I am well aware of the U.S. cargo industry's concerns in 
this area and commit to meet with the impacted U.S. cargo airlines to 
hear and address their concerns, and to consult with you and your staff 
regarding this problem.

    Recognizing that China is not meeting their full obligations under 
the U.S.-China air transport agreement, the United States has made 
clear to China that we will not negotiate the further improvements they 
seek to the agreement that would allow more passenger flights from east 
China airports to the United States, until they meet their obligations 
under our existing agreement. These obligations include the ones 
mentioned related to non-discriminatory and commercially viable slot 
allocation to all U.S. cargo and passenger airlines and permitting 
``co-terminalized'' flights by cargo air carriers that link two 
airports in China on the same flight routing.

    With the Departments of State and Transportation, ITA has held 
discussions with the Chinese aviation authorities, and proposed 
solutions that would improve the fairness, transparency, and efficiency 
of Chinese slot allocation at congested airports. With my interagency 
colleagues, I will continue to work closely with U.S. aviation industry 
stakeholders to address their concerns and make every effort to solve 
this discriminatory treatment issue.
                               other ftas
    Question. The United States has negotiated bilateral, regional, 
multilateral, and sectoral trade agreements to open foreign markets, 
eliminate foreign market distortions, and level the playing field. 
Beyond NAFTA and KORUS, which countries, regions and sectors are 
priorities for the Trump administration?

    Answer. Renegotiation of NAFTA and the holding of a special session 
of the joint committee of KORUS are part of a broader effort by the 
administration to open foreign markets, eliminate foreign market 
distortions, and level the playing field. The administration has 
launched a comprehensive review of our trading systems and 
relationships to identify where the system is not working and how we 
might restore the trade balance to become more free and more reciprocal 
to the benefit of U.S. businesses, workers, farmers, ranchers, and 
service providers. With respect to trade agreements, the administration 
has expressed its intent to deepen economic ties, including through 
negotiation of trade agreements, with Japan, the European Union, and 
the United Kingdom so far. We are also looking at all members of the 
TPP 11.
                           dispute settlement
    Question. Foreign investment is a critical tool that allows 
American manufacturers to grow and thrive, allowing them to reach the 
95 percent of consumers who exist outside of U.S. borders and boosting 
income they contribute to the U.S. economy. Indeed, little known is the 
fact that U.S. companies that invest overseas are the predominant 
exporters from the United States that have U.S.-based capital 
investment and research and development. But investors have to receive 
fair treatment in order for that investment to benefit the U.S. That is 
why investor-state dispute settlement mechanisms are such a critical 
part of our trade agreements. All investors in the U.S. benefit from 
protections baked into the U.S. Constitution, but such basic 
protections are not always available when U.S. investors invest in 
other countries, meaning that investors must lean on investor-state 
dispute settlement to ensure a fair treatment and the rule of law.

    Congress included investor-state as part of Trade Promotion 
Authority, voting by a heavy majority in the Senate to keep this 
important provision in our trade agreements going forward.

    Will you commit that you and your team at Commerce will commit to 
following Congress's direction on the importance of investor-state 
enforcement, as part of a robust U.S. enforcement tool kit--including 
in NAFTA renegotiations?

    Answer. We are fully aware of the important provisions on this 
issue in the Bipartisan Congressional Trade Priorities and 
Accountability Act of 2015. If confirmed, I commit to work to ensure 
that U.S. investments abroad are accorded a level playing field and 
that such investments receive the same types of substantive protections 
and enforceable rights that are available under U.S. legal principles 
and practice, including in NAFTA. This is an important part of our 
enforcement tool kit.

    The NAFTA negotiating objectives set forth by USTR in July state as 
one objective: ``Secure for U.S. investors in the NAFTA countries 
important rights consistent with U.S. legal principles and practice, 
while ensuring that NAFTA country investors in the United States are 
not accorded greater substantive rights than domestic investors.'' If 
confirmed I will work with USTR to achieve this objective.
                            export promotion
    Question. The Commerce Department and ITA play a vital role in 
providing strategic direction for the Federal Government's export 
promotion activities and also offers tangible support for many U.S. 
exporters, through its Foreign and Commercial Service personnel and 
Advocacy Center as well as the interagency Trade Promotion Coordinating 
Committee.

    How will you support and expand the trade promotion initiatives, so 
that more U.S. companies can capture export sales and support job 
growth here at home?

    Answer. There are three areas of priority for the Commerce 
Department and ITA to fully engage more U.S. companies in export 
growth:

        I plan to strengthen our advocacy efforts to ensure we are 
effective and have the administration's support for U.S. companies 
bidding on infrastructure projects that have been duly qualified and 
can benefit from U.S. Government advocacy. To do this, I will work with 
my team to ensure the TPCC Advocacy Working Group has the attention of 
its senior-level officials across the administration to advocate on 
behalf of U.S. business interests in such areas as infrastructure, 
aerospace and defense, energy, healthcare, and ITC.

        We will deepen our work with State and local partners. For the 
first time earlier this year, ITA developed export strategies with each 
State. We want to expand and improve this effort to include elements on 
performance metrics and training in connection with these strategies. 
We will also monitor State activity and progress to ensure the 
strategies are implemented.

        We will also work to ensure that our overseas officers and 
staff are trained on the latest issues facing U.S. exporters be it 
intellectual property or e-commerce. We want to ensure that U.S. 
companies get all the assistance they need.

                                 ______
                                 
                Questions Submitted by Hon. Richard Burr
    Question. Despite frequent bilateral engagement with India since 
2014, India has failed to create significant positive opportunities for 
U.S. workers, businesses, and farmers. It remains a tough place to do 
business, ranking last among G20 countries in the World Bank's Doing 
Business report, and on the United States Trade Representative's 
Priority Watch List in the 2017 Special 201 Report, due to its 
insufficient protection of intellectual property rights. Aside from 
bilateral discussion, what venues and opportunities does Commerce have 
to address these issues with the government of India to affect change?

    Answer. The International Trade Administration (ITA) does seek to 
lower trade barriers with India through its bilateral commercial 
dialogues with the Indian Ministry of Commerce and Industry and through 
USTR's Trade Policy Forum. But in addition to these bilateral 
engagements, ITA plays a key role in facilitating direct dialogue 
between U.S. industry and the Government of India (GOI) through venues 
such as the U.S.-India CEO Forum and the U.S.-India Ease of Doing 
Business Private Sector Outreach webinar series. The ITA Advocacy 
Center works with U.S. exporters to ensure they benefit from a level 
playing field when competing for GOI tenders. Through its Enforcement 
and Compliance unit. ITA ensures that India and other trading partners 
abide by fair trading practices that are consistent with international 
trade obligations. This unit is devoted to making sure all trade 
agreements are complied with and can focus on Indian intellectual 
property issues and other Indian trade issues. ITA also seeks to 
promote stronger protection and enforcement of intellectual property 
rights during this year's Global Entrepreneurship Summit, to be held in 
Hyderabad, India November 28-30, 2017. Finally, Commerce is also the 
home of the United States Patent and Trademark Office (``PTO'') which 
can bring tremendous technical resources to bear in solving these 
Indian intellectual property problems.

    Question. The American Manufacturing Competitiveness Act (AMCA), 
passed by Congress in May 2016, establishes a new process for the 
consideration and enactment of the Miscellaneous Tariff Bill (MTB). I 
appreciate the U.S. Department of Commerce's efforts on the MTB, in 
cooperation with the U.S. International Trade Commission and U.S. 
Customs and Border Protection, to implement the ongoing MTB review 
process, as required under the AMCA. I am concerned, however, that some 
aspects of the ITC's process will lead to the improper exclusion of a 
number of petitions from the ITC's final report. What steps will you 
take to ensure that these issues are remedied during future MTB 
reviews?

    Answer. The American Manufacturing Competitiveness Act (AMCA) sets 
out clearly defined roles for agencies in the MTB review process, and 
the International Trade Administration has taken the requirements of 
the AMCA very seriously. During the recent review, ITA staff spent 
countless hours reviewing the petitions for domestic production 
concerns to make sure their analysis was as accurate as possible. ITA 
then worked closely with U.S. Customs and Border Protection and the 
U.S. Department of Agriculture to send the Commerce report to the USITC 
and the relevant committees. ITA has a good working relationship with 
the USITC, which I believe will continue into the next MTB review. We 
will make every effort to make sure no improper exclusions occur. 
Commerce has significant authority in this area because, in fact, 
section 3(c) of the AMCA requires that the USITC, ``tak[e] into account 
the report of the Secretary of Commerce,'' when preparing its report.

    Ultimately, however, the determination on how MTB petitions are 
categorized in the USITC report is the USITC's to make.

                                 ______
                                 
              Question Submitted by Hon. Patrick J. Toomey
                               air cargo
    Question. The International Trade Administration has a unique 
responsibility to promote U.S. trade, investment, and exports, while 
also ensuring that U.S. companies face fair trade practices around the 
globe.

    The U.S. air cargo industry is a leading exporter of shipping and 
logistics services and a major contributor to moving exported U.S. 
products to foreign markets. It is my understanding that the U.S. air 
cargo industry is facing challenges in China that undermine their 
ability to compete. Aviation authorities in China have significantly 
restricted the take-off and landing ``slots'' that are available to 
U.S. carriers and, in particular, cargo carriers. In addition to 
restrictions that force U.S. cargo carriers to land at odd hours and 
keep expensive aircraft idle on the ramp for hours unnecessarily, the 
U.S. cargo carriers have not seen any appreciable increase in the 
availability of new slots, despite substantial airport infrastructure 
growth in China over the last decade. Additionally, they sometimes are 
prevented from serving two points in China on the same flight even 
though the U.S.-China air transport agreement permits them to do so. I 
am concerned that the China aviation authorities are providing 
preferential treatment to their domestic cargo carriers in awarding new 
slots and not living up to China's commitments in the U.S.-China air 
transport agreement.

    What will you do at ITA to work with Departments of State and 
Commerce to ensure that U.S. cargo carriers have access to take-off and 
landing slots in China on a fair and nondiscriminatory basis?

    Answer. I am well aware of the U.S. cargo industry's concerns in 
this area and commit to meet with the impacted U.S. cargo airlines to 
hear and address their concerns, and to consult with you and your staff 
regarding this problem.

    Recognizing that China is not meeting their full obligations under 
the U.S.-China air transport agreement, the United States has made 
clear to China that we will not negotiate the further improvements they 
seek to the agreement that would allow more passenger flights from east 
China airports to the United States, until they meet their obligations 
under our existing agreement. These obligations include the ones 
mentioned related to non-discriminatory and commercially viable slot 
allocation to all U.S. cargo and passenger airlines and permitting 
``co-terminalized'' flights by cargo air carriers that link two 
airports in China on the same flight routing.

    With the Departments of State and Transportation, ITA has held 
discussions with the Chinese aviation authorities, and proposed 
solutions that would improve the fairness, transparency, and efficiency 
of Chinese slot allocation at congested airports. With my interagency 
colleagues, I will continue to work closely with U.S. aviation industry 
stakeholders to address their concerns and make every effort to solve 
this discriminatory treatment issue.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. We have seen a disturbing trend in recent years whereby 
some of our trading partners have ignored their international 
commitments, particularly with respect to intellectual property 
protection, either by failing to fully implement agreements or by 
flouting the rules in order to give their businesses an unfair 
advantage. These decisions are short-sighted and ultimately discourage 
innovation, investment, and job growth.

    What do you believe ITA should be doing to ensure our trading 
partners are enforcing existing commitments and deter countries from 
weakening such standards in their own IP regimes?

    Answer. Insisting on a fair and equitable international trading 
system is a top priority for me. Our businesses are increasingly 
reliant on multiple forms of intellectual property with those 
industries providing an outsized effect on the U.S. economy and job 
growth. Our trading partners should expect nothing less from us than an 
insistence on full compliance with the agreements we have made. The 
United States has many tools, some carrot, some stick, that can be 
wielded to address any shortcomings among our trading partners. These 
include the use of domestic trade cases as well as WTO cases. Also 
direct intervention by our country and industry experts, including 
those on the ground with the Foreign Commercial Service within our 
trading partners, can lead to progress. As the lead for ITA, I would 
support using whatever tool would get the job done.

    Question. In the context of the Joint Committee on Commerce and 
Trade (JCCT), China made commitments to exchange information with the 
Commerce Department regarding its excess capacity in soda ash.

    Does the administration plan to enforce this obligation through the 
JCCT, or will excess capacity in China's soda ash market be addressed 
in the context of the U.S.-China Comprehensive Economic Dialogue?

    Answer. Under the JCCT, the United States repeatedly raised the 
issue of China's soda ash production, exports and government supports, 
but China did not respond to our concerns. At the 2016 JCCT, China 
agreed to an exchange of information regarding the soda ash industry. 
The new administration has established a new framework for our 
engagement with China and in July the United States and China held the 
first Comprehensive Economic Dialogue under which the issue of excess 
capacities was discussed. Eliminating unfair trade practices around the 
world, particularly by China, is a top priority for President Trump and 
Secretary Ross. As the administration works out detailed arrangements 
under the new framework, we will determine the appropriate forum to 
implement the JCCT outcome and raise our concerns regarding soda ash. 
In any case, the commitments made by China regarding China's excess 
capacity in soda ash will be enforced. We will keep you informed 
regarding this issue as we move forward.

    Question. I understand that China's new cybersecurity law, as well 
as other related regulations, has created a number of restrictions for 
U.S. companies that operate in China. These regulations require annual 
security reviews, forfeiture of proprietary information, and also 
mandate that all data be stored locally in China. And because these 
regulations are also unclearly defined, they're creating confusion for 
companies and the U.S. Government alike.

    How will you work to ensure that China's regulations do not 
discriminate against U.S. firms and allow U.S. businesses to compete on 
a level playing field?

    Answer. I am committed to press China to eliminate its market-
distorting industrial policies and to open its market further to 
exports of U.S. goods and services. I am very concerned about the 
restrictions in China's Cybersecurity Law, and other laws, regulations, 
and measures. To address the inequities in China's market, I intend to 
rigorously enforce existing U.S. trade laws to protect U.S. firms and 
U.S. workers from unfair trade practices. Working closely with my 
colleagues at USTR and the State Department, we will push China to 
implement market opening measures that they have previously agreed to 
in either bilateral or multilateral negotiations and if China does not 
act, we will take appropriate action under U.S. or international trade 
law. We will also aggressively negotiate with China to take further 
steps to open its markets to U.S. exports. Finally, ITA staff working 
closely with our Commercial Service on the ground in China, will 
continue to work with U.S. industry to help them sell in the China 
market including in the high technology space.

    Moreover, on August 14th, President Trump signed a Presidential 
Memorandum directing the U.S. Trade Representative to determine whether 
to initiate a Section 301 investigation of China's laws, industrial 
policies, and other measures that may harm American intellectual 
property rights, innovation, or technological development. In the 
memorandum, the President indicated his concern in particular with 
certain Chinese measures that may ``encourage or require the transfer 
of American technology and intellectual property to enterprises in 
China or that may otherwise negatively affect American economic 
interests.''

    Question. The OECD estimates that there is more than 700 million 
metric tons of global excess capacity in steel and China accounts for 
the majority of it. Last year, the G20 created a new forum to try to 
address this ongoing problem. But thus far nothing has been done to 
solve it. In fact, China has not even shared the data necessary to 
inform our discussions about the problem.

    What do you think should be done to address the ongoing global 
excess capacity problems in steel and other sectors?

    Answer. With regard to steel, there are several areas where the 
United States is working to address the global excess capacity problem. 
One is in the Global Forum which originated in the G20 where Leaders in 
Hangzhou (September 2016) agreed to establish a forum where 
participants could evaluate the causes of excess capacity and encourage 
market-based adjustment. At the G20 Hamburg Summit in July 2017, 
Leaders reaffirmed this mandate and directed the Global Forum members 
to (1) complete information-sharing by August 2017, and (2) provide a 
substantive report with concrete policy solutions by November 2017. The 
work of the Global Forum is on-going, Leaders reaffirmed its importance 
in July, and look forward to the report in November.

    With regard to aluminum, global overcapacity and lower prices are 
primarily a result of excess production by China's aluminum sector. The 
United States must utilize every forum to pressure China to reduce its 
aluminum capacity. The United States has requested WTO consultations on 
subsidies that China provides to certain producers of primary aluminum. 
The administration has also joined other G20 countries to develop a 
forum similar to the steel Global Forum to evaluate the causes of 
excess capacity and encourage market-based adjustment.

    I believe one model we should look at to to deal with excess 
capacity in a range of industries (steel, aluminum, solar) is the 
method we used to deal with excess capacity in memory semiconductors in 
the 1980s in Japan. There the United States self-initiated a dumping 
case on DRAM semiconductors, pursued a Section 301 case on market 
access for semiconductors, vigorously negotiated with Japan, and 
ultimately reached a comprehensive agreement (the U.S.-Japan Agreement 
on Trade in Semiconductors) which dealt with dumping and other unfair 
practices both into the United States and third countries, and with 
market access in Japan. We combined a trade case strategy (dumping and 
Section 301) with tough negotiating to reach a very positive result. In 
view of the subsidies involved in steel, at this time we should 
consider self-initiating countervailing duty cases where warranted and 
then lead into vigorous negotiations.

    Question. I have had longstanding concerns that currency 
manipulation by our trading partners has repeatedly undermined U.S. 
competitiveness and led to job losses.

    How would you use Commerce's existing authorities to address this 
behavior?

    Answer. Currency manipulation and misalignment is a critical issue 
when it comes to the United States' ability to compete in international 
trade on a level playing field. This administration has made clear its 
view that it is unacceptable for any country to try to grow its exports 
based on a manipulated or misaligned exchange rate, and I firmly 
believe the United States should not stand idly by while U.S. 
companies, workers, farmers and ranchers suffer the consequences of 
having to compete against such unfair practices. While the authority to 
monitor and report on currency manipulation rests with the Department 
of the Treasury, Commerce separately has the authority to investigate 
an allegation that foreign producers and exporters are benefitting from 
currency-related foreign government subsidies, provided the allegation 
meets the requirements for initiating an investigation under the U.S. 
countervailing duty law. An allegation of a countervailable currency 
subsidy made by a petitioning U.S. industry or its workers will be 
carefully examined by Commerce based on the merits of and evidence 
underlying the allegation, in conformity with the initiation 
requirements under U.S. law. I am committed to vigorously enforcing the 
trade remedy laws to ensure that U.S. companies, workers, farmers, and 
ranchers receive the relief from unfair trade to which they are 
entitled under law.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    The Finance Committee meets this morning to discuss three 
nominations. First is Mr. Robert Charrow's nomination to serve as the 
General Counsel of the Department of Health and Human Services. This is 
a tough job under normal circumstances, but it's especially tough in 
the Trump administration. That's because the HHS General Counsel's role 
is to enforce the law, and right now the President and his team are 
determined to undermine the law.

    A few examples: the law on the books tells the administration to 
make cost sharing payments that help keep down the cost of health 
insurance for millions of Americans. But the President keeps 
threatening to cut those payments off to score a misguided political 
win. The lack of certainty this is causing in the private markets is 
already setting up to hit Americans directly in the pocketbooks with 
premium hikes on January 1st. If the payments do stop, the markets will 
go into a tailspin.

    Additionally, the administration is taking taxpayer dollars that 
are intended to help get individuals and families signed up for health 
coverage, and it's using those funds to stifle enrollment. That means 
more people are living without access to the care they need.

    I recall sitting right here during Secretary Price's nomination 
hearing when he said, quote: ``. . . My role will be one of carrying 
out the law that you all in Congress pass. It's not the role of the 
legislator. . . .'' Everything the administration has done to undermine 
the law tells a different story.

    Bottom line, the General Counsel needs to ensure the Department is 
faithfully executing the law, meeting the highest standard of ethics, 
and cooperating fully with congressional oversight. Mr. Charrow is 
going to face tough questions today as to whether he's prepared for 
that task.

    Next is Mr. Matthew Basset's nomination to serve as Assistant 
Secretary for Legislation at the Department of Health and Human 
Services. It's my hope that the Senate moves in a bipartisan direction 
with respect to health care and the many other issues under the HHS 
umbrella.

    If the two sides are going to come together around lasting 
proposals that can pass with big majorities, it'll be necessary to have 
partners at HHS who are willing to work with members regardless of 
party.

    So I'm looking forward to hearing from Mr. Bassett, who would be 
the liaison between HHS and the Congress if confirmed, how he plans to 
accomplish that. I am also looking for his commitment that he will 
respond to requests from all members of this committee, both Democrats 
and Republicans.

    Finally, Mr. Gilbert Kaplan is nominated to serve as the Under 
Secretary for International Trade at the Department of Commerce, which 
would put him at the top of the International Trade Administration.

    So far in this administration, there's been a lot of tough talk on 
trade enforcement, but there hasn't been much in the way of action. And 
there is a real cost to all the over-hyped rhetoric when the follow-
through isn't there. For example, in response to all of the tough talk 
on steel, countries have shipped even more steel to the United States 
in a rush to get in ahead of any hike in tariffs.

    My friend Leo Gerard, president of the United Steelworkers, 
recently informed me that imports have surged 18% since the President 
launched his section 232 investigation. Meanwhile, the administration 
appears to be backing off. This episode demonstrates how tough talk 
without a real strategy hurts American workers.

    Mr. Kaplan's background suggests he will be a tough trade enforcer, 
and that's exactly what's needed right now at ITA. I expect he'll 
refrain from making promises on trade enforcement unless and until the 
administration has done its homework and is prepared to follow through. 
Beyond enforcement, it's also critical that ITA is as committed to 
growing American exports. But the administration's budget proposals 
would slash funding for a host of programs within ITA that American 
small businesses depend on to break into foreign markets. So I look 
forward to hearing how Mr. Kaplan, if confirmed, would ensure that 
American workers and manufacturers don't lose out on opportunities to 
sell to consumers around the world because the administration insisted 
on self-defeating budget cuts.

    I want to thank all three nominees for being here today, and I look 
forward to hearing their testimony. Thank you, Chairman Hatch.

                                  
                                 [all] 

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
